<html>
<title> - OVERSIGHT OF WORKING CONDITIONS FOR AIRLINE GROUND WORKERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
       OVERSIGHT OF WORKING CONDITIONS FOR AIRLINE GROUND WORKERS

=======================================================================

                                (116-49)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
 


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
42-244 PDF             WASHINGTON : 2020 
                              
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania

                        Subcommittee on Aviation

  RICK LARSEN, Washington, Chair
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DON YOUNG, Alaska                    STACEY E. PLASKETT, Virgin Islands
DANIEL WEBSTER, Florida              STEPHEN F. LYNCH, Massachusetts
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON,
SCOTT PERRY, Pennsylvania              District of Columbia
ROB WOODALL, Georgia                 DANIEL LIPINSKI, Illinois
JOHN KATKO, New York                 STEVE COHEN, Tennessee
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
LLOYD SMUCKER, Pennsylvania          Georgia
PAUL MITCHELL, Michigan              DINA TITUS, Nevada
BRIAN J. MAST, Florida               JULIA BROWNLEY, California
MIKE GALLAGHER, Wisconsin            ANTHONY G. BROWN, Maryland
BRIAN K. FITZPATRICK, Pennsylvania   GREG STANTON, Arizona
TROY BALDERSON, Ohio                 COLIN Z. ALLRED, Texas
ROSS SPANO, Florida                  JESUS G. ``CHUY'' GARCIA, Illinois
PETE STAUBER, Minnesota              EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri (Ex Officio)    SEAN PATRICK MALONEY, New York
                                     DONALD M. PAYNE, Jr., New Jersey
                                     SHARICE DAVIDS, Kansas, Vice Chair
                                     ANGIE CRAIG, Minnesota
                                     GRACE F. NAPOLITANO, California
                                     SALUD O. CARBAJAL, California
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chairman, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Frederica S. Wilson, a Representative in Congress from the 
  State of Florida, opening statement............................     8
Hon. Debbie Mucarsel-Powell, a Representative in Congress from 
  the State of Florida, opening statement........................     9

                               WITNESSES

Hon. Eileen Higgins, Commissioner, Miami-Dade County:

    Oral statement...............................................    10
    Prepared statement...........................................    11
Donielle Prophete, Vice President, Communications Workers of 
  America Local 3645:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Esteban Barrios, Ramp Worker, Miami International Airport, 
  testifying on behalf of Service Employees International Union 
  Local 32BJ:

    Oral statement...............................................    20
    Prepared statement...........................................    21
Marlene Patrick-Cooper, President, UNITE HERE Local 23:

    Oral statement...............................................    26
    Prepared statement...........................................    28
Brian Callaci, Ph.D., Postdoctoral Scholar and Labor Economist:

    Oral statement...............................................    33
    Prepared statement...........................................    35
Chris Harrison, on behalf of Airlines for America:

    Oral statement...............................................    36
    Prepared statement...........................................    38
Russell Brown, Chief Executive Officer, RWP Labor:

    Oral statement...............................................    40
    Prepared statement...........................................    42

                       SUBMISSIONS FOR THE RECORD

Article, ``Twelve Arrested at Reagan Airport in Worker Protest, 
  Union Official Says,'' by Martin Weil, Washington Post, 
  November 27, 2019, Submitted for the Record by Hon. Eleanor 
  Holmes Norton..................................................    66
Letter of January 24, 2020, from Hearing Witness Brian Callaci, 
  Ph.D., Postdoctoral Scholar and Labor Economist, Submitted for 
  the Record by Hon. Rick Larsen.................................    73

                                APPENDIX

Question from Hon. Salud O. Carbajal to Esteban Barrios, Ramp 
  Worker, Miami International Airport, testifying on behalf of 
  Service Employees International Union Local 32BJ...............    77

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            January 13, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Aviation
    FROM:  LSubcommittee staff
    RE:      LSubcommittee hearing on Oversight of Working 
Conditions for Airline Ground Workers
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Aviation will meet on Wednesday, 
January 15, 2020, at 10:00 a.m. in 2167 Rayburn House Office 
Building to hold a hearing titled, Oversight of Working 
Conditions for Airline Ground Workers. The hearing will explore 
compensation and occupational safety and health issues for 
workers who load baggage, prepare meals, clean cabins, and 
perform other ground-based functions important to the 
operations of U.S. airlines.

                               BACKGROUND

    On the night of August 11, 2019, 24-year-old Kendrick 
Hudson was driving a tug on the tarmac at the Charlotte-Douglas 
International Airport in Charlotte, N.C., when he swerved to 
avoid a stray suitcase in his path.\1\ The tug overturned, and 
Mr. Hudson, an employee of American Airlines' regional 
subsidiary Piedmont Airlines, was pinned underneath.\2\ He died 
of his injuries.\3\
---------------------------------------------------------------------------
    \1\ Hannah Smoot, Charlotte airport worker killed in baggage 
vehicle accident identified, Charlotte Observer (Aug. 12, 2019), 
https://www.charlotteobserver.com/news/local/article233780512.html.
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    Mr. Hudson's union, the Communications Workers of America 
(CWA), says his death was preventable and part of a pattern of 
workplace injuries, some of them fatal, among airline ground 
workers. CWA Local 3645 vice president Donielle Prophete, who 
will testify at the Subcommittee's hearing, told a reporter 
that Piedmont employees call a zone of the tarmac between gates 
E30 and E38 at Charlotte ``Death Valley'' because of poor 
lighting and visibility at night.\4\ And Mr. Hudson's death 
came at a time when employees of contractors for mainline 
carriers like American, Delta, and United had begun to raise 
concerns over their safety and health in the workplace as well 
as low wages and poor working conditions. This hearing will 
explore those issues.
---------------------------------------------------------------------------
    \4\ Lauren Lindstrom and Hannah Smoot, `Accident waiting to 
happen': After death, airport workers want safety improvements, 
Charlotte Observer (Sept. 24, 2019), https://www.charlotteobserver.com/
news/local/article235417587.html.
---------------------------------------------------------------------------

I.    OUTSOURCING GENERALLY

    Mainline air carriers such as American, Delta, and United 
outsource a substantial amount of their operations to regional 
carriers like Mr. Hudson's employer, Piedmont. Regional 
airlines operated 41 percent of all scheduled passenger flights 
in 2017, according to the regional airlines' trade 
association.\5\ Some regional airlines are wholly owned 
subsidiaries of mainline carriers while others are independent 
airlines that operate flights on behalf of several different 
mainline carriers. Regional airlines serve not just small 
communities but also trunk routes: regional carriers 
ExpressJet, Republic, Envoy, and SkyWest operate outsourced 
flights on behalf of American and United between Washington 
National Airport and Chicago O'Hare, for example.\6\
---------------------------------------------------------------------------
    \5\ Regional Airline Association: Who We Are, https://www.raa.org/
who-we-are/.
    \6\ See, e.g., FlightAware, IFR Route Analyzer, at https://
flightaware.com/analysis/route.rvt?origin=KDCA&destination=KORD.
---------------------------------------------------------------------------
    Unions representing or seeking to represent airport ground 
workers allege that the mainline carriers' pattern of 
outsourcing flight operations extends to the outsourcing of 
ground services, such as baggage handling and cabin cleaning, 
that are intrinsic to airline operations. The mainline carriers 
often contract for these services with a combination of other 
firms. For example, Delta and United have formed subsidiaries--
Delta Global Services and United Ground Express--to provide 
ground-handling functions for those two carriers as well as 
others at many airports.\7\ Airlines also contract with 
numerous firms such as Eulen America for ground-handling and 
LSG SkyChefs and Gate Gourmet for catering. And in some cases, 
the mainline carriers contract with their regional airline 
partners, such as SkyWest, to provide ground-handling services 
(for example, regional carrier SkyWest reported revenue of $44 
million from ground-handling services provided to other 
airlines in 2017).\8\
---------------------------------------------------------------------------
    \7\ See, e.g., Delta Global Services: About Us, https://
www.dalgs.com/about/; United Ground Express, at http://
unitedgroundexpress.com/.
    \8\ See, e.g., SkyWest, Inc., Annual Report (Form 10-K) (Feb. 21, 
2019), at 53.
---------------------------------------------------------------------------
    Airlines do not individually break out the amounts spent on 
outsourced ground services by category, but mandatory filings 
with the Bureau of Transportation Statistics (BTS), part of the 
U.S. Department of Transportation, contain total amounts that 
airlines spend on ``services.'' According to their BTS filings, 
the three largest mainline carriers--American, Delta, and 
United--spent a combined $16.6 billion in 2018 on ``services,'' 
which include ground support functions.\9\
---------------------------------------------------------------------------
    \9\ Dep't of Transp. Bureau of Transp. Stats., Form 41, Schedule P-
6 (2018).
---------------------------------------------------------------------------

II.    LOW PAY

    There is no dedicated repository for information on ground 
workers' pay. However, Dr. Brian Callaci, a labor economist 
commissioned by Communication Workers of America (CWA) who will 
testify at the hearing, has analyzed Bureau of Labor Statistics 
data to conclude that the proportion of airlines' outsourced 
services has increased by 57 percent since 2001.\10\ At the 
same time, while direct airline employees' wages have increased 
on a net basis since 2001, contract workers' wages have 
decreased by 12 percent over the same period, according to Dr. 
Callaci's research.\11\
---------------------------------------------------------------------------
    \10\ Brian Callaci, Fissuring in Flight: Consolidation and 
Outsourcing in the US Domestic Airline Industry, 1997-2018, at 7 (Jan. 
7, 2020), available at https://cwa-union.org/sites/default/files/
20200108-fissuring-in-flight.pdf.
    \11\ Id.
---------------------------------------------------------------------------
    Preston Strickland, who works in an LSG SkyChefs kitchen 
preparing cold entrees for loading aboard airliners, told the 
New York Times last year that he spends his shift in an area 
where the temperature is 40 degrees or below yet makes 
approximately $11 per hour after more than four years with the 
company.\12\ He told the Times reporter that ``[h]e recently 
spent several months homeless because he didn't have money for 
rent.'' \13\
---------------------------------------------------------------------------
    \12\ Noam Scheiber, 11,000 People Who Prepare Your Airline Food Are 
Considering a Strike, N.Y. Times (June 4, 2019), https://
www.nytimes.com/2019/06/04/business/economy/airport-workers-union.html.
    \13\ Id.
---------------------------------------------------------------------------
    A recent survey of 900 agents of Envoy Air, one of American 
Airlines' regional subsidiaries that operates nationwide as 
American Eagle, revealed that 27 percent of the respondents 
said they rely on public assistance and are forced to take 
measures such as selling blood plasma and borrowing against 
retirement accounts to make ends meet.\14\ Similarly, an 
investigation by the Miami CBS affiliate in April 2019 found 
that Envoy pays ground workers at Miami a starting wage of 
$9.48 an hour and that often their workweek is limited to 30 
hours or less, providing an annual salary of $15,000 to 
$18,000.\15\ An Envoy worker was quoted in the story as saying 
that his coworkers ``are on public assistance,'' that some 
``sleep in their cars in the employee parking lot,'' and that 
employees have organized ``an underground food pantry bank.'' 
\16\ Similarly, the Miami Herald reported in 2018 on the 
situation of an employee of catering contractor LSG SkyChefs, 
who said she made $11.10 per hour: ``not enough to cover the 
cost of the company's insurance plan'' and not enough for her 
``to care for herself and her six-year-old grandson.'' \17\
---------------------------------------------------------------------------
    \14\ Hugo Martin, American Airlines subsidiary workers say they 
must take food stamps, sell blood to get by, L.A. Times (Feb. 23, 
2018), https://www.latimes.com/business/la-fi-travel-briefcase-airline-
wages-20180223-story.html.
    \15\ Jim DeFede, MIA's Forgotten Workers: Low Wages, Poor Treatment 
for Many at Miami International Airport, CBS Miami (Apr. 19, 2019), 
https://miami.cbslocal.com/2019/04/21/mia-forgotten-workers-low-wages-
poor-treatment-miami-international-airport/.
    \16\ Id.
    \17\ Taylor Dolven, Miami approved MIA workers' living wage. So why 
are many still making below minimum?, Miami Herald (Dec. 5, 2018), 
https://www.miamiherald.com/news/business/tourism-cruises/
article222612650.html.
---------------------------------------------------------------------------
    Furthermore, while the Miami-Dade County Municipal Code 
mandates a $12.63-per-hour living wage with a corresponding 
health care benefit or a $15.52 hourly minimum wage with no 
health benefits (with indexation to inflation), airlines and 
certain other businesses are exempt from the ordinance.\18\ In 
the fall of 2018, American ``moved hundreds of [wheelchair] 
attendants to its own subsidiary, Envoy, which is exempt from 
the living-wage law.'' \19\ A worker who said she previously 
worked for Eulen on behalf of American Airlines and was 
transferred from Eulen to American subsidiary Envoy told the 
Miami Herald that ``she went from making $16.15 per hour to 
making $9.50 per hour'' pursuant to the transfer because she 
lost her coverage under the living-wage ordinance.\20\
---------------------------------------------------------------------------
    \18\ Miami-Dade County, Fla., Municipal Code  2-8-9; see Douglas 
Hanks, This Miami airport worker puts in 17-hour days at two jobs. He 
might get a raise., Miami Herald (July 24, 2018), https://
www.miamiherald.com/news/local/community/miami-dade/
article215448780.html.
    \19\ Taylor Dolven, Miami approved MIA workers' living wage. So why 
are many still making below minimum?, Miami Herald (Dec. 5, 2018), 
https://www.miamiherald.com/news/business/tourism-cruises/
article222612650.html.
    \20\ Id.
---------------------------------------------------------------------------
    The chart below describes typical wage ranges for many 
ground workers, reported by their unions.


------------------------------------------------------------------------
                      Represented        Employees'       Typical wage
      Union            employees          employers          ranges
------------------------------------------------------------------------
           CWA     11,845 ramp and         American     $10.75 to $16.25
                   passenger service       Airlines          per hour
                          workers      subsidiaries
                                       Piedmont and
                                              Envoy
Service Employees  32,535 contract    Numerous airline  Nearly half earn
  International    airport workers,    contractors,     less than $15
   Union (SEIU)    including baggage  including ABM,    per hour; cabin
                   handlers, cabin     Delta Global     cleaners earn
                   cleaners, cargo        Services,     $10.73 per hour
                   workers, customer     Swissport,        on average
                          service           Menzies
                   representatives,       Aviation,
                     lavatory and     Prospect Airport
                    water agents,      Services, G2
                     ramp agents,     Secure Staff,
                   ticket agents,     Eulen, Worldwide
                   and wheelchair     Flight Services,
                   attendants, among    Primeflight
                           others          Aviation
                                      Services, and
                                              Dnata
    Unite Here     15,000 airline     United Airlines,  More than half
                   catering workers   Gate Gourmet,     earn less than
                                               and LSG Sk$15 per hour
------------------------------------------------------------------------
Data provided by CWA, SEIU, and Unite Here.\21\

    There\\ are some examples of localities attempting to 
ensure that their airport workers are paid a living wage. For 
example, workers stationed at San Francisco International 
Airport (SFO) are paid a minimum of $17.66 an hour, above the 
State's $12 hourly minimum as well as the $15.59 minimum in the 
city of San Francisco. Additionally, under SFO's Quality 
Standards Program, some SFO workers, including baggage 
handlers, cabin cleaners, and other workers with access to 
secure areas, are paid $18.16 an hour.\22\
---------------------------------------------------------------------------
    \21\ Data provided to Democratic Committee staff via e-mail.
    \22\ Mallory Moench, SFO is booming. But workers there are 
struggling, San Francisco Chronicle (Nov. 25, 2019), https://
www.sfchronicle.com/business/article/SFO-is-booming-But-workers-there-
are-struggling-14859523.php.
---------------------------------------------------------------------------

III.    WORKER SAFETY AND HEALTH

    Cesar Valenzuela, a 51-year-old father of four, died on 
February 12, 2014, at the Los Angeles International Airport 
when he was thrown from the tractor he was driving across the 
tarmac. He was found pinned beneath one of the tractor's 
tires.\23\ Accidents happen, and fatal injuries occur in many 
lines of work, but a subsequent investigation found that Mr. 
Valenzuela died because the tractor he was driving was not even 
equipped with a seatbelt.\24\ His employer, Menzies Aviation, 
was reportedly fined $77,250 by the California Occupational 
Safety and Health Administration.\25\
---------------------------------------------------------------------------
    \23\ Bart Jansen, Congested airport ramps risky before and after 
flights, USA Today (Dec. 17, 2014), https://www.usatoday.com/story/
news/nation/2014/12/17/airport-ramp-safety-airlines-iata-faa-osha-ntsb/
18597565/.
    \24\ Id.
    \25\ Id.
---------------------------------------------------------------------------
    Ground workers at other locations around the country relate 
similar stories of faulty equipment and harsh working 
conditions that jeopardize not only their safety and heath but 
also the safety and health of airline passengers. The Miami CBS 
affiliate's investigators spoke with an employee of Eulen 
America, which provides ground services for American and Delta 
in Miami, who said that when cleaning cabins between flights, 
``[y]ou can find blankets with blood, people puke in the 
blankets, you can find Pampers on the floor.'' Yet the worker 
said his supervisor ``told him not to waste time cleaning too 
thoroughly.'' \26\ Another cabin cleaner said cockroaches 
infested Eulen vans that transport cabin cleaning crews and 
supplies to the aircraft--supplies such as blankets that are 
placed in passenger seats.\27\
---------------------------------------------------------------------------
    \26\ Jim DeFede, MIA's Forgotten Workers: Low Wages, Poor Treatment 
For Many At Miami International Airport, CBS Local (Apr. 21, 2019), 
https://miami.cbslocal.com/2019/04/21/mia-forgotten-workers-low-wages-
poor-treatment-miami-international-airport/.
    \27\ Id.
---------------------------------------------------------------------------
    Esteban Barrios, a Eulen employee who will testify at the 
hearing on behalf of SEIU, told the Miami CBS affiliate that 
``[s]ometimes I feel that they [Eulen] think we are machines 
and not human.'' \28\ Mr. Barrios performs services on behalf 
of Delta Air Lines at Miami. Ms. Higgins, the Miami-Dade County 
commissioner who will also testify at the hearing, told 
reporters she was ``subjected to intimidating behavior during 
an airport tour'' of Eulen's operation.\29\ More recently, an 
Occupational Safety and Health Administration (OSHA) 
investigation in 2019 confirmed many findings of the CBS 
investigation of conditions faced by Eulen employees.\30\ OSHA 
cited Eulen with nearly $80,000 in fines (later reduced to 
about $47,000), related to violations including:
---------------------------------------------------------------------------
    \28\ Id.
    \29\ Id.
    \30\ See OSHA, Citation and Notification of Penalty, Inspection 
#1403303, available at https://miami.cbslocal.com/wp-content/uploads/
sites/15909786/2019/11/OSHA-Miami-Citations-copy.pdf.
---------------------------------------------------------------------------
    <bullet> LExposure of employees to blood-borne pathogens 
when handling hypodermic needles and cleaning up blood on 
planes. Citations indicate that the company failed to provide 
training on how to safely handle cleanups or offer hepatitis B 
vaccinations to at-risk workers.\31\
---------------------------------------------------------------------------
    \31\ Alexi C. Cardona, OSHA Says Miami International Airport 
Contractor Jeopardized Worker Safety, Miami New Times (Nov. 26, 2019), 
https://www.miaminewtimes.com/news/miami-international-airport-
contractor-eulen-cited-by-osha-for-safety-violations-11321975.
---------------------------------------------------------------------------
    <bullet> LExposure to excessive heat that was ``causing or 
likely to cause death or serious physical harm to employees.'' 
\32\
---------------------------------------------------------------------------
    \32\ Id.
---------------------------------------------------------------------------
    <bullet> LExposure to dangerous noise levels. Citations 
indicated that Eulen did nothing to safeguard ramp workers from 
hearing loss, including extended exposure for more than six 
hours in one day.\33\
---------------------------------------------------------------------------
    \33\ Id.

    These issues are by no means unique to Miami. To be sure, 
airport tarmacs everywhere can be dangerous places: The 
Government Accountability Office (GAO) reported in 2019 that an 
estimated 27,000 ramp accidents and incidents occur 
worldwide.\34\ OSHA has certain authority over airline ramp 
workers' occupational safety and health,\35\ but OSHA generally 
investigates ramp accidents only when they involve fatalities 
or the hospitalization of three or more workers.\36\
---------------------------------------------------------------------------
    \34\ Gov't Accountability Office, Aviation Safety: Opportunities 
Exist for FAA to Improve Airport Terminal Area Safety Efforts, at 13, 
GAO-19-639 (Aug. 2019), https://www.gao.gov/assets/710/701116.pdf.
    \35\ See 29 U.S.C.  651, et seq.
    \36\ Gov't Accountability Office, Aviation Safety: Enhanced 
Oversight and Improved Availability of Risk-Based Data Could Further 
Improve Safety, at 7 n.13, GAO-12-24 (Oct. 2011), at https://
www.gao.gov/assets/590/585613.pdf.
---------------------------------------------------------------------------
    Below are select cases in which workers died or faced 
significant injuries that are at least partially attributable 
to the failure of their employers--whether it be contractor or 
airline--to maintain a safe workplace.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                            Airport                                        Employer                                   Description
--------------------------------------------------------------------------------------------------------------------------------------------------------
Los Angeles International Airport (LAX).......................       Menzies Aviation (SEIU)   In 2014, a bag handler was thrown from a tow tractor and
                                                                                               pinned beneath its tires after rushing to pick up airline
                                                                                                     baggage. His employer, Menzies Aviation, was fined
                                                                                                      $77,000 by the California OSHA for safety lapses,
                                                                                                    including not having a seatbelt on vehicle, and for
                                                                                                inaccurately reporting the death as a heart attack.\37\
San Francisco International Airport (SFO).....................                    US Airways   In 2012, a worker suffered a broken leg after falling 10
                                                                                                      feet from a jet bridge onto the tarmac. After the
                                                                                                  incident, SFO made numerous safety changes, including
                                                                                                establishing a team that holds monthly safety meetings,
                                                                                               leads trainings in ramp driving, and issues citations and
                                                                                                                              fines for violations.\38\
LaGuardia Airport (LGA).......................................                      Air Serv   In 2012, a cabin cleaner was struck and killed by a water
                                                                                               truck. Despite multiple requests to his supervisor to be
                                                                                                   reassigned due to safety concerns, his requests were
                                                                                               ignored. OSHA fined his employer, Air Serv, $7,000 for a
                                                                                               ``serious violation'' that the company failed to keep the
                                                                                               work site ``free from recognized hazards.'' To date, his
                                                                                                          family has not received any compensation.\39\
Charlotte Douglas International Airport (CLT).................             Piedmont Airlines         In 2019, a baggage worker was killed after his tug
                                                                                                vehicle rolled over after hitting luggage. Workers cite
                                                                                                      poor lighting as contributing to the accident. In
                                                                                               response, airport officials have expanded the scope of an
                                                                                                   existing airport lighting analysis at the request of
                                                                                                                                 American Airlines.\40\
Seattle-Tacoma International Airport (SEA)....................     Evergreen Aviation Ground   In 2015, a bag handler was awarded $10 million (which was
                                                                                            Logupheld in 2018) after the brakes failed in the vehicle he
                                                                                                was driving and the vehicle crashed into a broken cargo
                                                                                                  loader, causing injuries that left him paralyzed. The
                                                                                                     airport was found liable for injuries arising from
                                                                                                                          worksite safety breaches.\41\
Seattle-Tacoma International Airport (SEA)....................       Alaska Airlines/Menzies                     In 2016, the Washington Department of Labor & Industries
                                                                                    Aviation   fined Alaska Airlines and Menzies Aviation for health and
                                                                                                 safety violations, including failing to ensure powered
                                                                                                      industrial trucks were in safe working condition.
                                                                                               According to the investigation, Alaska Airlines failed to
                                                                                                  ``provide safety devices, safeguards, work practices,
                                                                                               processes, and the means to make the workplace safe from
                                                                                                 hazards that were causing, or likely to cause, serious
                                                                                               physical harm to Menzies ramp agent employees who handle
                                                                                                cargo and passenger baggage for Alaska Airlines at Sea-
                                                                                               Tac Airport,'' and was fined $62,000 for 16 violations of
                                                                                                           state worker and health and safety laws.\42\
--------------------------------------------------------------------------------------------------------------------------------------------------------

      \\   \\   \\   \\   \\   \\
---------------------------------------------------------------------------
    \37\ Dan Weikel, Cal/OSHA Fines Aviation Company in Death of LAX 
Baggage Worker, L.A. Times (Aug. 20, 2014), https://www.latimes.com/
local/lanow/la-me-ln-baggage-handler-death-20140820-story.html.
    \38\ Bart Jansen, Congested airport ramps risky before and after 
flights, USA Today (Dec. 17, 2014) https://www.usatoday.com/story/news/
nation/2014/12/17/airport-ramp-safety-airlines-iata-faa-osha-ntsb/
18597565/.
    \39\ Ginger Adams Otis and Rich Schapiro, Airport Worker Killed on 
the Job, Three Children Left with Nothing: Family, N.Y. Daily News 
(Jan. 25, 2014), https://www.nydailynews.com/new-york/airport-worker-
killed-job-children-left-family-article-1.1591586.
    \40\ Lauren Lindstrom and Hannah Smoot, Charlotte Airport Workers 
Want Safety Improvements after August Death, Charlotte Observer (Sept. 
24, 2019), https://www.journalnow.com/business/charlotte-airport-
workers-want-safety-improvements-after-august-death/
article_5ab62dc2-2bb4-5f98-968e-e6c15757c33a.html.
    \41\ Chandra Lye, Port of Seattle Not Required to Pay Entire $40M 
Verdict to Worker Injured During Wreck of Luggage Vehicle, Legal 
Newsline (July 24, 2018).
    \42\ Steve Wilhelm, Alaska Airlines, Baggage-Handler Menzies Fined 
by Labor Regulators, Puget Sound Bus. J. (Mar. 8, 2016).

--------------------------------------------------------------------------------------------------------------------------------------------------------
                            Airport                                        Employer                                   Description
--------------------------------------------------------------------------------------------------------------------------------------------------------
Seattle-Tacoma International Airport (SEA)....................               Alaska Airlines   In 2005, a baggage cart bumped into an Alaska Airlines MD-
                                                                                                   83 prior to take-off. At 26,000 feet with 142 people
                                                                                               aboard, the cabin depressurized due to a 12-inch-by-six-
                                                                                                inch hole in the fuselage later found by investigators.
                                                                                                 Fortunately, the pilots were able to land the aircraft
                                                                                                                              without any injuries.\43\
Atlanta-Hartsfield Airport (ATL)..............................                Delta Airlines     In 2010, a baggage tug vehicle driver died after being
                                                                                               ejected from his vehicle and was not wearing a seatbelt.
                                                                                                     Delta said in a memo to employees that many of its
                                                                                                 vehicles currently do not have seat belts, and that it
                                                                                                 averages 14 ejections per year, with half resulting in
                                                                                               ``serious employee injury.'' In 2010, two Delta employees
                                                                                                   died in different incidents after being ejected from
                                                                                                  baggage tugs. In the subsequent OSHA settlement, OSHA
                                                                                                     cited Delta for violating Federal regulations that
                                                                                                  requires employers to provide employees with personal
                                                                                               protective equipment, which in this case means seatbelts.
                                                                                               In the settlement, Delta agreed to pay an $8,500 penalty
                                                                                               and install seat belts in vehicles that do not have them,
                                                                                                     train employees to use the seat belts, enforce the
                                                                                                requirement, and report results of a monitoring program
                                                                                                                                      back to OSHA.\44\
--------------------------------------------------------------------------------------------------------------------------------------------------------

    In\\ a recent\\ CWA survey of 800 employees of Envoy Air, 
respondents reported troubling rates of ``chronic understaffing 
and time pressure, inadequate support for high flight volumes, 
and safety concerns on the runway and at the gate.'' \45\ 
Specifically, nearly 8 in 10 participants reported feeling 
rushed to complete their job during all or most shifts, and 
nearly half of agents working on the ramp reported being unable 
to complete required aircraft inspections.\46\ Finally, 58 
percent of agents who conduct cabin searches for contraband and 
other risks before flights report not having enough time to 
complete the search.\47\ The CWA survey also found that, from 
January 2017 to September 2018, there were 1,459 recordable 
injuries and illnesses among Envoy employees at U.S. airports, 
with more than 800 of those injuries being strains and sprains 
typically caused by lifting, pushing, or pulling.\48\ 
Additionally, according to the SEIU, 99 people were killed in 
airport ramp accidents from 2001 to 2014.\49\
---------------------------------------------------------------------------
    \43\ See Jansen, supra note 38.
    \44\ Kelly Yamanouchi, Delta reaches OSHA settlement in bag 
handler's death, Atlanta Journal-Const. (Apr. 17, 2012), https://
www.ajc.com/business/delta-reaches-osha-settlement-bag-handler-death/
Otm1uuCKAcYI71ZX1iYFGM/.
    \45\ CWA, Survey of Gate and Ramp Agents at American Airlines 
Subsidiary Report Hazardous Conditions at 8 (Jan. 14, 2019), available 
at https://cwa-union.org/news/releases/gate-and-ramp-agents-american-
airlines-subsidiary-report-hazardous-conditions.
    \46\ Id.
    \47\ Id.
    \48\ Id. at 5.
    \49\ Bart Jansen, USA Today, Congested Airport Ramps Risky Before 
and After Flights (Dec. 17, 2017), https://www.usatoday.com/story/news/
nation/2014/12/17/airport-ramp-safety-airlines-iata-faa-osha-ntsb/
18597565/.
---------------------------------------------------------------------------
    And while most of the health issues these workers face are 
physical, many health issues can also stem from mental 
exhaustion. For instance, in 2018, an American Airlines bus 
driver (employed through Envoy) suffered a fatal heart attack 
while on the job; in the week leading up to his death, he had 
worked 66 hours in six days.\50\ Colleagues and family cite 
chronic stress, extended work hours, and dangerous and 
stressful conditions for Envoy workers as contributing factors 
for the driver's death.\51\ Numerous Envoy workers at the Miami 
airport surveyed by CWA stated feeling rushed to meet 
deadlines, citing understaffing as a main reason.\52\
---------------------------------------------------------------------------
    \50\ Taylor Dolven, American Airlines Worker at MIA Died of a Heart 
Attack. His Coworkers Blame the Job, Miami Herald (Jan. 14, 2019), 
https://www.miamiherald.com/news/business/tourism-cruises/
article224524845.html.
    \51\ Id.
    \52\ Id.
---------------------------------------------------------------------------
    A December 2015 GAO report on air travel and communicable 
diseases following the 2014 Ebola outbreaks described how 
aviation service providers may not have ensured that workers 
have the necessary training and protective equipment to safely 
and properly respond to communicable diseases.\53\ Contracted 
aviation-service employees expressed concern that they did not 
receive adequate communicable disease training and reported 
challenges accessing appropriate personal protective equipment, 
cleaning equipment, and cleaning supplies.\54\ Inadequate 
training, equipment, and supplies could lead to employee 
exposures to pathogens that could in turn result in the 
transmission of infectious diseases.\55\
---------------------------------------------------------------------------
    \53\ See Gov't Accountability Office, Air Travel and Communicable 
Diseases: Comprehensive Federal Plan Needed for U.S. Aviation System's 
Preparedness, at 38, GAO-16-127 (Dec. 16, 2015), https://www.gao.gov/
products/GAO-16-127.
    \54\ Id.
    \55\ Id.
---------------------------------------------------------------------------
    A December 2018 union survey of Gate Gourmet drivers 
reported safety and health concerns with the catering vehicles 
used to service planes, with 97 percent of drivers reporting 
that the company is continuing to use vehicles which are 
labeled ``no go'' due to issues such as broken safety rails, 
missing emergency equipment, broken brakes, and rodent and 
insect infestations.\56\ The Food and Drug Administration (FDA) 
cited Gate Gourmet after discovering a string of health and 
safety infractions at one of the company's main production 
kitchens in Kentucky.\57\ The FDA's citation letter stated 
inspectors found ``dead apparent nymph and adult cockroaches 
too numerous to count'' within food-preparation areas and ``a 
heavy buildup of more than a day's accumulation of grease, food 
deposits, and general filth.'' \58\ This followed a November 
2017 FDA inspection of Gate Gourmet's Los Angeles production 
facility, in which listeria bacteria was discovered. This led 
to American Airlines, Delta Airlines, and Virgin America 
immediately stopping their utilization of the Gate Gourmet 
services until these issues were addressed.\59\ Gate Gourmet 
ultimately addressed the issues and the FDA closed out the 
issue on May 14, 2018.\60\
---------------------------------------------------------------------------
    \56\ Int'l Bhd. of Teamsters, Gate Gourmet's Unsafe Vehicle Fleet 
Could Force Delays at World's Busiest Airport, (Dec. 21, 2018), https:/
/teamster.org/news/2018/12/gate-gourmets-unsafe-vehicle-fleet-could-
force-delays-worlds-busiest-airport.
    \57\ Noam Scheiber, 11,000 People Who Prepare Your Airline Food Are 
Considering a Strike, N.Y. Times (June 4, 2019), https://
www.nytimes.com/2019/06/04/business/economy/airport-workers-union.html.
    \58\ Id.
    \59\ Kelsey M. Mackin, FDA Downgrades Gate Gourmet Airline Catering 
Operation, Food Safety News (Apr. 16, 2018) https://
www.foodsafetynews.com/2018/04/fda-downgrades-gate-gourmet-
airline-catering-operation/.
    \60\ See FDA, Closeout Letter (May 14, 2018), available at https://
www.fda.gov/inspections-compliance-enforcement-and-criminal-
investigations/warning-letters/gate-gourmet-inc-05142018.
---------------------------------------------------------------------------

                               WITNESSES

    <bullet> LMs. Eileen Higgins, Commissioner, Miami-Dade 
County, Florida
    <bullet> LMs. Donielle Prophete, Vice President, 
Communications Workers of America Local 3645
    <bullet> LMr. Esteban Barrios, Service Employees 
International Union
    <bullet> LMs. Marlene Patrick-Cooper, President, Unite Here 
Local 23
    <bullet> LDr. Brian Callaci, Labor Economist
    <bullet> LMr. Chris Harrison, Airlines for America
    <bullet> LMr. Russell Brown, RWP Labor


       OVERSIGHT OF WORKING CONDITIONS FOR AIRLINE GROUND WORKERS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2167, Rayburn House Office Building, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. The subcommittee will come to order.
    I want to start by asking unanimous consent the chair be 
authorized to declare recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    I will proceed with an opening statement before recognizing 
Mr. Garret Graves, the ranking member, for an opening 
statement.
    So good morning and thank you to the witnesses for joining 
today's hearing on working conditions for airline ground 
workers.
    I have been on the Committee on Transportation and 
Infrastructure for now nearly 20 years, and I believe today--
when we go back into the record--is the first hearing dedicated 
to issues specifically facing ground workers, the women and men 
who load baggage, clean cabins, and assist passengers in 
wheelchairs, and prepare meals, among other jobs.
    Without ground workers, commercial air travel would come to 
a halt. That is why the House passed major pro-worker 
legislation last year to support the hard-working women and men 
who, literally, keep the airline industry and many other parts 
of the economy moving.
    We passed the Butch Lewis Act, which passed the House in 
July, and it protected hard-earned workers' pensions and long-
term financial security, which eventually was signed into law.
    We passed the Raise the Wage Act, which also passed the 
House in July, and supports American workers by raising the 
Federal minimum wage to $15 an hour by 2025.
    It is also my hope the House will soon vote on the Protect 
the Right to Organize, or PRO Act, to strengthen workers' 
rights to organize and bargain collectively, and hold employers 
who violate workers' rights accountable.
    A strong, economic foundation for workers requires fair and 
secure workplaces. So while progress has been made, Congress 
wants to do more to provide oversight for and improve the pay 
and working conditions of ground workers, the two main issues 
that we will focus on at today's hearing.
    Even as the airline industry continues to grow, and more 
people than ever are choosing to fly, not all ground workers 
are sharing in the benefits. Today the committee will hear from 
labor representatives about the tens of thousands of ground 
workers who make less than $15 an hour, some making under $10 
an hour, working long days and nights in catering kitchens or 
on airport tarmacs. The committee will also hear stories 
highlighting the unsafe and unhealthy conditions many ground 
workers face.
    For instance, a recent Communications Workers of America 
survey of 900 passenger service agents at Envoy Air, a regional 
subsidiary of a large mainline carrier, revealed that 27 
percent of respondents rely on some form of public assistance. 
Often that is food stamps.
    An April 2019 investigation by the Miami CBS affiliate 
revealed troubling safety and health issues in the Miami 
operation of a major ground-support provider. Workers have 
reported cockroach infestations in vans transporting blankets 
and other supplies to aircraft, and were instructed ``not to 
waste time cleaning [cabins] too thoroughly,'' even when the 
workers encountered biohazards in airplane cabins.
    A Federal investigation found the company was also exposing 
its employees to heat that ``was causing or likely to cause 
harm.'' The committee will hear from Mr. Esteban Barrios about 
his personal experience as an employee for that company.
    We will also hear from Miami-Dade County Commissioner 
Eileen Higgins, who is on the front line in Miami in the effort 
to secure better working conditions for ground workers at the 
airport. I look forward to all their testimony.
    Unfortunately, these are not isolated incidents. These 
reports speak to the social responsibility and unwavering 
commitment to safety expected of all firms engaged in aviation.
    A representative of Airlines for America is with us today, 
and I look forward to hearing his perspective on how airlines 
will work to ensure ground workers are compensated fairly, and 
protected from unsafe working conditions.
    The 21st-century U.S. aviation system is deeply 
interconnected. Safety lapses on the ground threaten the safety 
in the air. That is why it is important for Congress to further 
explore these issues. In a time of record airline profits and a 
record number of passengers traveling by air, there is an 
obvious, now, disconnect when a growing number of ground 
workers cannot enjoy the benefits of a system that thrives on 
the backs of their labor.
    That is why I hope today's hearing will shed light on this 
committee's opportunity to improve the safety culture of the 
entire aviation industry. A safer, fairer working environment 
for ground workers will create a safer, stronger aviation 
system for workers, passengers, and airlines alike.
    I want to thank, again, today's witnesses. I look forward 
to our discussion.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington, and Chairman, Subcommittee on Aviation
    Good morning and thank you to the witnesses for joining today's 
hearing on working conditions for airline ground workers.
    In my time on the Transportation and Infrastructure Committee, I 
believe today is the first hearing dedicated to issues facing ground 
workers: the women and men who load baggage, clean cabins, assist 
passengers in wheelchairs and prepare meals, among other jobs.
    Without ground workers, commercial air travel would come to a halt. 
That is why the House passed major pro-worker legislation last year to 
support the hardworking women and men who literally keep the airline 
industry and the economy moving.
    <bullet>  The Butch Lewis Act, which passed the House in July, 
protects hard-earned workers' pensions and long-term financial 
security.
    <bullet>  The Raise the Wage Act, which also passed the House in 
July, supports American workers by raising the federal minimum wage to 
$15 an hour by the year 2025.
    <bullet>  It is my hope the House will soon vote on the Protect the 
Right to Organize, or PRO Act to strengthen workers' right to organize, 
bargain collectively and hold employers who violate workers' rights 
accountable.

    A strong economic foundation for workers requires fair and secure 
workplaces.
    While progress has been made, Congress must do more to provide 
oversight for and improve the pay and working conditions of ground 
workers--the two main issues I want to focus on at today's hearing.
    Even as the airline industry continues to grow and more people than 
ever are choosing to fly, not all ground workers are sharing in the 
benefits.
    Today, the Committee will hear from labor representatives about the 
tens of thousands of ground workers who make less than $15 an hour--
some making under $10 an hour--working long days and nights in catering 
kitchens or on airport tarmacs.
    The Committee will also hear stories highlighting the unsafe and 
unhealthy conditions many ground workers face.
    For instance, a recent Communications Workers of America (CWA) 
survey of 900 passenger service agents at Envoy Air, a regional 
subsidiary of a large mainline carrier, revealed that 27 percent of 
respondents rely on some form of public assistance, often food stamps.
    An April 2019 investigation by the Miami CBS affiliate revealed 
troubling safety and health issues in the Miami operation of a major 
ground-support provider.
    Workers reported cockroach infestations in vans transporting 
blankets and other supplies to aircraft and were instructed ``not to 
waste time cleaning [cabins] too thoroughly,'' even when the workers 
encountered biohazards in airplane cabins.
    A federal investigation found the company was also exposing its 
employees to heat that ``was causing or likely to cause harm.''
    The Committee will hear from Mr. Esteban Barrios about his personal 
experience as an employee for that company.
    We will also hear from Miami-Dade County Commissioner Eileen 
Higgins, who is on the front line in Miami in the effort to secure 
better working conditions for ground workers at the Miami airport. I 
look forward to their testimony.
    Unfortunately, these are not isolated incidents. These reports 
speak to the social responsibility--and unwavering commitment to 
safety--expected of all firms engaged in aviation.
    A representative of Airlines for America is with us today, and I 
look forward to hearing his perspective on how airlines will work to 
ensure ground workers are compensated fairly and protected from unsafe 
working conditions.
    The 21st century U.S. aviation system is deeply interconnected.
    Safety lapses on the ground threaten safety in the air.
    That is why it is imperative for Congress to further explore these 
issues.
    In a time of record airline profits and a record number of 
passengers traveling by air, there is an obvious disconnect when a 
growing number of ground workers cannot enjoy the benefits of a system 
that thrives on their backs of their labor.
    It is my hope today's hearing will shed light on this committee's 
opportunity to improve the safety culture of the entire aviation 
industry.
    A safer, fairer work environment for ground workers will create a 
safer, stronger aviation system for workers, passengers and airlines 
alike.
    Thank you again to today's witnesses. I look forward to our 
discussion.

    Mr. Larsen. And with that I will turn to the ranking member 
for an opening statement.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. Mr. 
Chairman, I hope you agree. I see Congresswoman Shalala here. I 
think if she puts in about another 20 years of service, we can 
maybe qualify her to be on this committee.
    Mr. Larsen. Perhaps.
    Mr. Graves of Louisiana. But I appreciate you being here. 
No, I know you are here for your constituent. Thank you for 
joining us today.
    Thank you, Mr. Chairman, for calling today's hearing. This 
hearing touches on a topic that the subcommittee and, quite 
honestly, most airline passengers don't often think about. It 
is sort of the below-the-wing workers, the aircraft cleaners, 
caterers, wheelchair pushers. They don't have quite as high of 
a profile of jobs as the flight attendants, the mechanics, 
pilots, and others, but the services they provide are necessary 
and integral to the overall system of safety that is necessary 
to ensure that passengers do have safe, efficient, and 
comfortable flying experiences.
    Across all modes of transportation, safety is this 
subcommittee's top priority. And we must continue to focus on 
that issue. Commercial aircraft accidents, fatalities, are at 
the lowest level in history. But in the last decade some ground 
workers have been injured or killed as a result of on-the-job 
accidents. It is important that this subcommittee hear what can 
be done by the FAA, by industry, and others to ensure that we 
are improving safety for airline ground workers, as well.
    Contract services is an essential part of all industries, 
and aviation is no exception. There are many airline-related 
services that have always been contracted out by nearly all 
airlines. Others are contracted at airports where, due to the 
low frequency of flights, it would simply be economically 
infeasible to provide air service without the use of contracted 
workers. To the small and rural communities served, airlines 
provide jobs, connections, and economic opportunities. If 
airlines were unable to contract airside services, they would 
not be able to continue serving these communities.
    It is also crucial the subcommittee understand the role and 
importance of the Railway Labor Act to United States air 
transportation. In Europe, near-constant strikes keep railroads 
and airlines in a state of uncertainty and disarray.
    Both airlines and aviation workers in this country have 
thrived under the oversight of the National Mediation Board, 
because of the efforts to promote resolution, compromise, and 
accommodation, while discouraging strikes. Unions wishing to 
organize new categories of aviation employees must recognize 
how vital systemwide representation is to the continued success 
of aviation and the nearly 750,000 workers directly employed by 
airlines.
    I am looking forward to hearing from the witnesses about 
the role of this critical transportation labor law.
    [Mr. Graves of Louisiana's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    This hearing touches on a topic that this subcommittee and quite 
honestly most airline passengers seldom consider. Below-the-wing 
workers, aircraft cleaners, caterers, and wheelchair pushers may not 
have as high-profile jobs as flight attendants, mechanics, and pilots, 
but the services they provide are necessary to ensuring a safe, 
efficient, and comfortable flying experience for the traveling public.
    Across all modes of transportation, safety is this committee's and 
subcommittee's highest priority. Commercial aircraft accident 
fatalities are at the lowest level in history, but in the last decade, 
some ground workers have been injured or killed due to on-the-job 
accidents. It is important for this subcommittee to hear what can be 
done by the FAA, industry, and labor to improve safety for airline 
ground workers.
    Contracting for services is an essential part of all industries, 
and aviation is no exception. There are many airline-related services 
that have always been contracted out by nearly all airlines. Others are 
contracted at airports where, due to the low frequency of flights, it 
would simply be economically infeasible to provide air service without 
the use of contract workers.
    To the small or rural communities served, airlines provide jobs, 
connections, and economic opportunities. If airlines were unable to 
contract airside services, they would not be able to continue serving 
these communities.
    It is also crucial that this subcommittee understand the role and 
importance of the Railway Labor Act to United States air 
transportation. In Europe, near constant strikes keep railroads and 
airlines in a state of uncertainty and disarray. Both airlines and 
aviation workers in this country have thrived under the oversight of 
the National Mediation Board because of its efforts to promote 
compromise and accommodation while discouraging strikes. Unions wishing 
to organize new categories of aviation employees must recognize how 
vital systemwide representation is to the continued success of aviation 
and the nearly 750,000 workers directly employed by airlines.
    I look forward to hearing from the witnesses about the role of this 
critical transportation labor law.

    Mr. Graves of Louisiana. And thank you again, Mr. Chairman, 
for holding today's hearing. I look forward to hearing the 
discussion, and yield back the balance my time.
    Mr. Larsen. Thank you, Mr. Graves. I appreciate that.
    I want to now welcome the panel of witnesses. I will just 
read the names. And I guess Mr. DeFazio would like to be 
recognized for 5 minutes, but not to read the names. Thank you 
very much.
    Mr. DeFazio. Thank you, Mr. Chairman. I have been on the 
committee even longer than you, I hesitate to say, but 32 
years.
    Mr. Larsen. I did not make that point to have a contest 
with you, Mr. Chairman.
    Mr. DeFazio. To the best of my recollection, as foggy as my 
memory may be, we have never, ever held a hearing on this 
subject before. And it is long overdue.
    This is becoming a pattern before this committee: profits 
over people. Look at what happened with Boeing and the MAX: 346 
dead passengers and crew, 1 rescuer, 347 people dead. At the 
same time, Boeing was buying back stock, paying dividends, and 
rewarding its CEO generously, who is leaving with a $63 million 
package. And here we are seeing the same thing for the 
essential people who make this industry work to get the planes 
and cleaned and secure, and get the baggage on board.
    The airlines made a collective $11.8 billion in profits in 
2018. The big three have bought back $31.3 billion--billion--in 
stock in the last 7 years, 6 years. The CEOs of the three U.S. 
legacy carriers--American, Delta, and United--made $37.5 
million combined in 2018. And, according to a Skift analysis, 
the American CEO earned 195 times the median pay of his 
employees, let alone the ground workers--it would be much, much 
more than that. The Delta CEO earned 184 times median, and 
United 144.
    But as we are going to hear today in the testimony, many of 
these essential workers earn as little as $9 an hour, sleep in 
their cars. Some have to resort to public assistance, food 
stamps. They are at risk with a high rate of injury, sometimes 
fatal. They can't afford health insurance. And some even sell 
blood plasma to support their work habit of being underpaid.
    And we are seeing more and more outsourcing, and more and 
more profitability. We will hear from a labor economist today 
that will say outsourcing of ground work has increased by 60 
percent since 2001. It is a race to the bottom.
    And we are going to hear from folks in Miami, where perhaps 
we have hit the bottom. An obscure firm called Eulen America--I 
wish they weren't using the word ``America''--provides ground-
support services like baggage handling and cabin cleaning for 
American and Delta. Eulen has been cited for exposing employees 
to cockroach infestations--and, of course, obviously, that 
affects the food service on the planes--excessive heat, not 
even adequate protection in terms of hearing, often dangerous 
and unhealthy working conditions.
    We will hear from Esteban Barrios, who will testify on 
today's panel. He is a Eulen employee, loads and unloads bags 
on Delta planes in Miami. He said in his written testimony, 
``Sometimes I'm lifting almost 300 bags a day by myself. My 
whole body hurts. My hand is constantly in pain. But, what can 
we do? We don't have sick days so we can't take a day off to 
get better. So we just take painkillers and try to get through 
the day.''
    We will hear from Miami-Dade County Commissioner Eileen 
Higgins, and she is going to talk about how, when she went to 
investigate these conditions, she was actually intimidated by 
employees of the Eulen Corporation.
    We have seen other issues of routine exposure to harmful 
chemicals, violations of OSHA, communicable diseases, blood-
borne pathogens, dangerous levels, as I mentioned already, a 
lack of hearing protection, noise, tractors that are unstable 
and lack seatbelts, and people have been crushed.
    We are going to shine a light on this, and it is time for 
this abuse to stop. In an immensely profitable industry, they 
can do better, and they should do better, and we will do all we 
can in this committee to encourage that.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Larsen, for calling today's hearing on working 
conditions for the tens of thousands of employees who are intrinsic to 
the operations of an airline--the workers who load bags, clean cabins, 
prepare food, and assist passengers in wheelchairs, among other roles.
    But this hearing is about more than just the unreasonable treatment 
of these hardworking employees. It's about putting profits over people: 
yet another vignette in a larger story of economic inequality and 
injustice in America, and of American companies subservient to Wall 
Street at the expense of their employees and, ultimately, their 
customers.
    Let's start with some numbers:
    <bullet>  U.S. airlines made a collective $11.8 billion in profits 
in 2018.
    <bullet>  One airline alone has rewarded Wall Street with $12 
billion in share buybacks since 2014. Others have done similarly.
    <bullet>  The CEOs of the three U.S. legacy carriers--American, 
Delta, and United--made a combined $37.5 million in 2018. According to 
a Skift analysis, the American CEO earned 195 times the median pay of 
his employees; the Delta CEO earned 184 times workers' median pay; and 
the United CEO, 144 times.

    Yet, today we will hear that many employees who work on behalf of 
these and other airlines, either in catering kitchens or in the 
elements on the tarmac:
    <bullet>  make as little as $9 an hour;
    <bullet>  sleep in their cars in employee parking lots;
    <bullet>  occasionally suffer grievous injuries, sometimes even 
fatal injuries, on the job;
    <bullet>  can't afford health insurance; and
    <bullet>  even sell blood plasma to make ends meet.

    Large mainline carriers have been outsourcing more and more of 
their operations to save a dollar here, a dollar there. They outsource 
flights--even flights on trunk routes like Washington to Chicago--to 
regional airlines. They outsource baggage handling, catering, and cabin 
cleaning to contractors.
    In fact, a labor economist on today's panel will offer that this 
outsourcing of ground work has increased by nearly 60 percent since 
2001. And as anyone knows, in a system where the lowest bidder wins, 
it's a race to the bottom.
    We may well have reached that bottom in Miami, where an obscure 
firm called Eulen America provides ground-support services like 
baggage-handling and cabin-cleaning for American and Delta. Eulen has 
been cited for exposing employees to cockroach infestations, excessive 
heat, and other dangerous and unhealthy working conditions. Mr. Esteban 
Barrios, who will testify on today's panel, is a Eulen employee who 
loads and unloads bags on Delta planes in Miami. In his written 
testimony, Mr. Barrios says, ``Sometimes I'm lifting almost 300 bags a 
day by myself. My whole body hurts. My hand is constantly in pain. But, 
what can we do? We don't have sick days so we can't take a day off to 
get better. So we just take pain killers and try to get through the 
day.''
    Miami-Dade County Commissioner Eileen Higgins has also joined us 
today and will describe how a Eulen corporate minion intimidated her on 
a visit to the Eulen operation and others at the Miami airport.
    On top of often absurdly low wages, airline ground workers can face 
some of the poorest working conditions in America. Workers report, and 
contractors have been cited for, routine exposure to harmful chemicals, 
communicable diseases or blood-borne pathogens, excessive heat on 
tarmacs, and dangerous noise levels from surrounding aircraft. Workers 
have been thrown from tractors due to missing or defective seatbelts, 
have been pinned beneath or struck by vehicles on the tarmac, and have 
fallen from jet bridges.
    These workers have been injured, paralyzed, or even killed in their 
inherently dangerous jobs. In fact, a baggage worker was killed just 
last year after his tug vehicle rolled over on the tarmac at the 
Charlotte-Douglas International Airport. One of today's witnesses, Ms. 
Donielle Prophete, knew this gentleman and can speak to the troubling 
working conditions she and her colleagues face at Charlotte and at 
airports around the country.
    While we sit comfortably waiting to board our flights, airline 
ground workers are out of sight, out of mind. That ends today.
    There's no question airline ground workers perform work of great 
importance that is vital to keeping our aviation system thriving and 
moving forward. However, it's unconscionable that while thousands and 
thousands of these workers are facing such deplorable working 
conditions each day, they're still living below the poverty level.
    We must do more to ensure airline ground workers enjoy livable 
wages, and healthy and safe working conditions. I have spent my career 
fighting on behalf of American workers. As Chairman of this Committee, 
I will ensure we continue to bring light to the often-bleak issues 
facing American workers today, in each mode of transportation. We will 
keep today's panel and their stories in mind as we carry out our 
Committee's work in the years to come and ensure that transportation 
enterprises stop putting profits over people.
    Thank you again, Chair Larsen, for calling this important hearing. 
I look forward to the witness testimony.

    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you, Chairman DeFazio.
    Before I recognize the panel witnesses, I would note that 
some Members, including Ranking Member Graves, have a markup in 
another committee, and he may be leaving because he has some 
amendments, and markups usually mean votes in committee. So I 
know he may have to pop in and out, and there may be other 
Members in the same circumstance. I just want to let the panel 
know that.
    I want to thank our panel of witnesses, as well, do just 
quick names and titles here, and then turn to Representative 
Wilson for a more complete introduction of one of the panel 
witnesses.
    So we have Ms. Eileen Higgins, commissioner of Miami-Dade 
County; Ms. Donielle Prophete, the vice president of 
Communications Workers of America Local 3645; Mr. Esteban 
Barrios, Service Employees International Union Local 32BJ; Ms. 
Marlene Patrick-Cooper, president of UNITE HERE Local 23; Dr. 
Brian Callaci, labor economist; Mr. Chris Harrison with 
Airlines for America; and Mr. Russell Brown of RWP Labor.
    I want to thank you all for being here today. We look 
forward to your testimony.
    Without objection, the witnesses' full statements will be 
included in the record. And since that is the case, they have 
been made part of the record, the subcommittee does request 
that you limit your oral testimony to 5 minutes.
    So, before we turn to our panel of witnesses, I do want to 
turn to Representative Wilson for an introduction of Mr. 
Esteban Barrios.
    Representative Wilson, you are recognized.
    Ms. Wilson. Oh, thank you. Thank you so much, Chairman 
Larsen. And I want to welcome all of the members of SEIU in the 
audience, and all of the supporters of Mr. Barrios here today. 
Thank you so much for traveling for this very, very important 
hearing.
    I am honored to introduce Mr. Esteban Barrios. His 
testimony before this committee comes at a time when airline 
ground workers are being marginalized, while their employers 
generate record profits. Mr. Barrios has been on the frontline 
of the fight for better working conditions and union 
representation for ground workers at Miami International 
Airport for a long time. For more than 4 years he has worked as 
a ramp worker for Eulen America, an American and Delta Airlines 
contractor at Miami International Airport.
    Despite unbearable working conditions, which Mr. Barrios 
will highlight in his testimony, he has worked extremely hard 
to serve Delta customers and pursue a degree at Miami Dade 
College.
    Deteriorating working conditions, coupled with increasingly 
severe injuries and Eulen's culture of intimidation and 
indifference to workers' concerns have compelled Mr. Barrios to 
say, ``Enough, I just can't take it anymore.'' Last year he 
joined forces with Commissioner Higgins, SEIU, and the Miami-
Dade congressional delegation to fight for the workplace and 
benefits that he and his coworkers deserve.
    In April 2019, Mr. Barrios and his coworkers chronicled 
their struggles in a CBS 4 Miami report, which brought their 
fight to my attention. I immediately alerted the Subcommittee 
on Aviation and, shortly thereafter, Congresswoman Shalala, who 
was with us this morning, and I hosted a roundtable discussion 
in Miami during which Mr. Barrios and his colleagues shared 
their experience in riveting detail. It was amazing.
    The months-long effort led by Mr. Barrios and coworkers 
compelled OSHA to investigate working conditions at Miami 
International Airport. OSHA ultimately found eight serious 
violations that created unsafe working conditions. OSHA's 
efforts to hold Eulen accountable is a testament to Mr. 
Barrios' hard work and determination.
    Mr. Barrios, we are tremendously proud of you for your 
unflinching courage and commitment to fight for better working 
conditions in MIA. Welcome to the Transportation and 
Infrastructure Committee.
    And thank you, Mr. Chairman. I yield back.
    Mr. Larsen. Thank you, Representative Wilson. I also now 
want to recognize Representative Mucarsel-Powell for an 
introduction of Commissioner Eileen Higgins.
    Ms. Mucarsel-Powell. Thank you so much----
    Mr. Larsen. You are recognized.
    Ms. Mucarsel-Powell [continuing]. Chairman Larsen. And it 
is such a pleasure and an honor to introduce a great friend. 
But more than that, one of the strongest leaders for workers' 
rights in Miami-Dade County, Commissioner Eileen Higgins.
    Commissioner Higgins represents district 5 in Miami-Dade 
County, which represents over 200,000 residents there in Miami, 
and parts of Miami Beach.
    Commissioner Higgins is an engineer, by trade. She started 
her career in manufacturing, worked her way up to manage large 
departments in Fortune 500 companies before transitioning to 
public service.
    She has served as director of the Peace Corps, and as a 
diplomat in the State Department, where she worked on economic 
development opportunities in Latin America and in Africa.
    Since she was elected to the Miami-Dade County Commission, 
she has been working to provide her constituents with a fair 
shot at achieving their American dream. It was Commissioner 
Higgins who, right after her special election, which surprised 
everyone--but it didn't surprise me, we knew she was going to 
get in there, because she was so committed to improving the 
lives of so many in Miami-Dade County--but it was Commissioner 
Higgins who immediately wanted to go and visit the airport 
after hearing about the unsafe work conditions. And she did 
just that.
    We thank her for speaking up and exposing the appalling 
conditions that are inhumane and terribly unsafe for so many 
workers at Miami International Airport. The low wages of hard-
working airport employees are just completely unacceptable. 
Today she is going to be shining a light on what I think all of 
us should consider as unacceptable practices that occur behind 
the scenes at some of our country's biggest airports.
    I want to thank Commissioner Higgins for coming here, for 
bringing this issue to light to the Transportation and 
Infrastructure Committee.
    And we are looking forward to hearing from you today.
    Thank you, Chairman. I yield back.
    Mr. Larsen. Thank you, Representative. I appreciate that. 
And good timing, because I now want to turn to our witnesses. 
And we will start with Commissioner Eileen Higgins of Miami-
Dade County.
    You are recognized for 5 minutes.

  TESTIMONY OF HON. EILEEN HIGGINS, COMMISSIONER, MIAMI-DADE 
   COUNTY; DONIELLE PROPHETE, VICE PRESIDENT, COMMUNICATIONS 
 WORKERS OF AMERICA LOCAL 3645; ESTEBAN BARRIOS, RAMP WORKER, 
  MIAMI INTERNATIONAL AIRPORT, ON BEHALF OF SERVICE EMPLOYEES 
    INTERNATIONAL UNION LOCAL 32BJ; MARLENE PATRICK-COOPER, 
     PRESIDENT, UNITE HERE LOCAL 23; BRIAN CALLACI, PH.D., 
 POSTDOCTORAL SCHOLAR AND LABOR ECONOMIST; CHRIS HARRISON, ON 
   BEHALF OF AIRLINES FOR AMERICA; AND RUSSELL BROWN, CHIEF 
                  EXECUTIVE OFFICER, RWP LABOR

    Ms. Higgins. Thank you very much, Chairman DeFazio and 
subcommittee Chairman Larsen, and Ranking Member, distinguished 
members of the subcommittee. Thank you so much for inviting me 
here today.
    As Members, you know better than most that our country's 
airports are completely vital to our country's economic 
strength. And nowhere is that more evident than in my home 
county, Miami-Dade, where our airport hosted over 44 million 
passengers in 2018.
    What the passengers don't know is that, behind the scenes, 
there is an army of workers making sure their flights get off 
on time. They are unloading the bags, push elderly travelers in 
wheelchairs, prepare the meals, clean the cabins, the jobs, 
they are not fancy, but our airports can't function without 
them. And these are the unnoticed and underappreciated workers 
who make our airports tick.
    Now, just because this work occurs behind the scenes should 
not give employers a reason to treat them poorly. But not all 
companies behave properly, do they? I would like to tell you 
about how my personal experiences with one such company led me 
to become such a vocal advocate for better treatment and better 
pay for airport workers.
    I met with a group of Eulen America workers who described 
appalling conditions. So I decided I had to see for myself, and 
joined several workers at their airport worksite, where they 
shared even more stories. Some were worrisome, others downright 
inhumane, like poorly maintained vehicles that also lacked 
seatbelts, cockroaches running free in those vehicles, having 
to clean up human feces and blood without gloves, like no water 
provided to workers on the tarmac. Guys, this is Florida. It is 
hot. The tarmac is hot. The airport engines are hot. What kind 
of company does not provide drinking water to their workers?
    These workers were afraid to report these issues to 
management, because they feared losing their jobs. And I now 
know why they were afraid, because I was just minutes away from 
experiencing this top-down culture of fear firsthand when I 
entered the break room. A Eulen supervisor immediately ran over 
to us saying, ``There is going to be trouble here.'' And then 
an airline manager rushed over, towering above me, shouting 
that I needed to leave because this was private property. No, 
the airport is the property of the residents of Miami-Dade 
County.
    But I didn't want to escalate things, so I left and 
continued on my official airport tour. This same Eulen 
supervisor followed us everywhere we went. When we stopped, he 
stopped, making sure that the workers and I knew he was 
watching us. It was meant to be intimidating, and it was.
    I was shocked. If this company is willing to intimidate an 
elected official, I could only imagine what it was willing to 
do with employees, with its employees who needed these jobs to 
put food on the table and pay the rent.
    I sent a strong letter to the company's CEO, requesting 
that he open a dialogue with the workers to improve conditions. 
I sent that letter on January 8th of last year. He did not 
respond. So that is when I called my congressional 
representatives for help, and they hosted the public roundtable 
with the employees that brought widespread media attention, and 
finally prompted the company's CEO to request a meeting, where 
he assured me the company would audit the worker conditions, 
and that he would keep me informed as changes were made. He did 
not keep me informed.
    In October, OSHA issued the company a series of formal 
citations with penalties. Sure enough, the workers' reports 
were true: cockroaches, true; no protection against exposure to 
blood and needles, true; no drinking water to prevent against 
heat exposure, true; missing seatbelts on vehicles, true; 
falling hazards, tripping hazards, and more.
    The workers, two congresswomen, SEIU, and I pointed out 
these health and safety problems to Eulen's CEO long before 
OSHA did. The company ignored all of us, unfortunately 
demonstrating that our workers can only be kept safe from this 
company's management practices through consistent Federal 
safety inspections.
    To prevent these sorts of bad actors from working at Miami 
International Airport in the future, I am proposing legislation 
next week to our county commission to create an entirely new 
procurement process that will force Eulen to become a 
responsible corporate citizen, or replace them with a company 
that is.
    We ask you and Congress to do its part, too, and encourage 
airlines and their subcontractors to comply with basic 
standards of working conditions, local living wages, and, in 
the case of this company, basic human decency. Thank you.
    [Ms. Higgins' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Eileen Higgins, Commissioner, Miami-Dade 
                                 County
    My name is Eileen Higgins and I am the Miami-Dade County 
Commissioner for District 5 which encompasses large portions of the 
cities of Miami and Miami Beach. By a standard measure of economic 
inequality (Gini coefficient), Miami-Dade County has the second-largest 
gap in the nation between the have and the have-nots, which is on par 
with Panama and Colombia. This is uniquely evident in the District I 
serve. In its annual look at America's richest ZIP codes, Bloomberg, 
Inc. found that Fisher Island is home to the country's wealthiest 
residents with an average annual income of $2.2 million. Juxtapose that 
with Little Havana in the City of Miami, which has a high concentration 
of poverty with families struggling to make ends meet as they work in 
Miami-Dade's typical jobs, making low wages in the service sector.
    Tourism serves as a top driver of Miami-Dade County's economy. 
According to the United Way's 2018 ALICE Report, nearly half of Miami-
Dade's workers labor in service jobs in tourism, retail and food 
service, taking home an average of just $26,532 per year, which is 
approximately 15% below the living wage determined by the County. Many 
airline subcontractors make far less. For example, airline catering 
workers at Miami International Airport (MIA) often have a starting wage 
of far less at a mere $10.00 per hour and UNITE HERE reports that less 
than 20% of these catering workers have health insurance. It's tough to 
make ends meet in Miami and even tougher if you work for an airline 
subcontractor.
    Airport ground workers provide critical services to passengers and 
airlines throughout the country. At MIA, several thousand ground 
workers unload our baggage, push the wheelchairs that move disabled or 
elderly travelers, clean the aircraft cabins, and perform important 
security checks between flights. More than 1,000 workers prepare and 
load the food passengers eat in flight. Although these employees work 
behind the scenes, our airports simply can't function without their 
services. They are the unnoticed and underappreciated who make our 
airports tick.
    As the County Commissioner for Little Havana, I met workers who 
expressed concerns over their working conditions at airline 
subcontractors. The stories I heard about one particular company, Eulen 
America, were particularly worrisome.
            December 2018 Airport Visit with Eulen Employees
    On December 12, 2018, I joined several Eulen workers and 32BJ SEIU 
for a tour of their worksites at the airport. During the visit, I heard 
from three workers about poor and unsafe work conditions. Some were 
very worrisome--like poorly maintained vehicles that also lacked seat 
belts and roaches running free in the vehicles the cleaning crews use 
to clean the cabins and in the breakroom. They told me they didn't have 
enough time to complete important security checks on the planes. Other 
conditions were downright inhumane given the heat conditions on the 
tarmac--like water not being provided to workers. They expressed fear 
in reporting these issues to management because they said they had seen 
colleagues lose their jobs by doing so.
    I experienced this culture of fear first-hand while touring the 
break room facilities. A Eulen supervisor ran over to us aggressively 
shouting ``there is gonna be trouble!''. Another airline supervisor 
also approached and demanded that we leave because ``This is private 
property!''.
    MIA is the property of the residents of Miami-Dade County and I am 
one of the officials these residents have elected to represent their 
interests at the airport.
    Not wanting to escalate things, I left to continue our airport 
sanctioned tour. A Eulen supervisor followed us on a Eulen vehicle as 
we visited other gates and sites on the ramp throughout the airport. 
When we stopped, he stopped, making sure that the workers and I knew he 
was watching us. It was meant to be intimidating--and it was.
    I was shocked that as a County Commissioner, I would witness and be 
subject to intimidating behavior. If this company is willing to 
intimidate an elected official, I can only imagine what they are 
willing to do to employees who need these jobs to pay the rent and put 
food on the table for their families. And all of this was happening at 
an airport owned by the people of Miami-Dade.
    This shocking experience prompted me to send a letter to the CEO of 
Eulen America, Mr. Xavier Rabell, requesting that he open a dialogue 
with the workers so that all parties may work together to improve 
conditions. I sent that letter on January 8, 2019. He did not respond.
   April 2019 Congressional Roundtable at Miami International Airport
    On April 24, 2019, I joined U.S. Representatives Donna Shalala and 
Frederica Wilson at a roundtable with Eulen employees where several 
workers shared their experiences and reiterated their stories of unsafe 
vehicles, unavailability of drinking water, lack of gloves when 
cleaning biological fluids and needles, roach infestations in vehicles 
and in the breakroom, and more. Their stories reinforced that workers 
felt they could not express these health and safety issues to Eulen 
management because they feared their hours will be cut or that they 
would lose their jobs altogether.
    This roundtable brought widespread media attention to the issue and 
finally prompted the CEO of Eulen America, Mr. Xavier Rabell, to 
request a meeting. I met with Mr. Rabell in May 2019, where he assured 
me that Eulen would coordinate a third party audit of its operations 
and ``make substantive and lasting enhancements.'' He confirmed that 
commitment in an email where he also stated that he would keep me 
informed about all progress made. He did not.
                       Allegations of Retaliation
    I was told that workers who joined me on the tour and others who 
had advocated for improved conditions felt they were being retaliated 
against by having their pay or hours reduced. When one of the workers, 
Esteban Barrios, who believed his pay had been cut, wanted to deliver a 
letter to Eulen's human resource department, I and several of his 
colleagues accompanied him. I was worried he would be fired for vocally 
raising his concerns about the unsafe working conditions he had 
described to me. Incredibly, rather than simply accepting the letter 
and moving on with their day, Eulen employees called the police. 
Fortunately, our professional Miami-Dade County police officers quickly 
determined that I was not, nor were the workers, a threat. However, it 
was another example that the policy of this company is intimidation 
rather than interaction and dialogue.
                OSHA Verifies Health & Safety Violations
    The stories that workers told me personally and at the 
Congressional Roundtable have now been verified by the federal 
government when the Occupational and Safety Administration (OSHA) 
issued formal citations and fined Eulen (attached). Sure enough, the 
workers' reports were true. Cockroaches: true. No protection against 
exposure to blood and needles: true. No drinking water to protect 
against heat exposure: true. Missing seatbelts on vehicles: true. 
Falling hazards, tripping hazards, and more.
    The workers, two Congresswomen, 32BJ SEIU, and I pointed out these 
health and safety problems to Eulen's CEO long before OSHA did. The 
company had ignored the input of workers and my input as a County 
elected official, unfortunately demonstrating that our workers can only 
be kept safe from this company's management practices through 
consistent federal safety inspections.
    More than one year after my visit, there is still little evidence 
that Eulen is capable of or has any intention of creating a work 
environment that is safe, productive, and worthy of the residents of 
Miami Dade County.
                          Concluding Thoughts
    Based on my personal experience in the airport and in conversations 
with workers, it is apparent to me that there is a deep-seated culture 
of intimidation and ill attention to safety issues at Eulen. Coupled 
with the typical low wages paid to airline subcontractors for GASP and 
catering services, airlines continue to use subcontractors who are not 
required to pay our County's living wage rate to drive their profits 
up.
    Next week, I am presenting legislation to the Miami-Dade County 
Commission to implement a new procurement process locally that will 
force Eulen to become a responsible corporate citizen or replace them 
with a responsible provider. We will be ranking companies who need a 
permit to work at MIA based on technical merit, but will allow 
companies to present their employment conditions as part of a 
competitive bid, including wage rates, insurance benefits, health and 
safety protections, and, crucially, existing or prior notices of 
violation from regulatory agencies. We are trying to do our part 
locally. We ask Congress to do its part too and help ensure that 
profitable airlines and their subcontractors comply with basic 
standards of worker conditions and comply with local wage standards.

    Mr. Larsen. Thank you. I now turn to Donielle Prophete, 
vice president, Communications Workers of America Local 3645.
    You are recognized for 5 minutes.
    Ms. Prophete. Is it working? Chairman Larsen, Ranking 
Member Graves, and members of the subcommittee, thank you for 
the opportunity to testify today to discuss the health and 
safety hazards facing airline----
    Mr. Larsen. Ms. Prophete, could you--you can pull the box 
towards you. The whole box will move. So you don't have to lean 
over. Or whatever you have--there, great, yes. If it is more 
comfortable for you----
    Ms. Prophete. Can you hear me?
    Mr. Larsen. Yes, that is great.
    Ms. Prophete. OK.
    Mr. Larsen. Thanks.
    Ms. Prophete. Thank you for the opportunity to testify 
today to discuss the health and safety hazards facing airline 
ground service workers.
    My name is Donielle Prophete, I am vice president for 
Communications Workers of America, CWA, Local 3645.
    I have worked for the American Airlines subsidiary, 
Piedmont Airlines, for 15 years. I am a passenger service 
agent, trained as both a gate agent and a ramp agent. So I am 
very familiar with both jobs. I work at the Charlotte Douglas 
International Airport, one of American's largest hubs.
    American is a highly profitable company and pays out 
billions to wealthy shareholders and executives. Yet American 
is cutting costs, and outsourcing passenger service work to 
low-wage contractors and regional airlines like Piedmont.
    The impact on safety is of particular concern to me. Ground 
workers who support aircraft on the tarmac face many dangers 
that are not adequately addressed.
    On the night of August 11, 2019, the worst possible tragedy 
occurred when my coworker, Kendrick Hudson, died on the job at 
Charlotte Airport. He was only 24 years old. That night 
Kendrick was driving a tug and hit a piece of baggage that had 
fallen on the tarmac, causing the tug to flip over. Kendrick 
did not see the piece of baggage until it was too late, likely 
because the bag was dark, and there was insufficient lighting. 
His death was a shock to all of us.
    Our local union had repeatedly raised concerns about 
inadequate lighting with Piedmont management. In a recent 
survey by CWA, 83 percent of ramp agents surveyed at Charlotte 
reported insufficient lighting on the tarmac, and 96 percent 
said that painted lines on the tarmac are hard to distinguish.
    The second factor that contributed was the fallen baggage. 
It is not unusual for baggage to fall from a cart due to 
closures that are missing, broken.
    We also have concerns about the stability of tugs. Had the 
tug been more stable, like the newer models seem to be, it may 
not have flipped over.
    The results of the fatality investigation conducted by the 
North Carolina Department of Labor have not yet been released. 
I have participated in the investigation, as have other members 
of CWA Local 3645. Our wish is that the investigation will 
result in much-needed improvements to make work on the ramps 
safer, and to prevent anyone else from dying on the job.
    The safety hazards we face are made worse by Piedmont's 
poverty wages. Many agents must work long, exhausting shifts, 
face inconsistent schedules, take additional jobs, and rely on 
Government assistance. All of these factors combined lead to a 
very high injury rate. Last month CWA conducted a survey on 
safety issues with 500 Piedmont agents: 94 percent of agents 
view safety as a serious problem at their station.
    One central factor is the time pressure we face. We have 69 
percent of agents fearing discipline for missing deadlines.
    Understaffing is a key concern. Seventy-four percent of 
agents reported they feel rushed to do their jobs because of 
understaffing. Understaffing also leads to missed breaks and 
long periods of standing for a majority of agents. On the ramp 
more than half of agents said they work with defective 
equipment in all or most of their shifts.
    Our managers should address concerns when we raise them. At 
my station, two-thirds of the surveyed agents said they had 
reported a safety concern in the past 6 months. Of those 
agents, 83 percent said management failed to resolve their 
safety concern at all, or did nothing to resolve it quickly.
    One area where we need Federal action is passenger rage and 
assaults, a constant stressor and a danger for all of our 
agents. In February 2014 I was the victim of a passenger rage 
incident. I was cut on the hand, and I contracted MRSA from the 
passenger's bag. I was out of work for 22 days. The FAA is not 
doing enough to ensure airlines are implementing the protocols 
on passenger rage required by the FAA Reauthorization Act.
    Ground service workers are not alone in facing unsafe 
conditions. Our partners at the Association of Flight 
Attendants-CWA have many of the same issues at the eight 
regional carriers they represent. On some regional jets a lone 
flight attendant handles up to 50 passengers.
    We work together to try to bridge the gap and make this 
industry better and safer. There is much that needs to be done.
    American Airlines must address the poor lighting at all 
stations where this is a problem.
    The FAA should establish a ratio of ramp agents per 
aircraft, so there is an adequate number of agents working a 
flight.
    Mr. Larsen. You just--if you want to wrap up in the next 20 
seconds----
    Ms. Prophete. Oh, I am.
    More broadly, American and Piedmont must commit to a 
comprehensive approach to improving working conditions at all 
stations by investing more in their employees and supporting 
robust labor-management safety committees.
    I hope that the subcommittee will continue to investigate 
the practices of legacy carriers, the impact those practices 
have on the operation of regional carriers, and, ultimately, on 
workers like me. Thank you.
    [Ms. Prophete's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Donielle Prophete, Vice President, Communications 
                     Workers of America Local 3645
    Chairman Larsen, Ranking Member Graves and distinguished members of 
the Aviation Subcommittee, thank you for the opportunity to appear 
before you today to discuss the health and safety hazards, concerns, 
and challenges facing airline ground service workers. As a front line 
worker, this is extremely important to me and my co-workers.
    My name is Donielle Prophete. I am the Vice President for the 
Communications Workers of America (CWA) Local 3645. I work for Piedmont 
Airlines, a wholly owned subsidiary of American Airlines (AA) and I 
have been with the Company for 15 years. I am a passenger service agent 
cross trained to work as both a gate agent and a ramp agent, so I am 
very familiar with all aspects of both jobs. I work at the Charlotte 
Douglas International Airport in Charlotte, North Carolina. The 
Charlotte station is one of AA's largest, and a very busy hub with more 
than 13 million enplaned passengers in the most recent 12 month 
period.\1\
---------------------------------------------------------------------------
    \1\ Bureau of Transportation Statistics. See: https://
www.transtats.bts.gov/carriers.asp?pn=1
---------------------------------------------------------------------------
    American Airlines is a highly profitable company. Our CEO said in 
2017 that he didn't think the airline would ever lose money again.\2\ 
Where are these profits going? A large percentage are going to the 
pockets of wealthy shareholders and executives. Meanwhile, American is 
outsourcing passenger service work to third-party contractors, and 
relying on regional airlines they've acquired or contracted for an 
increasing share of routes to do the same work as direct employees but 
for lower wages. This fragmentation of our relationship with the parent 
company means we have less bargaining power and less ability to fight 
for safe and secure jobs.
---------------------------------------------------------------------------
    \2\ See https://www.usatoday.com/story/travel/flights/
todayinthesky/2017/09/28/american-airlines-ceo-well-never-lose-money-
again/715467001/
---------------------------------------------------------------------------
    Safety is a particular concern for me and the focus of my testimony 
today. I have participated on the Piedmont System-wide Safety Committee 
which is made up of agents like myself from across the Piedmont network 
of stations. This Committee serves as a forum for agents to raise 
health and safety concerns with the Piedmont Health and Safety Manager 
who also attends the meetings.
    To provide context for safety challenges we face, I will first 
describe the work ramp agents do. Ramp agents perform many different 
tasks in the course of our duties and we face many dangers in our work 
and work environment. If you have ever looked out of the window while 
you were sitting in an airplane waiting to depart or to deplane after 
landing, you have seen ramp agents at work. A ramp agent is responsible 
for handling baggage, loading and unloading airplanes and/or conveyors. 
Ramp agents guide/marshal aircraft to and from the gate. They are 
responsible for operating equipment such as belt loaders, tugs, baggage 
carts, and airplane push back vehicles. Ramp agents fill the aircraft 
with potable water. They operate lavatory vehicles to evacuate airplane 
waste and to add a chemical cleaner/deodorant to the toilets on the 
plane. Some of the ramp duties may vary depending on which airport you 
work at. Some airports would require operations like de-icing with de-
icing chemicals.
    Unfortunately, we know from firsthand experience that there can be 
dire consequences when safety hazards are not addressed and workers are 
not adequately protected. Less than six months ago, on the night of 
August 11, 2019, the worst possible tragedy occurred when one of our 
co-workers and union brother, Kendrick Hudson, died on the job at the 
Charlotte airport. Kendrick was a ramp worker. He was only 24 years 
old. He had been working for Piedmont for close to two years.
    That night, Kendrick Hudson was driving a tug, which is a vehicle 
used to pull a baggage cart. The tarmac was not well lit. A piece of 
baggage was on the tarmac, having fallen from another baggage cart 
sometime prior. Kendrick did not see the piece of baggage on the ground 
until it was too late, likely because the bag was dark, it blended into 
the lines on the tarmac where it had fallen, and there was insufficient 
lighting. When the tire of the tug he was driving hit the baggage, the 
tug flipped over with him inside. Co-workers rushed over to his aid 
while waiting for Emergency Medical Services. He died of his injuries.
    His death was a shock to all of us and collectively we have mourned 
his loss. In trying to make sense of his loss, our union members have 
increased our own focus on safety. We do not want anyone else to die.
    CWA believes that there were existing safety hazards that played a 
role in his death and that his death was likely preventable had the 
hazards not existed. We believe the low lighting on the ramp was a 
primary, contributing factor in the fatal accident. Low or insufficient 
lighting limits visibility, particularly at a distance. That is just 
common sense. We feel that if the lighting had been brighter, it is 
possible that Kendrick might have seen and been able to avoid the dark 
blue bag that fell on the black line on the dark tarmac.
    Our local union and agents had repeatedly raised concerns about the 
lighting with Piedmont management in the past, before Kendrick's 
fatality. The insufficient lighting hazard had been raised at various, 
``Roundtable'' meetings over the past two years that Piedmont set up to 
hear about agents' concerns. The insufficient lighting hazard had also 
been raised by me and other members of my local union's Executive Board 
at our monthly, departmental meetings with Piedmont management. We have 
urged management to address the poor lighting in our work areas and to 
advocate with the City of Charlotte for increased lighting in dark 
areas under the City's jurisdiction where workers must carry out their 
work operations. The site of Kendrick Hudson's fatal accident is not 
the only area with insufficient lighting that impacts our safety. Ramp 
agents can cover a lot of ground working at the gate, around the 
planes, and driving to other gates and locations. As an example, there 
is a large area from gates E31 to E38, so dark and dangerous to drive 
around at night without any roadway lines that it has earned the 
infamous nickname of ``Death Valley'' by workers. This should not be. 
We recognize that there are certain restrictions in airports about 
lighting so as not to interfere with air traffic control. However, we 
believe more can be done to illuminate work areas to make them safe.
    The second factor we believe contributed to Kendrick Hudson's death 
was the piece of baggage that had fallen out of another baggage cart 
and left on the tarmac. It is not unusual for baggage to fall from a 
baggage cart. This can occur if the closures on the cart's curtain 
meant to contain the baggage are missing, broken, or not secured. When 
baggage does fall onto the ground, sometimes the pressure to quickly 
transport baggage from one point to another can result in delays in 
retrieving fallen baggage, presenting a hazard. We do not know the 
reason why the baggage had fallen in this case, but if the baggage had 
not been on the ground, Kendrick's accident would not have occurred.
    The union also has concerns about the stability of the tugs, like 
the one Kendrick Hudson was driving. Had the tug he was driving been 
more stable, like the newer models seem to be, it may not have flipped 
over once it hit the baggage. I'd like to note that Kendrick Hudson's 
accident was not the first time a tug had flipped over in the recent 
past. On June 6, 2017 a tug flipped over with two ramp agents inside, 
injuring both. One of the agents was out of work for 136 days as a 
result of her injuries. The cause was found to be missing lug nuts on 
the vehicle. A ramp agent would have no way of knowing about this kind 
of mechanical defect even when conducting a basic walkaround and safety 
check of a vehicle.
    The North Carolina Department of Labor (NCDOL) has conducted a 
fatality investigation. I have participated in the investigation, as 
have other members of CWA Local 3645. Management has participated, too, 
of course. Our wish is that the investigation will result in much 
needed improvements to make the ramp itself and work on the ramp safer 
and to prevent anyone else from dying on the job.
    There are many other safety and health hazards we face at work 
besides those that I have already mentioned. Some of these safety and 
health hazards affect ramp agents and gate agents. The range of safety 
and health hazards include, but are not limited to: passenger rage/
assaults by passengers; defective or broken equipment and vehicles; 
ergonomic risk factors, such as excessive force required to lift/push/
pull baggage and equipment, repetitive motion, and awkward/strained 
postures and/or maintaining static postures for long periods; chemical 
exposures; biological hazards and infectious diseases; falls from 
heights; heat stress during the warmer months and cold stress during 
the winter; and various physical hazards.
    Further compounding these safety and health concerns are the 
pressures we operate under because of inadequate investment by our 
parent company, American Airlines. These include: Insufficient or 
ineffective safety training; widespread understaffing; a very high 
stress environment; constant time pressure demands; mandatory overtime; 
high turnover; and fear of retaliation by management for raising safety 
concerns. Workers at Piedmont are paid low wages that are substantially 
less than agents employed directly by American mainline, forcing many 
to work long hours, take additional jobs and rely on government 
assistance to get by. Further, a majority of Piedmont employees are 
part-time, which equates to fewer benefits and less consistent 
schedules.
    A review of the 2018 OSHA Form 300 Logs of Work-related Injuries 
and Illnesses and OSHA 300A Annual Summaries of Work-related Injuries 
and Illnesses for Piedmont stations with CWA represented workers across 
the country revealed a total of 612 injuries and illnesses. The most 
frequent injuries by type, according to the descriptions listed on the 
OSHA 300 Logs were: sprains and strains (358 cases), , bruising (108 
cases), lacerations (31 cases) and fractures (24 cases). The most 
frequent causes of injuries were ergonomic, including lifting, 
overexertion, pushing/pulling, twisting, and strains (252 cases), falls 
(95 cases), struck by object being handled (145), caught in object 
(32), and collision with vehicle (13). The calculated incidence rates 
of injuries and illnesses varied greatly by station. The overall 
incidence rate for all of the stations for 2018 was 11.06 incidents for 
every 100 full-time-equivalent workers. The incidence rate for 
Charlotte (CLT) was 13.58 compared to the second largest Piedmont hub 
in Philadelphia, PA (PHL) with an incidence rate of 7.02. Several 
stations with over 50 employees had extremely high incidence rates. 
These included Greenville/Spartanburg in SC (GSP) with an incidence 
rate of 33.46, Wilmington, NC (ILM) with an incidence rate of 38.34, 
Norfolk, VA (ORF) with an incidence rate of 30.63, Portland, ME (PWM) 
with an incidence rate of 26.33, Richmond, VA (RIC) with an incidence 
rate of 28.14, and McGhee Tyson airport (TYS) in Tennessee with an 
incidence rate of 34.48.
    Last month our union, CWA, conducted a survey focused on safety and 
health issues with nearly 500 Piedmont agents across the country. Some 
of the key findings of our survey are as follows:
    The survey revealed that 94% of agents reported that safety is a 
very serious or a somewhat serious problem at their station. One 
central factor is the excessive time pressure we face. The pressure to 
turn planes on time creates a stressful environment where 69% of agents 
fear disciplinary action for missing deadlines.
    Inadequate staffing is also a key concern--74% of agents nationally 
reported they feel rushed to do their jobs because of understaffing. 
Often we have to operate with fewer agents than are truly needed to get 
the job done. Why does this matter? Turning planes on time with 
inadequate staff may force agents to cut corners or skip important 
safety steps. Regional flights will often have only one gate agent to 
board a flight. You have to board the flight, watch the door, push 
wheelchairs, fix tickets, handle angry passengers--all in 30 minutes. 
Among the agents surveyed at Charlotte, nearly 60% of agents who work 
inside the airport said that one of their top safety concerns is gaps 
in security at the gate, including having to leave secure areas 
unattended when understaffed.
    There are no clear and concise rules for regional operations 
regarding how many agents it takes to work particular aircrafts on the 
ramp. So, we are subjected to struggling with 2 or 3 agents working 
planes that would normally require 4 to 5 agents. Another problem with 
staffing is that Piedmont counts management in the numbers of the 
workforce on duty, but the managers in many cases don't come out to 
help with the operation. That inevitably leaves us short. Further, 
Piedmont has a very high turnover rate. The pay doesn't support having 
senior agents around. What that means is there is a lack of the 
seniority and knowledge of the more seasoned agents.
    Understaffing leads to missed breaks and long periods of standing. 
According to the survey, more than 50% of agents nationally say that 
understaffing causes them to miss mandated breaks. At Charlotte in 
particular, 91% of gate and ticket agents reported they are forced to 
stand for long periods of time, increasing the likelihood of 
musculoskeletal disorders.
    Returning to the ramp, 83% of ramp agents surveyed at Charlotte 
reported insufficient lighting on the tarmac and 96% said that painted 
lines on the tarmac are poorly defined and hard to distinguish. This 
was reported in December, more than three months after Kendrick 
Hudson's death.
    We also have major concerns about defective equipment and vehicles. 
Regionals like Piedmont seem to receive American Airlines' cast off, 
hand-me-down equipment. A lot of vehicles and equipment we work with 
are very, very old, perhaps decades old. More than half of agents 
nationally said they work with defective equipment in all or most of 
their shifts.
    Our managers should be addressing these concerns when we raise 
them, and we do raise them. At my station, 67% of the surveyed agents 
said they had told management about a safety concern in the past six 
months. Of those agents who reported safety concerns, 83% said 
management failed to resolve their safety concern at all or did not 
resolve it quickly. There's something very wrong with this picture.
    While this survey was illuminating, we need management to partner 
with us to document and address the ongoing safety issues facing me and 
my coworkers.
    One area where we need more partnership is passenger rage and 
assaults, which are a constant stressor and danger for passenger 
service agents. Many agents have been assaulted and some have suffered 
serious injuries as a result. Addressing passenger rage is a priority 
for our union. Angry customers regularly take out their anger on the 
agents with verbal and physical assaults. The most common causes of 
passenger rage incidents against passenger service agents are flight 
delays and flight cancellations. Other contributing factors include 
overbooking of flights by the carriers, boarding procedures that favor 
certain customers and leave those boarding in the last groups without 
adequate overhead storage space for carry-ons. These are things that 
passenger service agents have no control over, but, as the face of the 
airline, agents receive the brunt of passenger frustration and rage.
    I cannot say how many total assaults by passengers have occurred at 
Charlotte or across the Piedmont footprint because that information has 
not been shared by the airline. It seems to be a well-guarded secret. 
Even the Piedmont OSHA 300 Logs of Injuries and Illnesses do not 
include ``passenger assault'' in the description of recordable injuries 
that were the result of an assault. In February 2014, I was the victim 
of a passenger rage incident. The passenger had deplaned outside, 
walked on the tarmac and entered the terminal through the security door 
before she remembered she had mistakenly left her valeted, checked bag 
outside the plane where it had been unloaded. For security reasons, 
passengers are not permitted to walk back out onto the tarmac through 
the secured door once they come inside the terminal. The passenger was 
very upset at the agent who was guarding the security door who would 
not permit the passenger to go back outside. To diffuse the situation, 
I went outside to retrieve the passenger's bag for her. I still had my 
hand on the bag when the passenger aggressively grabbed the bag from 
me, cursing at me, and cut my hand in the process. I contracted MRSA 
(Methicillin-resistant Staphylococcus aureus) which was transmitted 
from the passenger's bag to the cut she had inflicted on my hand and I 
was out of work for 22 days. My injury was listed on the OSHA 300 Log 
as a ``pax grabbed carry on bag out of ee's hand, causing left hand to 
swell'' injury.
    The Federal Aviation Administration (FAA) Reauthorization Act of 
2018 required airlines to create an Employee Assault Prevention and 
Response Plan (EAPRP) related to the customer service agents in 
consultation with the labor union representing such agents. We do not 
believe that the FAA is doing enough to ensure airlines are 
implementing the required protocols. Enforcement is lacking.
    Agents also experience challenges in bringing in law enforcement 
quickly enough to get witness statements and ensure that these cases 
are taken seriously and moved through the appropriate prosecutorial 
channels, including the use of federal law to bring felony charges when 
appropriate.
    Ground service workers at regional airlines are not alone in facing 
unequal treatment and unsafe conditions. Our partners at the 
Association of Flight Attendants-CWA have many of the same issues we do 
at the eight regional carriers they represent--lower wages, 
understaffing and other inequities. On some regional jets, a lone 
flight attendant handles up to 50 passengers. We work together to try 
to bridge the gap and make this industry better for every aviation 
worker.
    I will conclude my testimony with some thoughts about improving the 
health and safety and overall working conditions of passenger service 
agents.
    AA and Piedmont must address the poor lighting in the largest hub 
station (CLT) so we don't have another agent lose their life at work. 
Improvements in lighting on the ground should be made at all stations 
where insufficient lighting is a problem.
    The ratio of ramp agents per aircraft should be increased so there 
is an adequate number of agents working a flight to be safe and enable 
us to do our jobs completely and thoroughly without the need to rush or 
cut corners. Adequate staffing ratios should take the type of aircraft 
into account. Agents at regional airports who service mainline planes, 
like an Airbus, should have the support of more agents than the number 
needed for a much smaller 50 or 90-seater plane.
    On the issue of passenger rage, I would reiterate that our 
passenger service agents would like to see greater engagement by the 
FAA to follow through on its obligation to enforce the provisions in 
the FAA Reauthorization of 2018. We would ask the Aviation Subcommittee 
members to stay engaged on this issue and follow up with the agency to 
ensure this process is moving forward more expeditiously than it has 
been.
    Passenger service agents see a need for greater public awareness 
about the legal protections that do exist. We would like to see all 
carriers prominently display visible signage with strong language 
informing passengers that it is illegal to assault passenger service 
agents and that the passenger can be arrested, charged, and prosecuted 
for assaults.
    More broadly, AA/Piedmont must commit to a comprehensive approach 
to improve working conditions at all stations to prevent other 
fatalities, injuries, and illnesses. To accomplish this, American must 
invest more in the health and safety of its employees by:
    <bullet>  Providing a safe physical work environment;
    <bullet>  Ensuring that employees have quality training to work 
safely;
    <bullet>  Reducing workplace stressors to improve job quality;
    <bullet>  Addressing work organization issues such as 
understaffing, excessive workloads, and unpredictable work schedules 
that increase the risk of injury and impact health;
    <bullet>  Encouraging employees to report safety concerns without 
fear of retaliation; and
    <bullet>  Ensuring employees have a voice on the job through labor-
management health and safety committees that are empowered to address 
hazards on an on-going basis.

    I hope that my testimony has provided you with a deeper 
understanding of the nature of our work, the health and safety hazards 
we face on a daily basis, and the challenges we face working for a 
regional airline. I hope that the Aviation Subcommittee will continue 
to investigate the practices of the legacy air carriers, the impact 
those practices have on the operations of the regional carriers and 
ultimately, on workers like me. I hope that these efforts will lead to 
improved working conditions for all ground service and other passenger 
service agents.
    Thank you.

    Mr. Larsen. Thank you. I will note, since we haven't had a 
hearing like this in at least 32 years----
    [Laughter.]
    Mr. Larsen. I mean, I--you know.
    Ms. Prophete. Thank you.
    Mr. Larsen. I will give you a gavel at 5 minutes, but maybe 
5 minutes and 20 you ought to----
    Ms. Prophete. OK.
    Mr. Larsen [continuing]. Wrap it. For all of you. For all 
of you, all right?
    So next up, I want to recognize Mr. Esteban Barrios from 
Service Employees International Union Local 32BJ.
    And go ahead and pull that. That box moves towards you if 
you want to--the whole box. That is--close to the mic, as well.
    You are recognized for 5 minutes. Go right--point that 
microphone right at your mouth.
    Mr. Barrios. My name is Esteban Barrios.
    Mr. Larsen. There you go.
    Mr. Barrios. I work at the Miami International Airport. I 
am here to talk about how Eulen America, an airline 
subcontractor for Delta, is putting workers' health, safety, 
and life at risk.
    Eulen America is a multimillion-dollar company owned by one 
of the richest families in Spain. Over there the majority of 
their workers are unionized. Over here, Eulen has a bad record 
of mistreating their workers, including treating and 
retaliating against those who are trying to improve their job.
    I am a ramp agent for Eulen. I load and unload the bags 
onto Delta planes. It is a very dangerous job. We are all out 
in the sun, in the hot sun all day, working with heavy 
equipment right beside the planes. Eulen does not give us 
enough personnel. Sometimes I am lifting almost 300 bags a day 
by myself. My whole body hurts. We don't have paid sick days, 
so we can't take a day off to get better. So we just take 
painkillers and try to get through the day.
    I recently fractured my fingers at work. Many of my 
coworkers have also had injuries. I know someone whose foot was 
run over by a luggage tow. Someone else got a herniated disc 
after falling on the job, and the next day lifting hundreds of 
bags. Imagine running from plane to plane, lifting hundreds of 
bags in the Miami heat. We don't have easy access to drinking 
water, and sometimes we feel physically sick from lack of 
water.
    Eulen doesn't treat us as human beings. They think we are 
machines. When passengers get frustrated that they don't get 
their luggage on time, I want people to understand that this is 
why. We are doing our best, but these are the horrible 
conditions we are working under.
    I am asked myself, ``Why do airlines like Delta, who make 
billions in profit, allow this to happen?''
    Recently OSHA fined Eulen over serious violations that 
could cause death and serious injuries. That included ramp 
workers like me being exposed to extreme heat that could cause 
heat stroke, or even death. OSHA found roach infestation. 
Workers report that roaches are inside trucks that transport 
the cabin cleaners and carry supplies for planes. OSHA also 
found that Eulen had not offered cabin cleaners hepatitis B 
vaccines or proper training, even though they are supposed to.
    But these problems do not just stop at Miami. My colleague 
from Orlando Airport, Yolanda Rodriguez, is here today because 
she was knocked unconscious when she and several coworkers were 
involved in an accident in a Eulen vehicle that had no 
seatbelt. Yolanda still suffers from dizziness, and has trouble 
walking. She relies on her sister to bathe and feed her.
    OSHA is investigating Eulen over safety concerns, including 
allegation that Eulen failed to provide gloves and make 
hepatitis B vaccines available, even though workers can come in 
contact with possible blood-borne pathogens on the job. In New 
York, OSHA is investigating Eulen at JFK after a woman who was 
8 months pregnant fell onto a conveyor belt, and was seriously 
injured.
    And just recently Eulen fired three union activists, as 
well. I am speaking out not just for myself, but for all my 
coworkers who are too scared to speak out because they can't 
afford to lose their job.
    We deserve better conditions at work, but we also want our 
airports to be a safe place for passengers. I am speaking out. 
OK.
    The bottom line is how is Eulen's behavior acceptable? 
Something must be done. On behalf of the thousands of men and 
women working for Eulen, please take action to help end the 
suffering and ensuring that Delta Airlines only work with 
responsible contractors.
    Thank you.
    [Mr. Barrios' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Esteban Barrios, Ramp Worker, Miami International 
Airport, testifying on behalf of Service Employees International Union 
                               Local 32BJ
    My name is Esteban Barrios and I work at the Miami International 
Airport. I'm here to talk about how Eulen America, an airline 
subcontractor for Delta, is putting workers health, safety and lives at 
risk.
    Eulen America is a multi-million dollar multinational company, 
owned by one of the richest families in Spain. Over there, the vast 
majority of their workers are unionized. Over here, Eulen has a bad 
record of mistreating their workers, including threatening and 
retaliating against those who are trying to improve their jobs and 
protect themselves through a union--a right that is guaranteed in this 
country.
    I am a ramp worker for Eulen. I load and unload the bags onto Delta 
planes. It's a very dangerous job. We're out in the hot sun all day, 
working with heavy equipment, right beside the planes.
    We're supposed to unload the luggage and get it to baggage claim in 
only 20 minutes. When I first started working at the airport, we used 
to have 5 people per shift. But Eulen keeps cutting down the number of 
workers and now we're down to 3 or 4. Sometimes I'm lifting almost 300 
bags a day by myself. My whole body hurts. My hand is constantly in 
pain. But, what can we do? We don't have sick days so we can't take a 
day off to get better. So we just take pain killers and try to get 
through the day.
    I recently fractured my fingers at work. Many of my co-workers have 
also had injuries. I know someone whose foot was run over by a luggage 
tow. I know someone else who got a herniated disk after falling on the 
job, and the next day lifting more than 500 bags in a day.
    We have to do flights one right after the other. Imagine running 
from plane to plane, lifting hundreds of bags in the Miami heat. We 
don't have easy access to drinking water and sometimes we feel 
physically sick from being dehydrated. The noise from the planes is 
deafening.
    I was at a roundtable discussion with Congresswomen Frederica 
Wilson last year where I talked about how sometimes the equipment 
doesn't work, and how sometimes the vehicles break down or don't have 
seatbelts--which makes our job even more dangerous. One time I was 
driving a luggage tow and the emergency brakes failed in the rain. I 
slid and did a 360 on the ramp. I could have hit a plane.
    Eulen doesn't treat us like human beings. They think we're 
machines.
    When passengers get frustrated that they don't get their luggage on 
time, I want people to understand that this is why. We are doing our 
best, but these are the horrible conditions we're working under at 
Eulen.
    I ask myself, why do airlines like Delta, who make billions in 
profit allow this to happen?
    Recently OSHA gave Eulen one of the biggest fines at the airport in 
recent history for air transportation support services over serious 
violations that could cause death or serious injuries. These include 
ramp workers like me being exposed to extreme heat that could cause 
heat stroke or even death. OSHA found roach infestations. Workers 
report that roaches are inside trucks that transport the cabin cleaners 
and carry supplies for planes. OSHA also found that Eulen had not 
offered cabin cleaners hepatitis B vaccines or proper training, even 
though they are exposed to bloodborne pathogens. Eulen also failed to 
provide effective information and training for employees who were 
required to work with certain hazardous chemicals.
    But these problems don't just stop at Miami. My colleague from the 
Orlando Airport, Yolanda Rodriguez is here today because she was 
knocked unconscious, terrifying her coworkers, when she and several 
coworkers were involved in an accident in a Eulen vehicle that had no 
seatbelts. Yolanda still suffers from dizziness and has trouble 
walking. She has to rely on her sister to bathe and feed her.
    In Fort Lauderdale, OSHA is investigating Eulen over safety 
concerns, including allegations that Eulen failed to provide gloves and 
make the Hepatitis B vaccine available, even though workers can come 
into contact with possible blood borne pathogens on the job. Workers 
have also filed complaints over unpaid wages with Broward County, some 
of which were settled and some are still pending. Eulen was also 
accused in two separate cases by the National Labor Relations Board of 
firing two employees in retaliation over their union organizing 
activity. Eulen agreed to settle one by paying the fired worker $21,000 
in back wages, while the other case is pending appeal. And finally, 
Eulen workers at Fort Lauderdale went on strike for the 6th time last 
September, after the company fired three union activists for dubious 
reasons.
    In New York, OSHA is investigating Eulen at JFK after a woman who 
was 8 months pregnant, fell onto a conveyer belt and was seriously 
injured. The New York City Department of Consumer and Worker Protection 
is also investigating Eulen for complaints of paid sick leave theft and 
for not paying workers their uniform allowance as required by law. And 
just recently, Eulen fired three union activists as well.
    You should also know that Eulen workers live in neighborhoods where 
many people have to rely on public assistance just to get by. We work 
long and hard--yet we can't survive without help from government for 
basic human needs.
    It's in everyone's best interest for workers to have family 
sustaining jobs, where we can provide for our families in a safe 
working environment.
    I'm speaking out, not just for myself, but for all my coworkers who 
are too scared to speak out because they can't afford to lose their 
jobs through retribution. We desperately need and deserve better 
conditions at work, but we also want our airports to be a safe place 
for passengers. It's not good for us to be bullied into staying quiet 
when there are problems. We shouldn't be punished for trying to improve 
the airport.
    Throughout the country, subcontracted airline workers have risen up 
and won wage increases, better job protections, and union 
representation. As a result many airline contractors have responded by 
working with us to raise standards at our nation's airports.
    Eulen remains the outlier and the airlines that hire them are the 
enablers.
    The bottom line is--how is Eulen's behavior acceptable? Something 
must be done. On behalf of the thousands of men and women working for 
Eulen, please take action to help end this suffering by ensuring that 
Delta Airlines only work with responsible contractors who don't abuse 
workers or exacerbate our poverty rate while leaving the government and 
taxpayers with the bill.
  Additional information on working conditions for contracted airport 
                            service workers
Low Wages and Benefits
    Over the last few years, SEIU has been able to win enhanced wages 
and benefits at several airports for contracted airport services 
workers across the country. For example, in New York City's airports 
(JFK, LGA, and EWR), wages for airport workers will rise to $19/hour by 
2023.\1\ However, contracted airport services jobs are mostly low-wage 
jobs. In a 2017 Economic Roundtable report, nearly half of all U.S. 
airport workers working in the classifications that SEIU organizes and 
represents are paid less than $15 per hour.\2\ Thirty seven percent of 
the airport labor force, have wages under $15. At $10.73, cabin 
cleaners had one of the lowest median wages in 2017.\3\
---------------------------------------------------------------------------
    \1\ Information from the Port Authority of New York and New 
Jersey's website, available at https://old.panynj.gov/press-room/press-
item.cfm?headLine_id=2997.
    \2\ June 2017 report released by the Economic Roundtable, ``Flying 
Right: Giving U.S. Airport Workers a Lift,'' at p. 3, available at 
https://economicrt.org/wp-content/uploads/2017/06/
Flying_Right_2017.pdf.
    \3\ June 2017 report released by the Economic Roundtable, ``Flying 
Right: Giving U.S. Airport Workers a Lift,'' at p. 3, available at 
https://economicrt.org/wp-content/uploads/2017/06/
Flying_Right_2017.pdf.
---------------------------------------------------------------------------
    Further, the report states that low wages and sometimes limited 
work hours put some U.S. airport workers into economic distress. Over 
46,000 U.S. airport workers and their families live below the poverty 
threshold; they make up seven percent of the airport labor force.\4\ 
Over 194,000 U.S. airport workers received public assistance benefits; 
the largest program being Medicaid, followed by food stamps and cash 
assistance. A total of $1.2 billion in public assistance are provided 
each year for low-income airport workers. In addition thirty-seven 
percent are rent-burdened.\5\
---------------------------------------------------------------------------
    \4\ June 2017 report released by the Economic Roundtable, ``Flying 
Right: Giving U.S. Airport Workers a Lift,'' at p. 3, available at 
https://economicrt.org/wp-content/uploads/2017/06/
Flying_Right_2017.pdf.
    \5\ June 2017 report released by the Economic Roundtable, ``Flying 
Right: Giving U.S. Airport Workers a Lift,'' at p. 3, available at 
https://economicrt.org/wp-content/uploads/2017/06/
Flying_Right_2017.pdf.
---------------------------------------------------------------------------
    In addition, airport workers generally do not have meaningful and/
or affordable benefits. For example, according to an informal survey of 
32BJ members at LaGuardia and JFK, 18% of workers employed at those 
airports workers are uninsured.\6\ The remaining workers were covered 
by Medicaid (28%), Medicare (17%), NY Essential Plan (15%), 
``Obamacare'' (4%) \7\, their spouse/domestic partner's employer 
benefits (4%), or other health insurance options (5%). Only 7% of these 
workers received health insurance through their employer.\8\
---------------------------------------------------------------------------
    \6\ SEIU conducted an in-person and online survey of its members 
employed at JFK and LGA from December 2018 until May 2019. 801 32BJ 
members chose to respond to the survey. Respondents were asked, ``How 
do you currently receive health insurance?'' The survey method was not 
scientifically rigorous.
    \7\ ``Obamacare'' refers to a Qualified Health Plan that a person 
purchases through the New York State of Health Marketplace.
    \8\ Informal Survey referenced in Footnote 29. In addition, SEIU 
32BJ has requested participation rates from airport service 
contractors. As of December 17, 2019, only one had complied fully with 
this request.
---------------------------------------------------------------------------
Airport Workers Health and Safety Problems
    Airport services workers at airports across the country face a 
number of health and safety hazards. Across the country, the 
Occupational Health and Safety Administration (OSHA) has repeatedly 
found multiple contractors in this industry guilty of violations 
against workers. From October 2018 to September 2019, Federal OSHA 
cited companies that provided airport service work a total of 88 
violations and penalized these companies for $221,563.\9\ To put this 
figure in context, statutory and budgetary constraints have resulted in 
OSHA routinely agreeing to reduce penalties as part of informal 
settlement agreements in exchange for an employer's promise to fix 
hazardous conditions immediately.\10\ During this period, 164,992 cases 
closed; approximately 40% of these cases closed with no penalties 
assessed. On average, the current penalties assessed for cases during 
this period amounted to only $1,968.\11\
---------------------------------------------------------------------------
    \9\ Data for NAICS Code: 4881 Support Activities for Air 
Transportation Workers available at U.S. Occupational Safety and Health 
Administration at https://www.osha.gov/pls/imis/
citedstandard.naics?p_esize=&p_state=FEFederal&p_naics=4881.
    \10\ Center for Progressive Reform, ``OSHA's Discount on Danger: 
OSHA Should Revise Its Informal Settlement Policies to Maximize the 
Deterrent Value of Citations,'' June 2016 Report, at p. 1. available at 
http://progressivereform.org/articles/OSHA_Discount_on_
Danger_Report.pdf.
    \11\ Data from an analysis of OSHA penalties filed between October 
2018 and September 2019.
---------------------------------------------------------------------------
    The standards that were violated in this industry include but are 
not exclusive to those related to respiratory protection, hazard 
communication, bloodborne pathogens, powered industrial trucks, fall 
protection and falling object protection, occupational noise exposure, 
storage and handling of liquefied petroleum gases, and air 
contaminants.\12\
---------------------------------------------------------------------------
    \12\ Data for NAICS Code: 4881 Support Activities for Air 
Transportation Workers available at U.S. Occupational Safety and Health 
Administration at https://www.osha.gov/pls/imis/
citedstandard.naics?p_esize=&p_state=FEFederal&p_naics=4881.
---------------------------------------------------------------------------
            Higher Incident Rates of Injuries and Illness for Airport 
                    Support Workers than for Workers in Other 
                    Industries
    According to the Bureau of Labor Statistics, the 2018 incident 
rates of recorded cases of occupational injuries and illnesses for 
airport support workers is 29% higher than explosives manufacturing, 
63% higher than apparel manufacturing, 121% higher than in mining, 
quarrying, and oil and gas extraction, and 181% higher than electric 
power generation.\13\
---------------------------------------------------------------------------
    \13\ U.S. Department of Labor, Bureau of Labor Statistics, Industry 
Illness and Injury Data, ``Incidence rates--detailed industry level--
2018'' https://www.bls.gov/iif/oshwc/osh/os/summ1_00_2018.htm. NAICS 
codes 4881--support activities for air transportation, 32592--
explosives manufacturing, 315--apparel manufacturing, 21--mining, 
quarrying, and oil and gas extraction, and 22111--electric power 
generation.
---------------------------------------------------------------------------
            U.S. GAO Finds that Airport Workers are At Risk of Exposure 
                    to Communicable Diseases
    In December 2015, the U.S. General Accountability Office (GAO) 
released a report in response to a Congressional request for a review 
of how prepared the US aviation system is to respond to potential 
communicable disease threats from abroad such as the Ebola 
epidemic.\14\ The GAO interviewed aviation-service employees--including 
airport cleaning, aircraft cleaning, and passenger service employees--
who expressed concern that they did not receive adequate communicable 
disease training and report challenges accessing appropriate personal 
protective equipment, cleaning equipment, and cleaning supplies.\15\ 
The GAO found that inadequate training, equipment, and supplies could 
lead to employee exposures to pathogens that could in turn result in 
infections.\16\
---------------------------------------------------------------------------
    \14\ GAO-16-127, released by the U.S. General Accountability Office 
in December 2015, ``Air Travel and Communicable Diseases: Comprehensive 
Federal Plan Needed for U.S. Aviation System's Preparedness,'' https://
www.gao.gov/assets/680/674224.pdf.
    \15\ GAO-16-127, released by the U.S. General Accountability Office 
in December 2015, ``Air Travel and Communicable Diseases: Comprehensive 
Federal Plan Needed for U.S. Aviation System's Preparedness,'' at p. 
38, available at https://www.gao.gov/assets/680/674224.pdf.
    \16\ GAO-16-127, released by the U.S. General Accountability Office 
in December 2015, ``Air Travel and Communicable Diseases: Comprehensive 
Federal Plan Needed for U.S. Aviation System's Preparedness,'' at p. 
38, available at https://www.gao.gov/assets/680/674224.pdf.
---------------------------------------------------------------------------
            U.S. GAO Finds that Ramp Work is Dangerous Work
    In November 2007, the U.S. General Accountability Office issued a 
report on ramp safety that showed in the five previous years, fatal 
airport ramp accidents were happening in the US at a rate of about six 
per year. The majority of these fatalities were ramp workers. Airlines 
and airports typically control the ramp areas using their own policies 
and procedures. As a result, the GAO reported that efforts to improve 
safety in ramp areas was hindered by a lack of complete accident data 
and standards for ground handling.\17\
---------------------------------------------------------------------------
    \17\ Aviation Runway and Ramp Safety, Sustained Efforts to Address 
Leadership, Technology and Other Challenges Needed to Reduce Accidents 
and Incidents, US General Accountability Office, 2007, available at 
https://www.gao.gov/assets/270/269675.pdf.
---------------------------------------------------------------------------
            Highlights of Contractors With Health and Safety Issues
    Below are just a handful of examples of contractors that OSHA had 
cited recently for serious violations. Despite these serious 
violations, these companies are still operating at our nation's major 
airports.
                             eulen america
    Since 2012, the Occupational Safety and Health Administration has 
cited Eulen America, a major contractor for American Airlines and Delta 
Airlines, for multiple violations of federal workplace health and 
safety standards at Florida Airports.
    In April 2019, U.S. Congresswomen Donna Shalala and Frederica 
Wilson held a Congressional Roundtable at the Miami airport to hear 
directly from workers after an alarming expose ran in a local TV 
station. At the roundtable workers testified regarding injuries 
sustained at work, vehicles in hazardous conditions, and trucks that 
transport workers and carry supplies for planes being roach infested. 
Subsequently, as part of a referral, and formal complaint filed by 
workers, OSHA investigated Eulen at Miami International Airport and 
issued eight citations as part of two inspections at MIA with an 
initial total fine amount of $77,898 ($55,166 and $22,732), Eulen 
entered an informal settlement agreement with OSHA, and penalties were 
lowered to a total of $46,739 ($33,100 and $13,639).\18\ The initial 
citations included: \19\
---------------------------------------------------------------------------
    \18\ https://www.osha.gov/pls/imis/
establishment.inspection_detail?id=1396157.015 and https://
www.osha.gov/pls/imis/establishment.inspection_detail?id=1403303.015, 
accessed 11/18/19
    \19\ OSHA Inspection 1396157.015 and 1403303.015
---------------------------------------------------------------------------
    <bullet>  A driver was exposed to getting his fingers caught on the 
wire mesh that was on the back of the driver's seat as the driver 
raised the platform in the back of the truck.
    <bullet>  Workers were exposed to fall hazards after lowering a 
guardrail on the side of the platform to gain access to the interior of 
a plane.
    <bullet>  Eulen was found to have violated OSHA's General Duty 
Clause which requires employers to provide a place of employment free 
from recognized hazards that were causing or likely to cause death or 
serious physical harm to employees. OSHA found that ramp and baggage 
handlers which engaged in heavy material handling were exposed to 
temperature levels that may lead to development of serious heat-related 
illnesses such as, but not limited to, heat cramps, heat exhaustion, 
heat stroke and death.
    <bullet>  Eulen did not administer a continuing, effective hearing 
conservation program.
    <bullet>  Eulen did not have an effective extermination control 
program and workers were exposed to sanitation health hazards from 
insects including, but not limited to an infestation of cockroaches.
    <bullet>  Eulen did not develop and implement a written exposure 
control plan for employees who are exposed to occupational bloodborne 
pathogens and other potentially infectious materials, when handling 
sharps and cleaning up blood. Eulen did not provide training or make 
Hepatitis B vaccines available within 10 working days of initial 
assignment to all employees with occupational exposure.
    <bullet>  Eulen did not provide information for workers voluntarily 
wearing N95 filtering facepiece respirators. Per OSHA if a respirator 
is used improperly or not kept clean, the respirator itself can become 
a hazard to the worker.\20\
---------------------------------------------------------------------------
    \20\ OSHA Standard 1910.134 Appendix D, https://www.osha.gov/laws-
regs/regulations/standardnumber/1910/1910.134AppD
---------------------------------------------------------------------------
    <bullet>  Eulen did not maintain copies of required safety data 
sheets for certain hazardous materials, and did not provide effective 
information and training for employees who were required to work with 
certain hazardous chemicals.

    Furthermore, OSHA found hazards inside high lift trucks which 
included tripping hazards due to the rear cab being full of blankets, 
trucks not having functional seatbelts and inspection sheets not being 
accurate, OSHA did not cite Eulen for these hazards.\21\ As of December 
17, 2019, the case statuses on the OSHA inspection detail website is 
noted as ``pending abatement of violations, penalty payment plan in 
place'' \22\ for one of the inspections and closed for the other 
inspection.\23\
---------------------------------------------------------------------------
    \21\ OSHA Letter to Eulen Re: Inspection 1403303, 10/25/19
    \22\ https://www.osha.gov/pls/imis/
establishment.inspection_detail?id=1396157.015, accessed 12/17/19
    \23\ https://www.osha.gov/pls/imis/
establishment.inspection_detail?id=1403303.015, accessed 12/17/19
---------------------------------------------------------------------------
    In response to the results of the MIA investigations, Eulen stated 
that it could not be more pleased with the results.\24\ However, 
according to the Department of Labor Enforcement Database data 
extracted on November 23, 2019, when comparing Eulen's MIA inspection 
that totaled $33,100 in settled penalties with inspections of all other 
companies coded under the Support Activities for Air Transportation 
since 2014 to November 2019, Eulen's current penalty amount ranked as 
the highest in Florida and the 9th nationwide.\25\
---------------------------------------------------------------------------
    \24\ Eulen America Letter to Lester Sola Miami International 
Airport CEO and Director, Dated November 22, 2019
    \25\ Analysis of Department of Labor Enforcement Database data 
extracted November 23, 2019, for OSHA inspection with penalty amounts 
over $30,000 for 2014--November 2019, NAICS Code 4881--Support 
Activities for Air Transportation Industry.
---------------------------------------------------------------------------
    Eulen currently has two open OSHA investigations at Fort 
Lauderdale-Hollywood International Airport and John F. Kennedy 
International Airport.
    The attached maps show maps of major cities where Eulen operates 
clearly shows that Eulen employees live in neighborhoods with high 
levels of poverty where high numbers of people use public assistance 
programs.
                           mcgee air services
    In March 2018, McGee Air Services a wholly-owned subsidiary of 
Alaska Airlines,\26\ In March, 2018, McGee Air Services was fined 
$24,000 in connection with four serious violations of Washington State 
health and safety laws for their operations at Seattle Tacoma 
International Airport.\27\ The Washington State Department of Labor & 
Industries noted that McGee ``ramp agents were not provided safety 
devices, safeguards, work practices, processes, and the means to make 
the workplace safe from hazards.'' \28\ The state also documented 
several cases in which baggage carts used by McGee Air Services ``were 
not kept in safe and operable condition.'' \29\
---------------------------------------------------------------------------
    \26\ https://www.mcgeeairservices.com/about-us.html
    \27\ Summary of Assessed Penalties Due, Inspection: 317946438, Page 
2 of PDF received
    \28\ Violation 1 Item 1a, WAC 296-800-11010, Citation and Notice of 
Assessment, Inspection 317946438, page 4 of PDF received from L&I.
    \29\ Violation 1 Item 3 WAC 296-800-14025, Citation and Notice of 
Assessment, Inspection 317946438, page 11 of PDF received from L&I.
---------------------------------------------------------------------------
    Because McGee failed to provide information requested by State 
investigators, the State's Attorney General Office was forced to 
intervene and threaten to subpoena the records before they were 
produced.\30\
---------------------------------------------------------------------------
    \30\ From inspector's notes, Enforcement Case File, Page 24 of PDF
---------------------------------------------------------------------------
                                menzies
    In July 2019, Maryland Occupational Safety and Health (MOSH) issued 
a Citation and Notification of Penalty to Menzies, a cargo, fueling, 
and ground-handling contractor that services all airlines at BWI, 
including American Airlines and Delta Airlines, for citations 
concerning five OSHA standards. Three of these initial citations were 
of a ``serious'' nature and the proposed penalty was $5,400.\31\ MOSH 
initially issued citations alleging that Menzies did not train its 
employees in procedures that would minimize fall hazards in the work 
area; \32\ protective equipment was not provided where there were 
hazards capable of causing injury and impairment; \33\ employees 
guardrail systems, safety net systems, or personal fall arrest systems 
were not ensured for workers who worked on a walking-working surface 
with an unprotected side or edge; \34\ portable fire extinguishers were 
not provided for workers; \35\ and nameplates or markings for powered 
industrial trucks were not in place.\36\
---------------------------------------------------------------------------
    \31\ MOSH Inspection of Menzies, Inspection Number 1396019. Case 
No. G4961-028,19. Citation Issuance Date 07/11/2019. Available at 
https://www.osha.gov/pls/imis/
establishment.inspection_detail?id=1396019.015.
    \32\ Maryland Occupational Safety and Health, Citation and 
Notification of Penalty. Inspection Number 1396019. Case No. G4961-
028,19 No., pg. 6
    \33\ Ibid., pg. 7
    \34\ Ibid., pg. 5
    \35\ Ibid., pg. 7
    \36\ Ibid., pg. 8
---------------------------------------------------------------------------
    Menzies later entered into an informal settlement agreement with 
MOSH and the initial citations for lack of protective equipment where 
there were hazards capable of causing injury and impairment, personal 
fall arrest systems, and nameplates and markings for powered industrial 
trucks were dropped as part of the settlement. The remaining three 
citations in the settlement consisted of two serious and one non-
serious. Penalties for one serious violation were lowered to $1,701 and 
penalties for the additional serious violation and a non-serious 
violation remained at $0.\37\
---------------------------------------------------------------------------
    \37\ MOSH Inspection of Menzies, Inspection Number 1396019. Case 
No. G4961-028,19. Case closed in September 16, 2019. Available at 
https://www.osha.gov/pls/imis/
establishment.inspection_detail?id=1396019.015.

    Mr. Larsen. Thank you, Mr. Barrios. I am going to turn to 
Ms. Marlene Patrick-Cooper, the president of UNITE HERE Local 
23.
    You are recognized for 5 minutes.
    Ms. Patrick-Cooper. Thank you. Good morning. Mr. Chairman 
and Ranking Member and members of the subcommittee, my name is 
Marlene Patrick-Cooper. I am a proud member of UNITE HERE. We 
are one of the fastest growing private-sector unions in 
America, with over 300,000 members in the hospitality industry, 
including 20,000 people working in the airline catering 
industry.
    I am also privileged to be elected as the president of the 
UNITE HERE Local 23. We are 20,000 hard-working women and men 
who work in airline catering, universities, museums, airport 
concessions, and hotel and parking attendants in the 
Washington, DC, area. We are also in Atlanta, Biloxi, 
Charlotte, Columbus, Indianapolis, Denver, New Orleans, Texas, 
Tunica, Oklahoma, Utah, and New Mexico. Our members provide 
food for all major U.S. airlines, American, Delta, and United.
    I want to thank you for inviting us to this hearing to give 
you a glimpse into the dark corner of the airline industry, and 
to share with you the plight of our national airline catering 
workers. This industry has come to be dominated by two 
subcontractors: LSG Sky Chefs and Gate Gourmet. Airline 
catering workers today are facing a twofold crisis of low wages 
and little access to quality healthcare.
    We are here to ask you to join us in demanding living wages 
and decent healthcare in this industry in which job standards 
have doomed a generation of airline catering workers to some of 
the worst jobs found in our economy in this day.
    Airline catering workers prepare first-class meals, they 
load beverage carts, and they perform final security checks to 
keep passengers safe. Your flight cannot take off without their 
labor. And yet, despite performing vital work during a time of 
unprecedented profit for U.S. commercial aviation industry, 
catering workers too often struggle just to survive. Many live 
in poverty. Many lack access to adequate healthcare. There are 
workers in their fifth and sixth decades of working in these 
kitchens who do not make $15 an hour. Indeed, nationwide, a 
majority of all airline catering employees at the two largest 
contractors earn less than $15, including hundreds of workers 
who have been in their jobs for decades.
    The situation is worse for workers in the South: 87 percent 
of LSG Sky Chefs' employees in Florida, Georgia, Texas, and 
North Carolina earn less than $15 per hour; 43 percent earn 
less than $11 per hour. And, as an example, at Dallas-Fort 
Worth, American Airlines' largest and most profitable hub, the 
airline made $1.3 billion in profits in 2017, representing 30 
percent of its total operating income. Yet the catering workers 
serving American, they are making less than $9.85 an hour. And 
the median wage income is $11.35.
    And this is not just American Airlines' problem. Catering 
workers at Delta and United are also struggling to make ends 
meet. Whether they work in the cold food preparation and spend 
their shifts in 40-degree refrigerated rooms, or whether they 
drive trucks without air conditioning, even in triple-digit 
temperatures, this invisible workforce requires a healthcare 
plan to take care of their bodies under these harsh working 
conditions.
    Only 34 percent of U.S. workers at LSG Sky Chefs and Gate 
Gourmet were able to afford their employer-provided health 
insurance in 2018, and only 7 percent covered any of their 
dependents. According to a survey of 224 of our airline 
catering workers, 25 percent are uninsured, and 1 in 5 of them 
rely on Government-funded programs for their and their family's 
medical care.
    It is unacceptable that working men and women are forced to 
resort to public benefits while serving an airline industry in 
the midst of a years-long run of record profits. This treatment 
is especially outrageous, given the billions that American, 
Delta, and United are giving back to their shareholders through 
dividends and through stock buybacks. Surely three of the four 
largest, most profitable airlines on the planet can afford to 
do better.
    Our members are fed up, and they have shown that they are 
willing to act together. Over the summer, 15,000 airline 
catering workers at 33 airports voted overwhelmingly to strike 
as soon as it becomes lawful.
    You will see in my submitted testimony the stories of many 
workers, in their own words, about the struggle just for them 
to survive day to day, their battles to care for themselves and 
their families in the absence of attainable health insurance. I 
hope you will look at these stories. In them you will see the 
shameful treatment of these catering workers.
    It is time for American, Delta, and United Airlines to take 
responsibility for improving conditions for this large and 
important workforce. We urge Congress to help to end these 
intolerable conditions. They are a stain on the airline 
industry, and, if left unchecked, it could reflect poorly on 
the people we elect who stand by and let so many workers 
suffer.
    This year, American, Delta and United Airlines can and must 
do right by airline catering workers. They should require the 
contractors to pay the workers living wages. They should demand 
that they provide decent and attainable health insurance, and 
that they ensure that one job is enough for these workers to 
live in dignity.
    Thank you.
    [Ms. Patrick-Cooper's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Marlene Patrick-Cooper, President, UNITE HERE 
                                Local 23
    Mr. Chairman and Ranking Member, members of the subcommittee my 
name is Marline Patrick-Cooper. I am a proud member of UNITE HERE, one 
of the fastest growing private sector unions in America, with over 
300,000 members in the hospitality industry--including 20,000 people 
working in the airline catering industry. I am also privileged to be 
the President of UNITE HERE Local 23--we are 20,000 hard working women 
and men who work in airline catering, universities, museums, airport 
concessions, and hotel and parking attendants in Washington, DC, 
Atlanta, Biloxi, Charlotte, Columbus, Indianapolis, Denver, New 
Orleans, Texas, Tunica, Oklahoma, Utah and New Mexico.
    I want to thank you for inviting us to this hearing to give you a 
glimpse into a dark corner of the airline industry and to share with 
you the plight of our nation's airline catering workers.
    Many airlines decided decades ago to outsource much of their 
catering operations to third parties. Two companies, LSG Sky Chefs and 
Gate Gourmet, have come to dominate the airline catering industry in 
the United States. Just as airlines decided long ago to outsource these 
jobs, they decided long ago to wash their hands of any responsibility 
toward the men and women who work so hard to prepare and deliver meals 
to planes on time so that those flights can take off on time.
    At a time when the airline industry is making billions in profits, 
it is unacceptable that airlines continue to deny responsibility for 
the more than 20,000 people who make meals for their most important 
passengers. As a result of their market power, the airlines influence 
greatly the terms of the economic relationship. In this case, that 
means forcing catering workers to live in poverty. We believe that one 
job should be enough for a person to live on and pursue the American 
Dream. The airlines, apparently, do not share in our belief.
    I want to concur with the testimony that will be delivered by the 
other labor witnesses who are joining me in telling a story about the 
troubling labor practices in this industry. Members of this 
subcommittee, we hope that after learning more about the struggles of 
these dedicated airline industry employees today, you will offer your 
support to these workers and join us in demanding living wages and 
decent health care in this industry and for a stop to business 
practices that have doomed a generation of airline catering workers to 
some of the worst jobs found in our economy.
                   Airline Catering Workers in Crisis
    UNITE HERE represents more than 20,000 people who prepare food for 
airline passengers at American, Delta, and United among other airlines. 
The majority of these workers are employed by the subcontractors LSG 
Sky Chefs and Gate Gourmet. About 3,000 are employed directly by United 
Airlines. All of them face a two-fold crisis of low wages and little 
access to affordable healthcare. I am attaching many of their stories 
in their own words in Appendix A. These workers have become a poster 
child for what is wrong with our economy--an economy that rewards 
airlines for forcing the workers who prepare food for their customers 
to live in poverty. When workers earn less than $10 an hour in airline 
food kitchens while the airlines rake in billions in annual profits, 
something is seriously wrong. We are here today is because American, 
Delta, and United need to take responsibility for the conditions facing 
airline catering workers. We believe their contract terms with airline 
caterers leave little room to pay workers a living wage. In turn many 
of these workers are forced to seek public benefits such as Medicaid. 
The public should not have to pick up the tab for people working in a 
time of historic profitability in the industry.
Low Wages Persist Despite Record Profits
    We appear before this subcommittee knowing that the airlines are 
imposing poverty wages on catering employees at a time of historic 
market power and profits. American's CEO, Doug Parker, had this to say 
about the future of the industry:

        ``I don't think we're ever going to lose money again. We have 
        an industry that's going to be profitable in good and bad 
        times.''

    The economics of this industry have never been stronger.
    In 2018 American reported net profits (excluding net special items) 
of $2.1 billion. It also returned $986 million to shareholders through 
dividends and share buybacks. Delta returned $2.5 billion to 
shareholders--$1.6 billion in share repurchases and $909 million in 
dividends. United Airlines reported $2.5 billion net income in 2018.
    Strong profits continued in 2019. Yet the women and men who form 
the backbone of their flight food operations have not shared in the 
industry's success.
    For instance, Dallas-Fort Worth, American's largest and most 
profitable hub, returned $1.3 billion in profits in 2017 representing 
30% of its total operating income. Catering workers serving American 
there make as little as $9.85 an hour and the median wage is just 
$11.35.
    Nationwide, a majority of all airline catering employees at the two 
largest contractors earn less than $15 per hour, including hundreds of 
workers who have been in their job for decades. The situation is worst 
for workers in the South. Eighty-seven percent (87%) of LSG Sky Chefs 
employees in Florida, Georgia, Texas and North Carolina earn less than 
$15 per hour; 43% earn less than $11 per hour.
Health Care Coverage Evades Thousands
    The poverty conditions facing catering workers are exacerbated by 
the lack of access to quality affordable healthcare. In 2019 UNITE HERE 
surveyed 2,240 of the approximately 14,000 airline catering workers--
from 21 airports in 15 states--employed by LSG Sky Chefs and Gate 
Gourmet. These workers primarily serve American, Delta and United, 
among other airlines. Attached to my testimony in Appendix B is a full 
fact sheet summarizing the survey's topline conclusions, but I will 
provide some of the conclusions here:
    <bullet>  21% rely on government-funded programs for their own 
medical care. Of parents with children under age 26, 42% reported kids 
on government-funded programs for medical care.
    <bullet>  25% are uninsured.
    <bullet>  Of parents with children under age 26, nearly one in six 
reported uninsured kids.
    <bullet>  One in three has medical debt.
    <bullet>  26% of respondents reported skipping or delaying care, 
prescriptions, or medical treatment for themselves or their families in 
the past 12 months because of the cost their families would have to 
pay.

    American, Delta, and United airlines must step in and step up. This 
is a healthcare crisis with dangerous consequences. It exposes one of 
the most vulnerable workforces in our economy to suffering, untreated 
illness and the inevitability of higher mortality rates.
                Bargaining: Timeline and What's At Stake
    As many members of the Committee know, bargaining in the airline 
industry is regulated by the Railway Labor Act, and that is the case 
with both Sky Chefs and Gate Gourmet. UNITE HERE is currently in 
bargaining with both Sky Chefs and Gate Gourmet, the latter jointly 
with the International Brotherhood of Teamsters. We have been in 
bargaining with LSG Sky Chefs since October of 2018, and in mediation 
since May of 2019 when the National Mediation Board assigned a 
mediator. Mediation commenced with Gate Gourmet in September of 2018. 
At the table, workers are demanding a $15/hour minimum wage and access 
to quality affordable healthcare
    Contract bargaining under the Railway Labor Act is often a lengthy 
process, with successful negotiations taking several years. The poverty 
conditions facing airline catering workers make any delay in bargaining 
improvements particularly difficult. That is why, last June, more than 
15,000 workers voted to authorize a strike if and when released to 
self-help by the NMB. Since that vote, we have requested release in 
both sets of bargaining, but the NMB has determined that further 
mediation is necessary.
    We sincerely appreciate the efforts of the NMB in working to 
address this growing labor concern, and in conducting mediation with 
LSG Sky Chefs and Gate Gourmet simultaneously. But we fear that the 
caterers might use further mediation to stall. We believe these 
workers' goal is to escape poverty, not to disrupt travel, and that a 
prompt release from the RLA mediation process is the only path towards 
settlement.
                     We've Reached a Breaking Point
    The nation's airline catering employees have reached a breaking 
point.
    <bullet>  They live in poverty.
    <bullet>  Most lack any health care and struggle to provide 
treatment for themselves and their families.
    <bullet>  They are forced to rely on public assistance for basic 
necessities.
    <bullet>  Many have worked for 10, 20 plus years and still earn 
barely above the minimum wage applicable to the jurisdictions where 
they work
    <bullet>  Some, like those who work at American hubs in Charlotte 
and Dallas-Fort Worth, make $9-$10 an hour.
    <bullet>  The airlines and caterers continue to take advantage of a 
labor law that prevents these workers from exercising rights enjoyed by 
other private sector work forces.
    <bullet>  And the airlines still refuse to take responsibility for 
conditions in this industry.

    We urge Congress to help us end these intolerable conditions--they 
are a stain on the airline industry and if left unchecked, reflect 
poorly on the people we elect who stand by and let so many workers 
suffer.
   appendix a: supplementary statements from airline catering workers
1. DCA--Tenae Stover
    My name is Tenae Stover. I am a native Washingtonian, and I have 
been working at Reagan National Airport for an airline catering 
subcontractor servicing flights for airlines such as American at its 
hub. I am a leader with my union UNITE HERE in our national fight for 
respect and dignity and for one job to be enough to live for airline 
catering workers across the United States. The airline industry is a 
365-day business. Every day, including over the holidays, my coworkers 
and I prepare meals and beverages for thousands of passengers traveling 
through National. Many Members of Congress, including members of the 
House subcommittee on Aviation, have enjoyed a snack or beverage on a 
flight thanks to our labor. We all work on our feet for eight or more 
hours a day. Our health insurance is awful. My individual insurance 
costs me about $60 per week--some $250 per month--and others pay 
hundreds more for family plans. Even though some of my coworkers are 
older, many cannot afford the company's insurance at all. We only make 
around $13 per hour at my kitchen. Most airline catering workers across 
the country make less than $15. One coworker of mine at National who 
has been working there for 30 years makes the same hourly rate as I do 
after working there for 3 years. Two years ago, I was evicted from my 
home because I could not afford my rent, transportation, food, 
clothing, and health insurance. To this day, I've yet to afford my own 
place. My coworkers and I know the stakes are high. We are fighting 
against corporate greed, and multibillion-dollar companies like the 
``Big 3'' U.S. airlines--American, Delta and United. We are simply 
tired of being overworked and underpaid. We are fighting for $15 and 
for access to quality healthcare. To the American, Delta and United: it 
is time to take immediate action and fix this labor issue now.
2. DFW--Christina Hernandez
    My name is Christina Hernandez. I am an airline food worker at 
Dallas-Fort Worth International Airport. Recently, I achieved a 
milestone at work: 30 years' service in the airline catering industry. 
Since 1989, I have catered flights for airlines such as American out of 
its hometown hub. At 57, I wish I could be dreaming about retiring 
soon. But despite my three decades' work to help keep airlines like 
American in flight, I cannot even begin to think about retirement. In 
November 2017, I started experiencing chest pains. The pains grew so 
intense over the course of a couple of days, and I had no other choice 
but to call my son and ask him to take me to the ER. Turns out, I had a 
heart attack. I spent two days in the hospital but had to immediately 
return to work after I was released because I was worried about paying 
my bills--the house wasn't paid off; the car wasn't paid off. I ended 
up in the hospital again shortly after returning to work, this time 
with pneumonia. Even though I had insurance at the time, I am still 
responsible for paying a significant amount of the costs. Two years 
later I still live with the weight of the medical debt from this 
incident. The bills come in the mail, and sometimes I do not even 
bother to open them, because I know that I cannot afford to pay them. I 
got sick, and it destroyed my credit, and I have not been able to see a 
doctor in two years. How can I be paying $131.18 for the company's 
health insurance to cover myself, my husband, and our son, and still be 
drowning in medical debt after 30 years on the job? My dream of 
retiring depends on this fight.
3. JFK--Juan Blanco
    My name is Juan Blanco. I live in New York and I'm a member of 
UNITE HERE Local 100. I've been a driver for LSG Sky Chefs at JFK 
Airport since 2005, and I drive catering trucks that serve American and 
other airlines. My job can be dangerous. Over my 15 years on the job, I 
have had more than one work-related issue that I have needed medical 
care for. One of the worst was in 2017, when a plane door hit me on the 
head, giving me a concussion and a shoulder injury that required 
surgery. I was out of work for weeks and relied on workers' 
compensation to cover the hospital bills. On top of that, I am a 
survivor of lymphoma. I need to visit the doctor every six months to 
make sure that I am still healthy. Going to these regular checkups is a 
matter of life or death for me. I am paying $52 each week for the 
company's individual health insurance plan, which is not only excessive 
and unaffordable, but the quality of the plan is also inadequate. In 
addition to the $52 per week I pay to keep my coverage, I am currently 
spending another $100 per month to pay off a $3,500 bill for a recent 
colonoscopy. So not only is my health insurance expensive, it doesn't 
even cover basic care that is important for me at my age. I serve 
planes for some of the most profitable airlines, including American at 
one of its most important hubs. It's time that LSG SkyChefs takes care 
of us workers in this physically demanding job by offering a more 
accessible plan that tends to our medical needs.
4. MIA--Sonia Toledo
    My name is Sonia Toledo. I've worked at for LSG Sky Chefs at the 
Miami Airport--one of American Airlines' most important hubs--since 
1991. After nearly 30 years, I make just $12.45 an hour. This is less 
than the minimum wage the County requires that other airport workers 
receive. Recently, my husband became unable to work because of a 
medical condition. We own a house and have a mortgage to pay on top of 
our other bills, and it's been a struggle for us to adjust to being a 
one-income household. As a result, I had to make the toughest decision 
of my life, which was to drop my health insurance coverage entirely. 
I'm 55 years old. This is an age when access to healthcare is more 
important than ever. The work I do benefits American Airlines--a huge, 
profitable airline--but I'm scared every day that I won't be able to 
afford to pay for a doctor if either my husband or I need medical 
treatment. It's disgraceful, that after nearly 30 years of service, I'm 
faced with such an impossible choice. My co-workers and I have been 
fighting for years, and we will not quit until we win what we deserve 
from the airline industry. American Airlines can stand up today and 
solve this problem. American and other airlines must act so that my co-
workers and I don't have to make a choice between having a roof over 
our heads and having health care.
5. MSP--Jemal Dube
    My name is Jemal Dube. For about 13 years, I have worked for LSG 
Sky Chefs, an airline catering subcontractor, out of the kitchens at 
the airport in Minneapolis. In my kitchen and catering kitchens across 
the country, most of my coworkers make under $15 an hour, even some 
people who have been there for decades. We work for a big corporation 
that makes a lot of money. Even though I make more than $15 an hour as 
a transportation coordinator at MSP, the $400 I pay each month for the 
company's health insurance plan puts a strain on my finances.
    I have a family with four kids. They need food. They need medical 
care. They need school supplies. I must make sacrifices for my own 
health care by avoiding going to the doctor so I can afford to take 
care of my four kids. Truthfully, I like my job. I enjoy providing a 
good service to Delta Air Lines at one of its biggest hubs. Delta can 
use its power to end this labor dispute so can earn what we deserve for 
our demanding work. This fight has been going for too long and has 
grown very tough on my family. It is time that one job is enough for 
airline catering workers like me.
6. DIA--Marie Jacob
    My name is Marie Jacob. I have work in food production at the 
United Airlines catering kitchen in Denver for over 5 years now. 95% of 
workers in United's five kitchens are immigrants or people of color. We 
come from 60 different countries. I am from the Pacific Islands. In my 
kitchen in Denver many, many of us are islanders. There are entire 
families working together in the kitchen. Last year, my coworkers and I 
in Denver fought hard to win $15 for DIA to set us on track for a 
minimum wage of $15 per hour. But even with our raises already taking 
effect to our weekly paycheck, one job is not enough to afford Denver's 
soaring cost of living. I am continuing to fight for my son so that we 
win more of what we deserve for catering United Airlines flights at its 
hub. I had to take my son to the hospital for a toothache, which turned 
into a $300 bill to fix his teeth--which I could not afford. I ask 
myself all the time, how is it that we work for a multibillion-dollar 
airline and we can't even afford to take care of our kids' health, much 
less the rising cost of housing in Denver?
             appendix b: healthcare survey toplines summary
    Only 34% of U.S. workers at LSG Sky Chefs and Gate Gourmet had 
employer-provided health insurance in 2018, and only 7% covered any 
dependents. The premiums on the employer plans are often unattainable 
for the low wage workers, and those who do enroll face high deductibles 
of between X and Y and co-pays of between X and Y that also limit the 
care they are able to access. In order to better understand the impacts 
the current employer healthcare on our members' lives, in ___ 2019 
UNITE HERE conducted a survey of 2,240 out of approximately 14,000 
airline catering workers employed by LSG Sky Chefs and Gate Gourmet. 
Respondents are from 21 airports in 15 states and primarily serve 
American, Delta and United, among other airlines.
    Some key findings:
    <bullet>  21% rely on government-funded programs for their own 
medical care. Of parents with children under age 26, 42% reported kids 
on government-funded programs for medical care.
    <bullet>  25% are uninsured. Of parents with children under age 26, 
nearly one in six reported uninsured kids.
    <bullet>  26% of respondents reported skipping or delaying care, 
prescriptions, or medical treatment for themselves or their families in 
the past 12 months because of the cost their family would have to pay.
    <bullet>  12% of respondents reported that they or a family member 
have traveled to other countries to receive medical care there instead 
of in the United States.
    <bullet>  33% of respondents reported medical debt, nearly half of 
whom owe over $1,000.
    <bullet>  56% of respondents reported having gone to work sick, 66% 
of whom because they could not afford to miss time.
    <bullet>  10% of respondents reported their household has received 
food stamps (SNAP) in the past year.
    <bullet>  64% identified as immigrants to the United States.

    The table on the following page summarizes the percentage of 
respondents who rely on government-funded programs or are uninsured in 
each city surveyed.


----------------------------------------------------------------------------------------------------------------
                                                                      % of parents
                                                       % depend on     with kids
                                         % rely on      government      under 26                    % of parents
                          Number        government-      care for      reporting                     with kids
                        Surveyed /        funded          either        kids on      % uninsured      under 26
                       Total Workers   programs for   themselves or   government-                    reporting
                                         their own        their          funded                      uninsured
                                       medical care      children     programs for                     child
                                                                      medical care
----------------------------------------------------------------------------------------------------------------
     Anchorage, AK        16 / 103             13%             13%             0%             6%            20%
        Boston, MA        37 / 348             27%             32%            47%             8%             6%
     Charlotte, NC        38 / 168             24%             39%            56%            26%             6%
        Chicago, IL     503 / 1450             11%             24%            37%            25%            18%
        Dallas, TX       172 / 921             10%             23%            33%            37%            31%
        Denver, CO        35 / 221             11%             34%            53%            31%            32%
       Detroit, MI        92 / 486             27%             40%            50%            27%            14%
       Houston, TX        16 / 202             13%             25%            33%            50%            44%
                  Los Ang124 / 902             21%             34%            43%            21%            10%
          Miami, FL      128 / 840             38%             48%            54%            35%            24%
   Minneapolis, MN        81 / 488             22%             37%            55%            47%             7%
      New York, NY      123 / 1200             33%             42%            49%            20%             9%
        Orlando, FL      115 / 352             27%             39%            43%            23%            17%
  Philadelphia, PA        35 / 416             14%             31%            32%            31%             5%
       Phoenix, AZ        47 / 403             21%             28%            40%            34%             4%
    Sacramento, CA         21 / 95             38%             52%            60%             5%             0%
     San Diego, CA         10 / 53             50%             60%            20%            20%            20%
 San Francisco, CA      443 / 1732             26%             34%            39%            11%            14%
      San Jose, CA        20 / 155             20%             20%             0%            10%             0%
       Seattle, WA       146 / 946             12%             32%            52%            42%             8%
    Washington, DC        38 / 156             24%             32%            45%            11%            10%
  NATIONAL TOTAL....          2240             21%             33%            42%            25%            16%
----------------------------------------------------------------------------------------------------------------


    Mr. Larsen. Thank you, Ms. Patrick-Cooper. I turn now to 
Dr. Brian Callaci.
    Is that the pronunciation? Great. Dr. Callaci, you are 
recognized for 5 minutes.
    Mr. Callaci. Hi, my name is Brian Callaci. I am an 
economist and a postdoctoral scholar at the Data and Society 
Research Institute. I want to emphasize that the views I 
express in this testimony are my own, and should not be 
construed as representing any official position of my employer.
    I want to thank Chairman Larsen, Ranking Member Graves, and 
the other members of the subcommittee for the opportunity to 
discuss the report, ``Fissuring in Flight,'' that I authored 
for the Communications Workers of America. I have included a 
copy of the full report in the official record.
    So the domestic airline industry provides an excellent 
laboratory to study several of the trends affecting American 
workers that have become of intense interest to economists and 
social scientists in recent years. These trends include, first, 
outsourcing or fissuring, the use of subcontractors to replace 
work previously done by direct employees; second, growing 
industrial concentration and its two faces, monopoly power over 
consumer prices and monopsony power over wages and other input 
prices; and finally, financialization, which is a term 
describing the prioritization of shareholder interests over the 
other stakeholders within the firm.
    And I will begin with an anecdote--I think that is a good 
way to illustrate things--before I get to the data. Several 
years ago American Airlines outsourced 500 wheelchair 
attendants at Miami International Airport to a contractor 
called Eulen America. Now, it is possible that Eulen, through 
specialization, was more efficient at that activity than 
American Airlines was. But another advantage of outsourcing 
that work to Eulen was that Eulen paid lower wages than 
American Airlines.
    And what is interesting is that, when the airport enacted a 
living wage ordinance that raised the wages of employees of 
service contractors, American reversed itself and then 
insourced the work. So it is unlikely, just in terms of a 
laboratory experiment, that the contractor became more and then 
less efficient within a few years. Avoidance of a living wage 
law seems to be the variable that describes the decision to 
outsource and then insource.
    Now, workers in the airline industry have been affected, 
actually, by two distinct types of outsourcing. On one hand, 
airlines have increasingly outsourced ground and passenger 
service work to third-party contractors. On the other hand, 
legacy carriers have been turning to outsourced regional 
airlines to fly an increasing share of routes.
    Now, if you have ever flown one of these connecting 
flights, legacy carriers might control the operations of 
regional airlines to an extent virtually equivalent, especially 
from the consumer's perspective, of full integration. Yet 
customers and workers of regional airlines are treated as 
customers and workers of separate firms under many of the 
important applicable laws.
    The report documents some trends in employment and wages in 
the airline and outsourced airline service industries. So I am 
just going to describe just a few of the highlights.
    First, we can see clearly from the data that airlines are 
increasingly turning to third-party contractors. As the 
outsourced share of employment, conservatively estimated, has 
grown from 19 percent in 2001 to 30 percent in 2018, direct 
employee wages--that is, wages of employees who work directly 
for airlines--are above the national average for all workers, 
and have been rising since 2009, while outsourced employee 
wages are below the national average, and have been stagnant in 
that time. They have not risen.
    Meanwhile, heavily outsourced occupations in the airline 
industry have lower wages. Comparing the two years 2008 and 
2018, just looking at some of the occupations, we can see an 
increase in outsourcing of 10 percent from 2008 to 2018, just 
across those 10 years, across a select group of occupations, 
such as baggage porters, customer service reps, cargo agents. 
It is correlated with a decline in wages of 5 percentage 
points.
    Meanwhile, employment of regional airline workers has been 
growing as a share of total airline industry employment, and 
regional pay scales are far below legacy wage scales. American 
Airlines does lead the pack in terms of regional outsource, and 
they operate 54 percent of their domestic flights through 
regional carriers.
    And it is just one example of the wage gap between regional 
and mainline operations, according to Department of 
Transportation data. While mainline flight attendants average 
around $50,000 per year in salary, regional flight attendants 
average less than $30,000. So there is quite a big gap there. 
And a similar gap exists for ground service workers.
    And the increasing substitutability of regional for 
mainline jets due to improvements in jet technology threatens 
to increase the pace of this type of outsourcing. You could see 
more and more workers in the lower wage scales.
    Pressure from shareholders in the financial markets across 
the American economy, across industries, has been a major 
driver of outsourcing. Institutional shareholders have pushed 
managements to outsource more activity, while demanding a 
greater share of corporate profits, leaving less money on hand 
to invest in, say, innovations, research, and development, the 
skills and wages of their employees, and all those other things 
that firms can spend their cashflow on. United paid almost $8 
billion in buybacks since 2013; Delta almost $11 billion; and 
American, $12.5 billion.
    The decline of the U.S. collective bargaining regime has 
removed the major force that could counter these trends.
    First, the falling share of workers in unions across the 
economy has removed the primary source of countervailing power 
against large corporations.
    And second, the rising use of contracting arrangements 
excludes these workers who are outsourced, like the wheelchair 
attendants at American, from being able to bargain. And it 
reduces the effectiveness of a traditional collective 
bargaining.
    Policies to restore worker voice within this fissured 
industry would seem to be an appropriate response to these 
realities. Thank you.
    [Mr. Callaci's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Brian Callaci, Ph.D., Postdoctoral Scholar and 
                            Labor Economist
    My name is Brian Callaci. I am an economist and a Postdoctoral 
Scholar at the Data & Society Research Institute. The views I express 
in this testimony are my own, and should not be construed as 
representing any official position of my employer.
    I want to thank Chairman Larsen, Ranking Member Graves, and other 
members of the subcommittee for the opportunity to discuss the report, 
``Fissuring in Flight'' that I authored for the Communications Workers 
of America. Please include a copy of the full report in the official 
record.
    The domestic airline industry provides an excellent laboratory to 
study several of the trends affecting American workers that have become 
of intense interest to economists and social scientists in recent 
years. These trends include: first, outsourcing or ``fissuring,'' the 
use of subcontractors to replace work previously done by direct 
employees; second, growing industrial concentration and its two faces, 
monopoly power over consumer prices and monopsony power over wages and 
other input prices; and third, financialization, the prioritization of 
shareholder interests over other stakeholders within the firm.
    I'll begin with an anecdote. Several years ago American Airlines 
outsourced 500 wheelchair attendants at Miami International Airport to 
a contractor, Eulen America. Perhaps Eulen, through specialization, was 
more efficient at that activity than American Airlines. Another 
advantage, however, was that Eulen paid lower wages than American 
Airlines. When the airport enacted a living wage ordinance that raised 
the wages of employees of service contractors, American reversed itself 
and insourced the work. It's unlikely that the contractor became less 
efficient in that time. Avoidance of the living wage law and reducing 
labor costs looks to be a more likely explanation.
    Workers in the airline industry have been affected by two distinct 
types of outsourcing. On one hand, airlines have been increasingly 
outsourcing ground and passenger service work to third-party 
contractors. On the other hand, legacy carriers have been turning to 
outsourced regional airlines to fly an increasing share of routes. 
Legacy carriers minutely control the operations of regional airlines to 
an extent virtually equivalent to full integration, yet customers and 
workers of regional airlines are treated as customers and workers of 
separate firms under many important applicable laws.
    My report documents trends in employment and wages in the airline 
and outsourced airline service industries. Findings include:
    <bullet>  Airlines are increasingly turning to third party 
contractors, as the outsourced share of employment, conservatively 
estimated, has grown from 19 percent in 2001 to 30 percent in 2018. 
While, direct employee wages are above the national average for all 
workers and have been rising since 2009, outsourced employee wages are 
below the average and have been stagnant.
    <bullet>  Heavily outsourced occupations in the airline industry 
have lower wages. An increase in outsourcing of ten percent from 2008 
to 2018 across a selected group of ground service occupations, such as 
baggage porters, customer service reps, and cargo agents, is correlated 
with a decline in wages of five percent.
    <bullet>  Employment of regional airline workers has been growing 
as a share of total airline industry employment, and regional pay 
scales are far below legacy wage scales. American Airlines has 3 
wholly-owned and 4 contracted regionals, Delta has one wholly-owned and 
4 contracted, and United has 8 contracted carriers. American leads the 
pack in regional outsourcing, operating 54% of its domestic flights 
through regional carriers.
    <bullet>  As one example of the large wage gap between regional and 
mainline operations according to DOT data, while mainline flight 
attendants average around $50,000 per year, regional flight attendants 
average less than $30,000. A similar gap exists for ground service 
workers. The increasing substitutability of regional for mainline jets 
threatens to increase the pace of this type of outsourcing.

    Pressure from shareholders and financial markets has been a major 
driver of outsourcing. Major institutional shareholders have pushed 
managements to outsource more activity while demanding a greater share 
of corporate profits, leaving less money on hand to invest in 
innovations or employees. United paid $7.75B in buybacks since 2013, 
Delta $10.99B, and American $12.52B.
    The decline of the US collective bargaining regime has removed the 
major force that could counter these trends. First, the falling share 
of workers in unions has removed the primary source of countervailing 
power against large corporations. Second, the rising use of contracting 
arrangements excludes outsourced workers--like the wheelchair 
attendants at Eulen America--reduces the effectiveness of traditional 
firm-level collective bargaining.
    Policies to restore worker voice within this fissured industry 
would seem to be an appropriate response to these problems.
                               attachment
    ``Fissuring in Flight: Consolidation and Outsourcing in the U.S. 
Domestic Airline Industry, 1997-2018'' is retained in committee files 
and is available at: https://cwa-union.org/sites/default/files/
20200108-fissuring-in-flight.pdf

    Mr. Larsen. Thank you, Dr. Callaci. I now turn to and 
recognize for 5 minutes Mr. Chris Harrison of Airlines for 
America.
    Mr. Harrison, you are recognized for 5 minutes.
    Mr. Harrison. Chairman Larsen, Chairman DeFazio, Ranking 
Member Graves, members of the committee, thank you for the 
opportunity today to testify on behalf of Airlines for America, 
which is the trade association for the leading passenger and 
cargo carriers in the United States.
    My name is Chris Harrison, and I am a partner with Ogletree 
Deakins. I have practiced in the area of aviation law for 
almost 15 years now.
    A little background on U.S. airlines, they employ 
approximately 750,000 full and part-time workers, globally. 
They support more than 10 million U.S. jobs. Thousands of these 
are ground service workers. There are approximately 28,000 
total flights a day that are flown by U.S. carriers, and these 
are flown in the United States to over 500 different airports, 
and some of these are rural airports that you have heard about, 
such as Tupelo, Mississippi, and places like that, and then 
some of them all the way up to large airports, like JFK and 
LAX.
    Each airport has unique requirements that the airlines have 
to meet when they fly to those airports. Sometimes they are 
different. And while the diversity of the operating environment 
may differ, the airline approach to how they handle their 
business does not. Airlines take great effort to comply with 
all Federal, State, and local laws. They also routinely monitor 
the practices of their contractors to make sure that they are 
following those laws.
    Now, safety is, has been, and will be the airline's number-
one priority. And that includes passengers, that includes its 
employees, and that includes its contractors. They take that 
very seriously, both on the ground and in the air. That 
commitment includes ground employees that we are talking about, 
or ground workers that we are talking about today. Their 
commitment to safety includes them, as well.
    Airlines have adopted a policy of continuous safety 
improvement, and there are a number of ways in which the 
airlines do that. For example, there are programs called ground 
safety awareness programs that implement a nonpunitive way for 
employees to come forward with safety concerns. And there is a 
panel of people at the company--that includes labor, that 
includes management. And when employees have an issue, they 
can, in a safe place, come, bring that issue forward, and have 
it addressed. And the airlines look at that.
    And again, labor is part of that panel, and they look at 
opportunities to improve things that happen. They look for 
trends. They look for, you know, either specific instances or 
trends, and try to figure out what is a way we can improve a 
process to make things safer.
    A4A also participated on behalf of the airlines with OSHA 
on an airline ground safety panel, and this took place during 
the entire Obama administration. It was over approximately a 
10-year period, total. And included in that panel with OSHA was 
A4A, the Regional Airline Association, airline ground companies 
and contractors. The unions also participated in that panel, so 
you had the IAM, the TWU, and the AFL-CIO all participated for 
10 years in that panel. And over that 10-year span, the panel 
met regularly to review and endorse best practices in both 
airport and ground safety.
    Information that came out of that panel was distributed to 
over 1.6 million workers, and that included a number of 
different things that I can address later. But that panel, I 
think, did some very good work.
    OSHA came out after the panel was over, and during that 
process, and said that it was absolutely a collaborative 
success. The AFL-CIO made a statement as part of OSHA's release 
that said the panel furthered the shared goal to ensure that 
all workers return home to their families each day as healthy 
as when they went to work.
    Now, like many other industries, airlines do use 
contractors. Sometimes the contractors are other airlines, 
sometimes it is regional, sometimes it is third-party 
contractors for a variety of services. And these contractual 
relationships benefit airline customers by enabling air 
carriers to provide more comprehensive services.
    I think Chairman Graves mentioned this, but sometimes 
airlines, for example, fly to a small airport. There may be a 
flight that comes in at 6 a.m. and leaves. There may be a 
flight at 6 p.m. It wouldn't make any sense, really, for an 
airline to employ someone and require an employee to commute 
from wherever they are coming from, come in, work 2 hours, 
leave, and then, at the end of the day, at 6 p.m., come back in 
and work another couple of hours and then leave.
    And so, in those situations, airlines very often contract 
for that kind of work. That way there is a third party that 
either can combine that with other carriers, and that way the 
employees get a full shift, and it is much more efficient.
    Airlines are committed to their employees and to their 
contractors. They will continue to hold their contractors to 
follow the law, Federal law, State law, and local law. And they 
are committed to doing that, absolutely.
    Thank you to this subcommittee for allowing A4A to testify, 
and we appreciate the opportunity to answer any questions you 
may have.
    [Mr. Harrison's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Chris Harrison, on behalf of Airlines for America
    Thank you for the opportunity to testify today on behalf of 
Airlines for America (A4A) regarding working conditions for airline 
ground workers. My name is Chris Harrison, and I am a labor and 
employment attorney with the law firm of Ogletree Deakins. Prior to 
joining Ogletree Deakins, I also served as in-house counsel at Pinnacle 
Airlines Corporation. I have spent almost fifteen years of my 
professional life representing airlines and airline service contractors 
and appreciate the chance to bring perspective to this important set of 
issues.
                               Background
    U.S. passenger and cargo airlines directly employ some 750,000 
(full-time and part-time) workers across the globe. U.S. airlines 
operate approximately 28,000 flights per day, with passenger service to 
over 80 countries and cargo service to more than 220. Each day, those 
U.S. airlines carry 2.4 million passengers and deliver 58,000 tons of 
cargo to that global network of countries and municipalities. As a 
whole, U.S. commercial aviation drives 5% of U.S. Gross Domestic 
Product (GDP) and helps support more than 10 million U.S. jobs, 
including thousands of ground service workers.
    The U.S. commercial aviation footprint is a complex and robust 
framework consisting of a multitude of airports broadly spanning from 
rural communities to large metropolitan areas and everywhere in 
between. According to Federal Aviation Administration (FAA) data, more 
than 500 U.S. airports have commercial service, each of these airports 
being unique with varying economic arrangements that can differ 
significantly. For example, almost every domestic airport that airlines 
serve is government-owned, and generally every contract entered into by 
an airline must comply with each airports unique airport lease 
requirements, the laws of the state/county/municipality in which that 
airport is located and all other federal requirements. While the 
diversity of each operating environment may differ greatly, the airline 
approach does not. Airlines take great effort to comply, and do comply, 
with all applicable federal, state and local laws. Airlines also 
routinely monitor the practices of their airport ground service 
contractors, which can be other airlines or independent ground services 
vendors. As purchasers of those services, airlines hold vendors to the 
highest standards and requires them to follow all applicable laws and 
regulations.
                          Ground Worker Safety
    Safety of employees and passengers is and always will be the U.S. 
airline industry's top priority. Airlines take safety very seriously, 
and that commitment certainly includes the safety of airport ground 
workers regardless of employment status as an in-house employee, prime 
contractor or subcontractor. Airlines have adopted a commitment to a 
continuously improving safety culture and have implemented non-punitive 
Ground Safety Awareness Programs (GSAPs) which have become standard 
throughout the industry and engage both workers and applicable union 
representatives.
    The industry also participated in the U.S. Department of Labor 
(DOL) Occupational Safety and Health Administration's (OSHA) Airline 
Ground Safety Panel (AGSP) from 2008 to 2018. The industry partners in 
the OSHA AGSP included A4A, the Regional Airline Association (RAA), 
airport ground service companies, the International Association of 
Machinists (IAM) and the Transport Workers Union (TWU). Over that ten-
year span, the AGSP met regularly to review and endorse best practices 
in airport and airline ground safety. When OSHA closed out the AGSP in 
May 2018 it noted a number of successes that resulted from the 
endeavor, including but not limited to:
    <bullet>  Development of 15 toolbox talks and fact sheets 
discussing best practices for using Baggage Tugs and Carts, 
Beltloaders, Pushback Vehicles, and High-Lift Trucks in their 
workplace. The resources addressed topics including slips, trips and 
falls; falling objects; amputations; vehicular accidents; and ergonomic 
hazards in the airline industry. AGSP also created a toolbox talk for 
their employees on OSHA's revised Hazard Communication standard;
    <bullet>  Development of five guidance documents, including one on 
cold and heat illness identification; one on distracted driving by 
airline employees on the ramp and airport roadways; and the other three 
on the fundamental functions of airline vehicles;
    <bullet>  Case study on hazards associated with the operation of 
High-Lift Box Trucks; and
    <bullet>  Disseminated information and resources to over 1.6 
million individuals in the airline industry.

    The OSHA AGSP was a tremendous success for all involved and showed 
the collaborative commitment both labor and management have toward 
safety. Excerpts from the OSHA press release \1\ include:
---------------------------------------------------------------------------
    \1\ OSHA Press Release--October 2012--AGSP Renewal

        ``Our continued Alliance with the Airline Ground Safety Panel 
        will focus on preventing worker injuries caused by slips, trips 
        and falls and being struck by objects,'' said Assistant 
        Secretary of Labor for Occupational Safety and Health David 
        Michaels (Obama Administration). ``We look forward to working 
        with the panel to educate and train employers and workers on 
---------------------------------------------------------------------------
        preventing workplace injuries.''

        ``The three labor organizations on the panel--the International 
        Association of Machinists and Aerospace Workers; Transportation 
        Trades Department, AFL-CIO; and the Transport Workers Union of 
        America, AFL-CIO--praised the Alliance for furthering the 
        shared goal to ensure that all workers return home to their 
        families each day as healthy as when they went to work. 
        Airlines for America, a panel participant that represents the 
        airline industry, also expressed its support for the Alliance, 
        stating that its member airlines are pleased to be a part of 
        this voluntary, collaborative program with OSHA and labor union 
        partners to further enhance the safety of airline employees.''

    The industry remains committed to maintaining and continuously 
improving safety for all workers.
                 Ground Worker Contractual Arrangements
    Like many industries, airlines sometimes contract with companies, 
such as local vendors and other airlines, for a variety of services 
including airport groundwork. These contractual relationships benefit 
airline customers by enabling air carriers to provide more 
comprehensive services. For example, it is a common industry practice 
for airline ``A'' to ground handle for an airline ``B'' at certain 
airports. This is especially common where a U.S. airline handles the 
ground services at a rural airport or for a foreign code-share carrier 
at a domestic airport. Likewise, major and regional airlines routinely 
handle ground servicing for each other.
    Baggage handling is another example of a service where the demand 
can vary greatly at any one airport with periods of concentrated demand 
followed by slack periods. For this reason, in some instances, baggage 
handling in the ``common baggage'' areas beneath most airport terminals 
is sometimes performed by third party contractors. A shared contractor 
enables efficiencies. At certain other airports, the logistics of the 
complex and extensive baggage systems that must move baggage to and 
from multiple terminals and gates, along with ``common baggage 
screening'' areas mandated by the Transportation Security 
Administration (TSA), also has fostered the use of third party 
``consortiums'' that can nimbly serve all airlines.
                       Airline Worker In-Sourcing
    While ground handling and baggage handling are just a couple 
examples of services that may be considered for a service contract, it 
is important to note that airlines also regularly in-source work. Over 
the past four decades, the number of passengers flown by U.S. airlines 
has tripled from approximately 300 million to 900 million. This growth 
has been fueled by air carriers growing their networks and expanding 
service to new markets. When an airline starts operations at a new 
airport, the general practice is to contract with other airlines and 
service providers already present at that airport. If the new service 
proves to be successful and the airline continues to expand at that 
airport, the airline may hire its own employees to handle the 
operations. In fact, many existing airline labor contracts with ground 
service unions require that once operations at a new station reach a 
certain level (example: 20 or more daily arrivals and departures) the 
work must be transferred to airline employees. These provisions have 
been invoked on countless occasions over past decades. This contractual 
flexibility allows airlines to enter new markets and enhance 
competition. In many instances, without this market balance, service to 
some communities would no longer be economically or operationally 
feasible.
                  Airline Employment and Compensation
    U.S. airlines are proud of their strong record of job creation. 
Since the passenger carriers began their current economic turnaround in 
2010, employment has increased 18% from 378,000 to 447,000 full-time 
equivalents. For the past four years, job creation in the airline 
industry (both passenger and cargo) has consistently outpaced overall 
U.S. job growth. Airlines are committed to their employees.
    As noted, contract employees also play a pivotal role in the daily 
operation of an airline. Regardless of whether a prime contractor is 
retained by an airline directly or through a consortium or is another 
airline, they are integral to system operation. As purchasers of those 
services, airlines will continue to hold any contractor to the highest 
standards and require them to follow all applicable federal, state and 
local laws and regulations. Airlines are committed to working with any 
and all vendors in good faith based on the local circumstances, laws 
and regulations.
    However, applied to a broader debate as to whether there should be 
a ``living wage'' (or an increase in the minimum wage), airlines 
believe that any application of a new wage standard should be applied 
to all industries and all segments of the economy within the 
jurisdiction contemplating such a new standard. Airline employees and 
associated contractors should not be exclusively singled-out or treated 
differently than employees at a hotel, restaurant or any other entity. 
It is simply not good public policy to arbitrarily apply a wage 
standard to one component of the economy versus another.
    Thank you to the Subcommittee for asking A4A to testify. We 
appreciate the opportunity, and I look forward to your questions.

    Mr. Larsen. Thank you, Mr. Harrison. I now turn--and I 
appreciate your patience--to Mr. Russell Brown, RWP Labor.
    You are recognized for 5 minutes.
    Mr. Brown. Chairman Larsen, Ranking Member----
    Mr. Larsen. Sir, turn your microphone on.
    Mr. Brown. Chairman Larsen, Ranking Member Graves, and 
distinguished subcommittee members, thank you for having me 
here.
    My name is Russ Brown. I am a retired airline employee with 
25 years of service. I have worked below the wing in lavatory 
services, water service, baggage handling, and air freight; 
above the wing as a ticket counter agent, a gate agent, and a 
passenger service agent. I am now a labor relations expert with 
hundreds of cases to my credit. My experience includes Railway 
Labor Act.
    I am proud of the fact that I started my professional life 
driving the lavatory services truck, or what we affectionately 
called the honey wagon. Experience gained in that job and other 
positions I previously mentioned gave me character and 
appreciation of teamwork I value today. Although I did not make 
a lot of money in this entry-level position, I appreciated the 
job and grew and prospered.
    I am here solely representing myself, and not on behalf of 
any airline or airline vendor. My testimony will focus on what 
I perceive this hearing to be about, as it covers several 
different topics listed below: number one, tarmac safety as it 
relates to staffing and the environment; number two, economics 
of airline vendors and regional airlines as small, medium, and 
large markets; and number three, Railway Labor Act and unions 
who are frustrated about how negotiations work through the 
National Mediation Board.
    The tarmac, which we commonly refer to as the ramp, every 
piece of equipment is staged and moves in preset fashion. 
Airplanes always have the right of way. The ramp is monitored 
and kept clean, as even a small bolt can be sucked into a jet 
engine, causing damage.
    These challenges are known, and the airlines account for 
them and train for them with safety as the primary focus.
    The number of personnel it takes to work a plane from taxi-
in push-out is based on the equipment size. In an industry 
where on-time performance is measured and subject to public 
criticism or potential fine, staffing properly is essential.
    Most airlines operate what is known as a hub-and-spoke 
route system. Different airlines have picked high-volume cities 
as their hubs. The hub city can be a thriving, robust 
operation, whereas a small market may not have enough business 
to staff a full complement of ground employees. Therefore, 
airlines rely on subcontractors and/or regional airlines to 
fulfill the operation.
    We are currently in a time where we enjoy the best 
unemployment rate in our Nation's history, around 3\1/2\ 
percent. Therefore, the demand for employees is very 
competitive. The market will generally find its own value.
    Earlier, Dr. Callaci spoke on the negative impact of 
outsourcing. Dr. Callaci uses a report he authored, ``Fissuring 
in Flight,'' as evidence. After reviewing the report and back-
checking some of the data presented, I found his body of work 
to be unpersuasive, overgeneralized, and at times misleading. 
For time purposes, the committee will need to refer to my 
written statements for the examples.
    There are many inaccuracies in the report. I take no 
pleasure in disparaging anyone's hard work, but I do believe 
inaccuracies should not be shared with this committee. 
Additionally, I would caution reliance on this report by the 
committee for the purposes of taking any kind of legislative 
action without a more comprehensive assessment of its validity.
    Labor relations in America's railroads and airline industry 
are regulated under the Railway Labor Act. The act was passed 
by Congress in 1926 and expanded in 1936 to include airlines. 
In order to avoid disruption of America's transport network 
through strikes and other kinds of work stoppages, the act 
imposed mandatory mediation and gave the President the ability 
to order workers back to work. Like the National Labor 
Relations Act, the Railway Labor Act allows unions to organize 
workers for the purpose of negotiating a collective bargaining 
agreement, as the workers' exclusive representative.
    Right to work does not exist under the Railway Labor Act. 
And, until recently, there was no mechanism for airlines and 
railroad employees to decertify a union. The previous 
administration changed the voting rules in how votes were 
counted to allow easier unionization.
    In conclusion, I urge you to concentrate on the following.
    Ramps are dangerous, and airlines should never cut corners 
with safety, and should always be looking for a better way. 
Airlines may have a solid grasp on what it takes to continue 
safe operations.
    Number two, outsourcing and regional airlines are highly 
important pieces of America's transportation network. They are 
not replacing mainline jobs, but rather filling jobs that would 
not exist otherwise, but for outsourcing.
    Number three, the Railway Labor Act is the law of the land 
to protect employees' rights and ensure America's commerce 
continues without disruption.
    Number four, finally--and although I did not discuss this 
earlier--corporate campaigns have become the model and practice 
of labor unions like the Service Employees International Union 
and UNITE HERE. Such corporate campaigns typically involve 
generating negative media or public attention against a 
company. In the case where a company is a subcontractor, the 
negative attention is usually directed against better known 
contracting companies like airlines to increase union leverage 
at the bargaining table. The system only works if both sides 
live up to their legal obligations to negotiate in good faith 
in the National Mediation Board.
    Let's continue to do this job, and mediate to a resolution. 
In my experience----
    Mr. Larsen. Thank you, Mr. Brown.
    Mr. Brown [continuing]. If self-help, which is the 
terminology that the Railway Labor Act uses for a strike, does 
occur, there are no winners. Thank you.
    [Mr. Brown's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Russell Brown, Chief Executive Officer, RWP Labor
    Chairman Larsen, Ranking Member Graves, and distinguished 
subcommittee members thank you for having me here.
    My name is Russ Brown I am a retired airline employee with 25 years 
of service. I have worked in airline operations in both above wing and 
below wing capacities. I have done most of the jobs we are talking 
about here today; I've worked below the wing in lavatory service, water 
service, baggage handling, and air freight and above the wing as a 
ticket counter agent, gate agent, and passenger service agent. I am now 
a labor relations expert with hundreds of cases to my credit. My 
experience spans working in the jurisdictions of the National Labor 
Relations Act and the Railway Labor Act. I am proud of the fact that I 
started my professional life driving the lavatory services truck, or 
what we affectionally called the honey wagon. The experiences gained in 
that job, and the other positions I previously mentioned, gave me 
character and an appreciation of teamwork I value today. Although I did 
not make a lot of money in the entry level position, I appreciated the 
job, grew and prospered. I am here solely representing myself and not 
on behalf of any airline or airline vendor.
    My testimony will focus on what I perceive this hearing to be 
about, as it covers several different topics listed below:
    1.  Tarmac safety as it relates to staffing and environment.
    2.  Economics of Airline Vendors and Regional Airlines in small, 
medium and large markets.
    3.  Railway Labor Act and unions who are frustrated about how 
negotiations work through the National Mediation Board.

    The tarmac, which we commonly refer to as the ramp, while it can be 
a hazardous environment and has a specific flow to its operation. 
Imagine yourself working where you are deprived of one of your five 
senses. You are wearing earmuffs that are required Personal Protection 
Equipment (PPE) to protect you from hearing loss. Some of you from time 
to time may want to wear hearing PPE's in this very room. Every piece 
of equipment is staged and moves in a preset fashion. Airplanes always 
have the right of way. The ramp is monitored and kept clean, as even a 
small bolt can be sucked into a jet engine causing damage.
    These challenges are known and airlines account for and train for 
them with safety as the primary focus. The number of personnel it takes 
to work on a plane from taxi-in to push out is based on time and 
equipment size. For example, an Airbus A320 carries approximately 240 
passengers while an Embraer 145 carries approximately 50 passengers; 
each will have different staffing requirements. In an industry where 
on-time performance is measured and subject to public criticism or 
potentially fines, staffing properly is essential.
    Most airlines operate what is known as a hub and spoke route 
system. Different airlines have picked high volume cities to be their 
hubs. The major air carriers may have several hub cities within their 
route system. For example, an airline may have a market to transport 
passengers from Columbus, OH to Seattle, WA. However, there may not be 
enough passengers originating in Columbus to justify a non-stop flight 
to Seattle. But an airline can fill a plane in Columbus with passengers 
going to Seattle and several other locations they serve around that 
same time period. The airline will then fly the Columbus originating 
passengers to a hub city where the airline has lots of other planes 
coming from many small, medium, and large market originations and 
connect to planes that will fly them to their final destination, 
including Seattle in this example. The hub cities can be a thriving 
robust operation, whereas the small markets may not have enough 
business to staff a full complement of ground employees. Therefore, the 
airlines rely on subcontractors and/or regional airlines to fulfill the 
operation. You should note there are some markets so small that they 
would not have air service but for Federal subsidy under the Essential 
Air Service program.
    We are currently in a time where we are enjoying the best 
unemployment rates in our nation's history, with a topline figure 
around 3.5%. Therefore, the demand for employees is very competitive. 
The market for employees will generally find its own value. Earlier, 
Dr. Callaci spoke on the negative impact of outsourcing. Dr. Callaci 
uses a report he authored, ``Fissuring in Flight'' as evidence. After 
reviewing the report and backchecking some of the data presented, I 
found his body of work to be unpersuasive, overgeneralized, and, at 
times, misleading.
    For example, the report states that there are only 25,000 
``legacy'' pilots at American, Delta, and United. In reality, that only 
counts pilots operating domestic routes, ignoring the 13,000 other 
pilots who operate international flights. It also ignores the more than 
20,000 pilots who work for the other five largest airlines in the 
country. And it ignores the ever-growing demand for pilots in all 
industry segments, including regional, cargo, and mainline. For 
example, Delta Air Lines announced it is planning on hiring and 
training 1,300 pilots this year and 8,000 over the next decade.
    Additionally, the report discusses the contracting of American 
Airlines wheelchair pushers in Miami. Unfortunately, simple chronology 
does not fit with the underlying narrative. The report suggests the 
wheelchair pushers were contracted out to save money and then brought 
back in house when a living wage ordinance was implemented to take 
advantage of the airline exemption in the ordinance. Here are the 
facts: in the 1990's, American Airlines made a decision to outsource 
wheelchair pushing services in their Miami operation. The contract was 
awarded to a vendor Eulen, which later became subject to ``Miami-Dade 
Living Wage Ordinance implemented in 1999. This ordinance was for 
airport vendors and exempted the airlines. American operated under this 
construct for 20 years until contract performance issues prompted it to 
put the contract out for bid in 2019. The contract was awarded to 
American's subsidiary, Envoy Airways, which has been unionized by CWA. 
In other words the contract went from a non-union company (Eulen) to a 
unionized company (Envoy).
    The report's discussion about total air transportation employment 
is also misleading as it proports to be discussing the outsourcing of 
the jobs we are talking about today. In reality the category used in 
the report, ``Support Activities for Transportation,'' excludes baggage 
handlers, caterers and janitors. That category is defined as employees 
`` . . . engaged in providing services to the air transportation 
industry'', which include services relating to airport operations, 
servicing, repairing, maintaining and storing aircraft and ferrying 
aircraft. The more appropriate category to use would have been NAICS 
code 488119, which counts employees of ``establishments primarily 
engaged in (1) operating international, national or civil airports or 
public flying fields or (2) supporting airport operations, such as 
rental of hanger space and provide baggage handling and/or cargo 
handling services.'' Additionally, food services at airports are 
classified under NAICS code 722310 while aircraft janitorial services 
are classified under 561720.
    There are many more such inaccuracies in the report. I take no 
pleasure in disparaging anyone's hard work, but I do not believe 
inaccuracies should be shared with this Committee. Additionally, I 
would caution reliance on this report by this Committee for the purpose 
of taking any kind of legislative action without a more comprehensive 
assessment of the its validity.
    Labor relations in America's railroad and airline industries are 
regulated under the Railway Labor Act (RLA). The Act was passed by 
Congress in 1926 and expanded in 1936 to include airlines. In order to 
avoid disruptions to America's transport network through strikes and 
other kinds of work stoppages, the Act imposed mandatory mediation and 
gave the president the ability to order workers back to work. Like the 
National Labor Relations Act (NLRA), the RLA allows for unions to 
organize workers for the purpose of negotiating a collective bargaining 
agreement as the workers' exclusive representative.
    However, while the NLRA allows unions to organize on a location-by-
location basis, under the RLA, a bargaining unit must include all the 
workers of the same classification throughout an entire company. 
Railways and airlines are network industries, with capital investments 
stretching across several states or even the entire nation. By 
requiring unions to organize on a companywide basis, the RLA helps to 
avoid the creation of a patchwork of work rules that piecemeal 
unionization at specific facilities would bring. Balkanized work rules 
detract from the standardization and economies of scale upon which 
network industries rely. ``Right to Work'' does not exist under the RLA 
and until recently there was no mechanism for airline and railroad 
employees to decertify a union. The previous Administration changed the 
voting rules in how votes were counted to allow easier unionization. 
While Congress did not ultimately reverse that rule, it did restore 
some balance to the unionization process in 2012, leaving the RLA as a 
solid foundation on which our national transportation systems can 
depend.
    In conclusion, I urge you to concentrate on the following facts:
    1.  Ramps are dangerous and airlines should never cut corners with 
safety and should always be looking for a better way. Airlines may have 
a solid grasp on what it takes to continue safe operations, but when 
tragedies happen like what happened to young Mr. Hudson, the question 
``is there a better way'' should be closely examined.
    2.  Outsourcing and regional airlines are highly important pieces 
in America's air transportation network. They are not replacing 
mainline jobs but rather filling jobs that would likely not exist 
otherwise but for outsourcing.
    3.  The RLA is the law of the land to protect employee rights and 
ensure America's commerce continues without disruption.
    4.  Finally, although I did not discuss this earlier, corporate 
campaigns have become the model and practice of labor unions like the 
Service Employees International Union and Unite Here. Such corporate 
campaigns typically involve generating negative media or public 
attention against a company, often using accusations with government 
agencies or officials, especially during ongoing labor negotiations or 
disputes. In cases where a company is a sub-contractor, the negative 
attention is usually directed against the better-known contracting 
company, like an airline, to increase union leverage at the bargaining 
table. The system only works if both sides live up to their legal 
obligation to negotiate in good faith, and the NMB must continue to do 
its job and mediate to a resolution. In my experience, if ``self-
help,'' which is the terminology that the RLA uses for a strike, does 
occur, there are no winners.

    Thank you and I'm happy to answer any questions you may have.

    Mr. Larsen. Thank you, Mr. Brown. Thanks. I am going to 
open up questions now from Members. We will go in order, and I 
will start and recognize myself for 5 minutes.
    First off for you, Commissioner Higgins, we have heard a 
lot today. But what can Congress do to help local jurisdictions 
like Miami-Dade County tackle some of the problems that you 
have outlined from your own investigation?
    Ms. Higgins. Well, certainly we appreciate all the work of 
OSHA, because often, as we know, we hear stories from workers, 
and we can't verify them on our own. You can't verify them, I 
can't verify them. But the Federal Government coming in and 
making sure that, when we are hearing tales of this, we are 
actually believing them, we are then verifying that they are 
true. That was extremely helpful to us at Miami International 
Airport. So we went from storytelling to fact verification 
because we had the official citations.
    The other thing that I think is really important, as you 
can see, is we are sometimes shuffling workers back between 
subcontractors and airline subsidiaries, all trying to figure 
out how can we get the lowest wage going.
    At the municipal and local level, sometimes it is very hard 
for us to require airline subsidiaries--and certainly for 
airlines subcontractors--to comply with living wage standards, 
particularly when airports are on public property, right?
    So Miami-Dade County, for example, if you are contracting 
with us, we have a living wage because we think that is what it 
takes to keep people out of our public hospitals, out of the 
lines for affordable housing, you know, off the rolls for SNAP 
benefits. And we struggle very, very much to have airline 
subcontractors, as well as airline subsidiaries, comply with 
those.
    And we all know this is an extremely diverse country. In 
the State of Florida, of course, we have got very inexpensive 
places to live and very expensive places to live. And Miami, 
unfortunately, is one of those spots where it is pretty pricey.
    So the idea of getting to what we have, and our living 
wage, is a package of around $15 an hour, whereas if you don't 
provide health insurance, it is at least $15 an hour. And if 
you do, you can pay a little less than that. That is what we, 
as elected officials, believe people can start to pay their 
rent at. And right now we are not always able to make that 
happen. Thank you.
    Mr. Larsen. Thank you. Ms. Patrick-Cooper, I was concerned 
to learn that UNITE HERE in 2018, with your survey that you 
cited, found that the rate of uninsured airline catering 
workers in Seattle was the third highest among 21 major cities. 
Can you comment on why some cities lead others in the survey?
    Ms. Patrick-Cooper. Sure. So the survey was taken of 
several of our members in various cities. And one of the things 
that we reiterate and say over and over again, these--it is a 
vicious circle, because they are low-wage jobs, and 
unaffordable healthcare.
    So, as a result of that, many of our members, they tend to 
rely on Government-funded programs for their healthcare. Many 
of them are uninsured. Many of them--as I say with the vicious 
circle, is a low-wage job, you have to get to work, you have to 
provide for your family. And, as a result of it, some of them 
still go to work sick, some skip medical care for themselves, 
others work multiple jobs. One of our members in Detroit, 
Shondalyn, works with one of the subcontractors and another 
employer in the airport to be able to pay for healthcare for 
her and her child.
    Many of them travel out of the country to get healthcare 
because it is unaffordable here in the United States, which--
you know, someone working here in our country and having to go 
to another country to get affordable healthcare. And other 
Government-funded programs that they rely on are food stamps. 
So it tends to be a vicious circle, and it is like a bleeding 
that we just cannot plug up.
    It has to be fixed, and we feel very confident that the 
airlines really--they do have a horse in this race. They can do 
something about this. They just have to have the will and the 
want to do it, because these are--as I said earlier, some 
members have worked for decades.
    You know, 9/11 came and, as a result of it, the airlines 
have bounced back. We have heard in the report earlier on the 
profits that they are making. But our members are still left 
behind, and they are suffering like today is still 9/11. Thank 
you.
    Mr. Larsen. Thank you very much. Thank you. We will turn 
now to Ranking Member Balderson.
    You are recognized for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman. Thank you all for 
being here this morning. My question is directed to Mr. 
Harrison.
    Mr. Harrison, thank you for your testimony this morning. 
You claim that the contractual flexibility airlines have allows 
them to enter new markets and enhance competition. You argue 
that, without this market balance, service to some communities 
would no longer be economically or operationally feasible.
    In your opinion, what communities would lose service and 
would be hit the hardest if airlines were not able to contract 
with other airlines or service providers?
    Mr. Harrison. Thank you, Congressman, for your question. 
Obviously, I don't have a specific list at hand. The impact 
will be felt, I think, at most by the smaller, regional 
airports: Tupelo, Mississippi; Fort Wayne, Indiana. All those 
smaller airports, you know, typically it is a lack of 
frequency. If they were not allowed to subcontract, and they 
were not allowed to use contractors, airlines couldn't do it 
efficiently. And essentially, you are not going to fly 
somewhere you are going to lose money at.
    There are Government programs like the Essential Air 
Service and those sorts of things. But typically, smaller 
cities don't allow as much frequency, and you can't really 
effectively do that. I can certainly get you additional 
information, if you would like, on that. But the smaller 
communities and maybe even some mid-sized markets might lose 
service altogether, or there might be a loss of frequency, or 
the change in the amount of the number of flights that come in 
and out of there each day.
    Mr. Balderson. I appreciate that. If you could get some 
stuff to our office on that, please.
    Mr. Harrison. Thank you.
    Mr. Balderson. My followup question to you is, in your 
testimony you say that airlines take great effort to comply 
with Federal, State, and local laws. You also mentioned that 
airlines routinely monitor the practices of their airport 
ground service contractors.
    Can you expand on the processes airlines have in place to 
actively monitor the practices, working conditions, and 
services that are provided by the contractors, please?
    Mr. Harrison. Certainly. Thank you.
    First of all, that language is typically written into the 
contracts that the airlines have with the service providers. 
First of all, they have to comply with all Federal, State, 
local laws. That includes wage and hour laws, that includes 
safety laws, that includes OSHA, all the applicable laws that 
apply, that is written into the contracts.
    What airlines typically do, as a broad issue, is they will 
go out and monitor. They will audit. So airlines usually have 
fairly substantial quality assurance programs that monitor 
themselves, as well, and these quality assurance individuals 
and auditors will go observe conditions, and look to see if 
they find anything.
    If they do find an issue, those are typically addressed. 
Again, in the airline industry, it is a human endeavor, and 
there are going to be issues that you may find. Not everything 
is perfect. But when you do find things, that is part of the 
continuous improvement. You see something, you see an issue 
specifically, or you see a trend, and you immediately address 
it.
    There are also ways for employees to come forward and bring 
those issues, and that includes both internally and also even 
with the agencies, you know, the employees. We have talked a 
lot about OSHA and their coming onto properties and doing 
certain things. I think that is a good example of OSHA doing 
their job. Employees can go to OSHA, can raise issues. OSHA can 
come out, and they have the power to fine employers, and deal 
with those issues and try to get those resolved.
    Mr. Balderson. Do you feel there is anything more that the 
airlines themselves--that they can do, and kind of take that 
initiative before OSHA has to come out?
    Mr. Harrison. They do. And I think the airlines--and I 
didn't mean to imply that the airlines are just relying on OSHA 
to do that job. They go out, and they monitor, and they go 
audit, and do that regularly.
    Mr. Balderson. OK. Thank you very much.
    Mr. Chairman, I yield back my remaining time.
    Mr. Larsen. Thank you. I recognize Chair DeFazio for 5 
minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Mr. Brown, you talked about unions engaging in this 
distorted kind of corporate campaigns that corporations often 
use to bust or prevent unions. Do you think that what we heard 
from the commissioner, and from the workers, and the OSHA fines 
that Eulen was just doing a great job, and they were just 
smeared by a corporate campaign?
    Mr. Brown. Sorry, I can't speak to any individual 
situations like that. I am unfamiliar with the----
    Mr. DeFazio. Right, but you were broadly brushing the 
unions as engaging in these distorted corporate campaigns, and 
what we have here are OSHA fines, documentation. That was a 
pretty broad brush.
    And you also, of course, wanted to pick some points with 
the economist on the panel. And I would note that the Airbus is 
not certified to carry 240 people. If they are putting 240 
people on one of those things, I want to know about it, because 
they would be outside their certificate. So thanks for that.
    Dr. Callaci, $31.3 billion of share buybacks. Now, who 
benefits the most from share buybacks?
    Mr. Callaci. Who benefits from share buybacks are people 
who own shares, which are disproportionately--even including 
the beneficiaries of pension funds--are disproportionately 
wealthy. So it is a redistribution of wealth to people that 
already have a bit of it. And it also leaves less money. There 
are reams of social science research on this, particularly from 
Bill Lazonick at UMass Lowell on how it leaves less money for 
investing in things like employees, and skills training, and 
new technologies.
    Mr. DeFazio. Right.
    Mr. Callaci. Yes.
    Mr. DeFazio. So do--like these airline corporate CEOs, do 
they generally vest it with shares?
    Mr. Callaci. Right----
    Mr. DeFazio. So would they be beneficiaries of their own 
buybacks?
    Mr. Callaci. Right, so that is the other part. Because 
executive compensation has become so skewed towards 
compensation in shares and share options, it is a way of 
compensating executives.
    I mean I think I also want to draw just----
    Mr. DeFazio. Is that a way of avoiding taxes? I mean, 
what----
    Mr. Callaci. Well----
    Mr. DeFazio. As opposed to paying them a higher salary?
    Mr. Callaci. Well, so yes. So there is different--exactly. 
There are different tax treatments of different types of 
compensation. Incentive pay, being paid in shares, is one of 
the ways that that is incentivized.
    I should also point out that, unlike even dividends, which 
are another way to reward shareholders, buybacks don't reward 
long-term investors. They reward people getting out. Right? 
They are buying the shares back. They are not giving it as a 
reward to long-term investors.
    Mr. DeFazio. OK. And then to Ms. Patrick-Cooper from UNITE 
HERE.
    You talked about the mediation with LSG Sky Chefs. When did 
this negotiation start?
    Ms. Patrick-Cooper. So one of the things we appreciated of 
the mediation process that we are going through right now are 
the mediator's efforts to bring both sides to an agreement. But 
in reality, this takes years. And this is a hardship, 
specifically, for low-wage workers. It comes across as a heavy 
burden.
    So our goal is to escape poverty, not to disrupt travel. 
So, you know, by getting released from the RLA mediation 
process, we believe that that is the only path to settlement 
for us.
    Mr. DeFazio. So you would have more flexibility to take 
more decisive action if you weren't----
    Ms. Patrick-Cooper. Absolutely. By being able to enforce 
our First Amendment right.
    Mr. DeFazio. Yes? OK.
    Ms. Patrick-Cooper. Yes.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman. I have 
another meeting, but thank you.
    Mr. Larsen. OK, thank you, Mr. Chair. The Chair recognizes 
Representative Smucker from Pennsylvania for 5 minutes.
    Mr. Smucker. Thank you, Mr. Chairman.
    Thank you, Mr. Barrios, for being here to share your story.
    I was in the construction industry for years, and it can be 
a dangerous job as well if proper precautions are not put in 
place, and as an employer in the industry, we were focused on 
ensuring the safety of our employees.
    We had individuals coming, leaving their families, working 
at our job site every day, and we wanted to ensure they went 
back in the same shape or better shape home to their loved ones 
every single day, and so we took it personally when there was 
an injury that affected the lives of one of our employees.
    I do not know Eulen. I have no idea. In fact, I do not know 
if the chairman would want to address this. Was Eulen asked to 
be part of this hearing here today?
    Mr. Larsen. You can address your comments to the witnesses. 
Thank you.
    Mr. Smucker. I know. In case you wanted to answer that 
question.
    Mr. Larsen. I appreciate the opportunity. You can ask 
witnesses questions.
    Mr. Smucker. OK. Thank you.
    I suspect that that may have been the case. I do not know 
Eulen, but I can tell you this. There is a reason that this 
hearing was not held here for 32 years, because every day there 
are hearings along this line in a different venue and in a 
venue that would take input from all sides, including the 
employer.
    And we have laws in place specifically to ensure that your 
rights are protected. When there is a bad actor, my experience 
has been that employers for the most part really do care about 
their employees, about the safety of their employees.
    I do not know whether Eulen does or not, but certainly 
there is a judicial process in place. There are laws in place 
that ensure that bad actors are held accountable.
    For instance, you mentioned fresh water. I know in my 
experience with OSHA, that that is a requirement. Perhaps this 
is a question for Ms. Higgins.
    When you saw those kinds of conditions that you described 
today, did you complain to OSHA about that?
    Ms. Higgins. When I went after my airport tour and I, 
indeed, was able to verify that there is no access to water on 
the tarmac for anyone working on the ramp no matter how long 
they are out there, I wrote a letter to the CEO of Eulen, who 
lives in Miami. So he is located there, expressing my concerns, 
just asking him to get together with the workers to try to see 
if some of these things could be worked out.
    I mean, some of them are simple, right? If you were CEO of 
Eulen or I were CEO of Eulen, we could figure out how to strap 
an Igloo cooler to the back of a truck with a bungee cord like 
every construction vehicle.
    Mr. Smucker. Were you aware there are laws in place to 
address that specifically?
    Ms. Higgins. Yes, and it took a little while, but OSHA 
finally did come in.
    Mr. Smucker. So did you make a call?
    Ms. Higgins. I did not make a call.
    Mr. Smucker. OK. All right. Clearly, there are laws in 
place. There should be laws in place.
    Ms. Higgins. Absolutely.
    Mr. Smucker. And there is a procedure for employees. And I 
understand in some cases employees may feel their job is 
threatened, but there are procedures in place to hold employers 
accountable when there are bad actors.
    And, again, I do not know whether this is the case or not, 
but what I do know is this is not a fair procedure to any 
company to hold this kind of event without having the 
opportunity for them to participate in it as well.
    So I am disturbed that this is being presented in this way 
without hearing all sides of the situation so that we can make 
proper judgments. And it is not being done in the place where 
it should be.
    Mr. Callaci, is it?
    You talked about the idea of contracting with other 
entities. So I come from construction. That happens all the 
time.
    Are you suggesting that is an arrangement that we at the 
Federal level should discourage or actually set laws to 
prevent?
    Mr. Callaci. I absolutely would not suggest that. It is OK 
to contract, and there are industries, you know, the 
entertainment industry, certainly construction, that work on 
that model.
    The issue that I point out is, first of all, in this 
particular industry contracting out is increasing. So it is not 
something that we see at the same level throughout the economic 
history of the industry. It has been increasing, and the wages 
are lower in the outsourced occupation. So the same job pays 
differently depending on whether it is contracted out.
    Mr. Smucker. What are your----
    Mr. Larsen. I am sorry. The gentleman's time is up.
    Mr. Smucker. Thank you very much, Mr. Chairman.
    Mr. Larsen. Just to remind folks, it is Dr. Callaci, for 
everybody. It has been mispronounced a couple of times. Callaci 
is the name. Apparently labor economy is his game.
    I recognize Representative Lynch for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    And I really do appreciate you holding this hearing. I 
think we need to put a spotlight on this issue, and I think 
today is one of those days.
    Full disclosure for the witnesses: I am former president of 
the Ironworkers Union back in Boston. I actually worked 20 
years strapping on the work boots. So I am a former union 
steward. So I sort of relate to some of the stories I am 
hearing out there and the struggle that is out there.
    I joined Congressman Brown. He and I were on the picket 
line with ``One Job Should Be Enough'' at Reagan National 
Airport several months ago and saw a lot of familiar faces out 
there during that day of action.
    I worked very closely with Brian Lang, who is president of 
Hotel Employees and Restaurant Employees Local 26 and UNITE 
HERE as well in the Boston area.
    I think that in this industry, we have taken away the right 
to strike from many workers in a realistic way. So it really is 
a question of the relative power of employees to negotiate with 
their employer, and it is greatly imbalanced, I think, for most 
ground workers at airports.
    Again, full disclosure: my brother-in-law works at Logan 
Airport in Boston. He is a member of the Teamsters Union. He 
drives a truck, and I am familiar with the struggles that they 
have on a regular basis just to maintain decent standards, 
working standards, good conditions of employment.
    Along those lines and also with the food workers and 
others, and I firmly believe that one job should be enough, and 
the way we are treating our workers there right now at Reagan 
National with the food workers, we have not really given people 
an opportunity to bargain in good faith with the appropriate 
level of power on the part of our employees.
    Our Government has a responsibility as well. In many of 
these critical industries where public safety is involved and 
the operation of a major airport, an international airport is 
involved, the industry tells us and the regulator tells us that 
this is so important we cannot have workers walking off the job 
because they are unhappy with their working conditions.
    So we force workers to continue to work even though they 
have the right to grieve and bring their complaints. We do not 
give them enough power to resolve them.
    Mr. Callaci, I know you are a labor economist. You see this 
dynamic in this industry. I think you are keenly aware of the 
issues here.
    How might we rebalance this so that the industry actually 
listens, that the regulators actually listen, the employer 
actually listens to the concerns of the worker?
    Because I think that is at the heart of this. People are 
not listening, and I know there are laws on the books, and the 
gentleman on the other side of the aisle is right. There are 
laws on the books, but getting those laws to work on behalf of 
the people they were meant to protect is quite another issue.
    So if you could just illuminate some of the problems that 
you see in this struggle.
    Mr. Callaci. Sure. And right before I answer that I just 
want to just point out that Mr. Brown made some comments about 
inaccuracy, I just remember, in my report. At some point if we 
could get to it, I would love to speak to those and learn more 
about what they are.
    I do not think there are any inaccuracies in the report. I 
was pretty careful.
    But anyway, to answer your question, I am going to speak in 
broad terms, not super detailed policy proposals because I am 
an economist here, not a policy specialist.
    But clearly, what has happened here and it has happened in 
other industries in the economy is that the traditional, firm-
level collective bargaining, establishment-level collective 
bargaining regime has broken down. When a job is outsourced, 
the walls, basically the boundaries of the firm access sort of 
a wall around where the profits are.
    So who is the most profitable entity in the airline 
industry? It is the legacy carriers. The more work that is 
outsourced, that means that workers at those outsourced 
companies cannot collectively bargain over or access those 
enormous profits that are sitting at American. They are going 
to the shareholders or they are going to the executives.
    And some of them may be even shared with direct employees, 
but the problem is or to diagnose the problem as I see it, when 
we have a firm-level collective bargaining regime that does not 
allow workers to bargain with the entity or to have some 
countering power against the entity that really controls their 
working conditions, it is not working anymore. And there needs 
to be some way to restore worker voice and some countervailing 
power in the industry.
    Mr. Larsen. Thank you.
    Mr. Lynch. Thank you, Mr. Chairman. I yield back.
    Mr. Larsen. I recognize Ranking Member Mast for 5 minutes.
    Mr. Mast. Thank you, Mr. Chairman. I appreciate it.
    Ms. Patrick-Cooper, I would like to have a conversation 
with you. I choose you really for no other reason than I 
thought you spoke most passionately, and I enjoy speaking to 
people that speak passionately, even if we do not agree on 
everything. We know that we both care, and so it is for that 
reason that I want to have a conversation with you on this 
issue.
    One of the things that stuck out in your remarks and I want 
to give you an opportunity to clarify is that you said that one 
job should be enough. Somebody should only have to work one 
job.
    Now, I just want to know. So you clarify for yourself. You 
only want somebody to have one job or it is just your belief 
that any one job, any job, that exists out there has to be 
enough to pay every bit of a person's life needs?
    Ms. Patrick-Cooper. Yes. Thank you very much for that 
question.
    I mean, to reiterate the core of it is that everyone who 
goes into a workplace, they are going there to keep roof 
overhead, to put food on the table for someone, to put clothing 
on their back.
    And if you have a family and you are working multiple jobs, 
it bears down on your family breakdown because you are not 
there with them, and you cannot afford it.
    I think as I said earlier, this is a vicious circle, not 
being able to take care of themselves, their medical needs, not 
being able to take care of their children's medical needs, and 
one good job with decent wages and affordable healthcare, I 
mean, for folks who are living here in America, that should be 
our American dream.
    Mr. Mast. Any one job that exists in this country should 
pay the total needs for any person, any family.
    Ms. Patrick-Cooper. Absolutely. Workers should not have to 
be working multiple jobs, skipping family care, skipping 
medical care, having to go to another country for medical care 
because they cannot even afford it in our country.
    And that is our premise in all of the bargaining that we do 
for our members. Our goal is to raise the standards for wages 
and benefits so our members can really work in dignity and be 
able to take care of their family needs.
    Mr. Mast. Do you believe personally that level of skill 
should correlate to somebody's wage?
    As an example, one of my first jobs was working in a 
carwash. It was cold. It was in Michigan. I was really doing 
nothing other than operating a pressure washer gun to spray 
debris off of vehicles, a totally different skill level than 
what I needed when I was in the military.
    So just a simple question: should wage be correlated to 
skill level?
    Ms. Patrick-Cooper. So I, too, started out as a rank and 
file worker, and one of the things we do know is that when we 
start into entry-level jobs, as the question you are asking 
right now, the wage would correlate to that, but have someone 
having an opportunity to continuously make a living because at 
the end of the day, the workers are the ones that are at the 
lower end of the profits that the company is making. They are 
the ones that are really doing it.
    So your question is the wage level. It should correlate to 
it, but it should be a decent living wage.
    Mr. Mast. But it should correlate to skill level.
    Ms. Patrick-Cooper. Correct. And in all of our collective 
bargaining agreements, we have different classifications that 
are on different wages, as the question that you are asking.
    Mr. Mast. Did it correlate to applicable education?
    Ms. Patrick-Cooper. You said education?
    Mr. Mast. Yes. Should your wage correlate to applicable 
education based upon the work that you are doing?
    Ms. Patrick-Cooper. So in our job skills, it is about the 
experience and knowing how to do your job. You can have someone 
who does not have a high school diploma who can do the work 
just as well as someone with a college degree. So it is about--
--
    Mr. Mast. With some jobs.
    Ms. Patrick-Cooper. Yes. It is about the skills, ability to 
do the job, because everyone is able to be trained. If a 
company has put training programs in place, almost anyone can 
do the job if a company has a training program in place to give 
them quality training.
    Mr. Mast. So you do not think it should apply to applicable 
education, given the job?
    Ms. Patrick-Cooper. It depends, but at the end of the day, 
we need to be sitting down with employers to make sure that we 
are part of making sure what that wage rate should be. We do 
not want someone to have to work three or four part-time jobs 
because of the employer saying they do not have X amount of 
education.
    So the company in its bargaining process should be with us 
to figure this out because we are not going to bargain a job 
for someone to not be able to at least have a living wage.
    Mr. Mast. What about work ethic or attitude?
    Ms. Patrick-Cooper. As a?
    Mr. Mast. Work ethic or attitude, should wage be correlated 
to work ethic or attitude?
    Different people work at different levels of output, 
depending upon their attitude, how they feel in life. Not 
everybody works the same.
    Ms. Patrick-Cooper. No, and at the end of the day, one 
thing I can say. What we really truly believe in, if you have 
the skills to do the job, your pay should be based on that.
    Mr. Mast. Thank you for the time, Mr. Chairman.
    Mr. Larsen. Thank you.
    The Chair recognizes Representative Brown for 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman.
    I want to thank the panelists today for sharing your views 
and perspectives with the subcommittee.
    Last July, along with my colleagues and I think the 
chairman mentioned this in his opening remarks, we passed the 
Raise the Wage Act, which would gradually raise the Federal 
minimum wage to $15 an hour. This important legislation will 
provide more than 33 million Americans with a wage increase, 
boosting the economy, narrowing the wage gap, and lifting 1.3 
million Americans out of poverty.
    I firmly believe that good wages are just one component to 
ensuring long-term prosperity for our communities. I think 
things like job certainty and security, good job training which 
goes to up-skilling, and providing even greater wages are 
important.
    Affordable healthcare benefits, sound retirement plans, all 
ensure that Americans have the tools to succeed and provide for 
their families.
    And I understand that some of the panelists have ongoing 
contract negotiations, and as Members of Congress, I think that 
we need to be mindful that those negotiations are private, but 
also that we need to address these issues in a fair and 
balanced manner.
    I just come at it from a different perspective, but I think 
these priorities that I just mentioned that have been discussed 
by others should be considered both in private negotiations as 
well as the work of Congress.
    And it would be my expectation that these priorities, these 
values would be incorporated in the conversations, the 
negotiations, the outcomes of those negotiations, and the work 
of Congress.
    Ms. Patrick-Cooper, I would like you to talk a little bit, 
and I apologize if you did when I was out of the room. As you 
know, many Members of Congress are bouncing back and forth 
between multiple hearings, but I would like for you to talk a 
little bit about facility modernization and the workforce 
experience for your members.
    We are moving into the 21st century, and we should ensure 
that facilities and working conditions reflect that. Can you 
provide insight in the typical working conditions that catering 
workers might face and some of the challenges they encounter on 
a daily basis?
    What improvements would caterers like to see in the 
workplace to enhance their productivity, but also worker 
morale? And we know that good wages and benefits ensure long-
term prosperity.
    What else would the caterers like to see in regard to 
modernization in infrastructure?
    Ms. Patrick-Cooper. So I think I want to make sure I 
understand the question you are asking correctly, but so----
    Mr. Brown. In short, what investments need to be made in 
the facilities to increase productivity and morale and improved 
working conditions?
    Ms. Patrick-Cooper. Yes. So we do know that our members, 
since 9/11 and the profits that have gone up on the one side 
versus the workers, that in itself plays a big key piece in the 
morale. When the workers are knowing that they are doing more 
work and are not reaping the benefits, the profits that the 
company is making.
    So as far as the morale goes, that is in the temperature of 
the workers.
    But one thing we do know we could speak on is that the 
workers in the airline industry, they are the worst treated. 
The airline catering, I am sorry. Excuse me. They are the worst 
treated, and they are earning the least amount of wages within 
this industry.
    And the training that our members are getting, when they go 
into these jobs, there are two different ways that our folks 
are. They are producing, assembling food to go on the planes, 
and then we have our other members who are driving these trucks 
to deliver the food from this facility onto the plane.
    And our members are proud. I mean, they have still been 
there even since 9/11. I made a reference to Shondalyn behind 
me earlier. She has been working in Detroit at that airport for 
9 years, and she has had to get a second job in that airport 
with another employer.
    Her morale, her personality, she comes in every single day, 
has a 13-year-old daughter who she is providing for and taking 
care of. Even in spite of these working conditions, she is 
showing up every single day and doing exactly what her employer 
is asking her to do, and she is taking on the second job to 
make sure that she is able to take care of her daughter.
    I hope I answered your question.
    Mr. Brown. Yes, you did.
    Ms. Patrick-Cooper. Thank you.
    Mr. Brown. I yield back.
    Mr. Larsen. Thank you, Representative Brown.
    I recognize Representative Fitzpatrick for 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Thank you to all of the panelists for being here for 
lending your expertise. We really do appreciate it.
    I wanted to loop back to the subject of healthcare. Ms. 
Patrick-Cooper you are getting a lot of the questions today, 
but you did reference this in your statement. So I want to 
address it.
    If you could, just expand upon that for the committee, 
where the gaps are specifically with the bargaining process, 
and if companies will not bargain a fair agreement with you and 
your workers, would not the next step be for the National 
Mediation Board to release you and the employers for mediation?
    Ms. Patrick-Cooper. Thank you for that question.
    And you are right. We are in mediation with both Gate 
Gourmet and Sky Chefs, and we are very appreciative of the 
mediators' efforts to bring the sides to an agreement.
    But you know, because it is the Railway Labor Act, there 
are certain work actions that we are prohibited to do because 
of the law, and this process can take many years. And for low-
wage workers, this is a heavy burden going through this process 
and hoping that we can get to an agreement on both sides.
    Our goal out of this is for our members to escape poverty. 
We do not want to disrupt travel. What we are asking for is a 
release from the RLA mediation process so we can exercise our 
first constitutional right. We feel that that will be the only 
path for us to get to a settlement, instead of this process 
that we know can take many years.
    Mr. Fitzpatrick. Thank you for that, Ms. Patrick-Cooper.
    Mr. Harrison, in your opening statement, you had mentioned 
commercial aviation's participation in the OSHA ground safety 
study that occurred, I believe, from 2008 to 2018. If you 
could, share with the committee some of the positive results of 
that panel.
    And how did the industry work with the relevant partners in 
labor, specifically, TWU?
    Mr. Harrison. Certainly. Congressman Fitzpatrick, thank you 
for your question.
    I think that was important to note, that it was a 
collaborative effort. It was not just the airlines showing up 
and saying, ``This is the way things needs to be done.'' They 
were working with the unions, with the RAA, with the ground 
service contractors some of which, you know, are kind of being 
talked about generally today, and I think it was a very good 
collaborative effort.
    What came out of it was a number of things, and again, it 
was over a 10-year period. They developed approximately 15 what 
are called toolbox talks and fact sheets that discuss best 
practices for using things like belt loaders and tugs, carts, 
pushback vehicles, high-lift trucks, and these are things that 
can be used in day-to-day operations.
    So when you go onto a shift, you can talk about and remind 
employees here are the things you need to be careful of and 
watch out for.
    There is also the development of five guidance documents, 
including those on cold and heat illness identification, 
distracted driving on the ramp and on airport roadways, and on 
the functions of airline vehicles.
    There was also a case study done on the hazards associated 
with the operation of high-lift box trucks, and again, this 
information was distributed and some of the materials that came 
out were distributed to over 1.6 million individual employees 
over the course of that work.
    So A4A is very proud of it, as I think is OSHA and the 
other members that participated, including the unions.
    Mr. Fitzpatrick. Thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Larsen. Thank you, Representative Fitzpatrick.
    I recognize Representative Stanton for 5 minutes.
    Mr. Stanton. Thank you very much, Mr. Chairman. I do want 
to say thank you for holding this important hearing.
    With the level of Federal investment that we have in our 
Nation's airports, including the airport that I used to lead as 
the mayor of Phoenix, Sky Harbor Airport in Phoenix, with the 
level of investment that we have and the level of investment 
that we will be making, we hope, in the near future, we do have 
a great interest in learning about the working conditions of 
people that work at our Nation's airports, both public and 
private.
    So I think that this hearing is very appropriate, and as a 
Member of Congress, getting educated about those working 
conditions is very important to me.
    First, Mr. Callaci, you indicated earlier that maybe you 
wanted a chance to respond to Mr. Brown and you did not have a 
chance to fully respond. I wanted to give you the opportunity 
now if you wanted to take it.
    Mr. Callaci. Well, we have not spoken to what the 
inaccuracies were. Could I yield to Mr. Brown?
    Mr. Stanton. Oh, yes. I am sorry. I will save that for 
another time. I thought you had a specific question regarding--
--
    Mr. Callaci. I can respond to the written testimony if that 
would be appropriate.
    Mr. Stanton. That is all right. I just wanted to make sure 
you get a full opportunity to provide testimony if you wanted 
to respond to anything in particular.
    One of the unique issues we are facing in Phoenix 
unfortunately is extreme heat as it relates to climate change 
and climate change-related issues. Unfortunately, temperatures 
are rising, and it makes working conditions very, very 
difficult.
    So, President Patrick-Cooper, I wanted to have a chance 
maybe to talk about that. The folks in the catering industry at 
Sky Harbor Airport who are working in that extreme heat, maybe 
talk about how that affects their health or whoever would be 
appropriate on that question please.
    Do you feel comfortable answering that question about the 
impact of extreme heat on the working conditions at Sky Harbor 
or airports where there is extreme heat? Please.
    Just push it once.
    Ms. Prophete. Is it working now?
    I represent ground handling workers, and we work outside in 
Charlotte Douglas International Airport, and we work in 100-
degree temperatures and extreme heat.
    I did want to make a reference to what Congressman Smucker 
said earlier, that we have OSHA standards and that they can 
report to OSHA, but I do want the board to know that OSHA does 
not have a heat standard. OSHA does not have a lighting 
standard.
    In our case, with Kendrick Hudson, when he died in the low-
level lighting at the Charlotte Douglas International Airport, 
that is what we are requesting because there are gaps in the 
OSHA standards that could protect workers in our group.
    Mr. Stanton. OK. I appreciate that. I know it is a unique 
consideration, and as we make continuing investments in our 
Nation's airports, taking into consideration how we can improve 
working standards for those who have to work in situations like 
in Phoenix where there is extreme heat is something I will be 
looking towards.
    Thank you very much. I yield back.
    Mr. Larsen. All right. Seeing none on the Republican side, 
we will move to Representative Payne from New Jersey.
    Mr. Payne. Thank you, Mr. Chairman.
    And I just want to also raise what the gentleman from 
Pennsylvania, Mr. Smucker, asked about OSHA requirements and 
rules on water. We make sure dogs have water, period. We make 
sure animals have water. So to think that there needs to be an 
OSHA requirement if there is not one is just absurd.
    I am probably never going to get to my questions responding 
to my colleagues, but also, Mr. Harrison, in your testimony you 
paint a very cooperative picture between labor and the 
industry. You know, everything seems fairly rosy based on your 
outlook.
    But I am trying to figure out why all of these people in 
red T-shirts are here if things are so rosy. They did not come 
from Florida or wherever they have come from just to sit here 
because things are rosy.
    So that would be my observation. There obviously is some 
issue and some problem with what is transpiring between the 
workforce and the incredible margins of profits that the 
airlines are making. I believe the number was mentioned in the 
billions as the profits of the airlines.
    So to have people that, yes, the question of skill level, 
fine, all of that, blah, blah, blah, but in this country people 
should be able to make a living and raise their families. That 
is the American way.
    And the profits now are getting in the way of that. 
Outsourcing is getting in the way of that. That is an issue for 
me.
    So, Ms. Patrick-Cooper, I am proud to represent New 
Jersey's 10th Congressional District, which contains Newark 
Liberty International Airport. I am also proud to represent the 
nearly 1,500 airport catering workers who are part of your 
organization.
    And it deeply troubles me to hear from your testimony that 
people are working for low wages and cannot afford their 
healthcare. I strongly believe that every person in this 
country should have a fair opportunity to succeed, and that a 
living wage and affordable healthcare are an integral part of 
that goal.
    What do you believe Congress should do to help these 
workers?
    And what are the risks if Congress does nothing?
    Ms. Patrick-Cooper. Thank you very much for that, what we 
feel is a very obvious observation of our members.
    What we are asking is for Congress to tell the airlines to 
take responsibility for this workforce of airline catering 
workers.
    We are asking Congress to urge the National Mediation Board 
to move us toward release.
    And thirdly, we are asking Congress to make sure that the 
airlines know that they can solve this problem. They can be 
part of lifting these workers out of poverty so they can 
actually truly live and feel like they are Americans and live 
an American dream, and they just need to have the will to do 
it.
    So we are asking Congress on all those three levels to help 
us in this situation and help our members, which is why you see 
these red T-shirt here, because they are here on behalf of many 
of our airline catering workers who are much below those wages, 
as you just cited.
    Thank you.
    Mr. Payne. Thank you.
    Well, I was part of an action back in Newark Liberty 
International Airport in 2012 when there were issues around 
baggage workers and catering, and I will continue to strive to 
make sure that every American that works hard has the 
opportunity to live in this country and benefit from its 
greatness.
    And with that I yield back.
    Ms. Patrick-Cooper. Can I just add that----
    Mr. Larsen. I am sorry. We will have to move on to the next 
question. Thank you. I am sure you will have opportunities. We 
will have a second round perhaps.
    I will go with Representative Napolitano, and barring 
another person on the Republican side, Representative Titus 
will follow Representative Napolitano.
    You are recognized for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Barrios, in your testimony, you talk about dangerous 
working conditions that the employer, the Spanish company 
Eulen, has created. It seems like Eulen has a bad reputation 
and a bad record.
    Can you discuss further specific safety problems that you 
and your colleagues endure or face on the job?
    And why has the employer not addressed these issues, or 
have they?
    Mr. Barrios. Gracias. Thank you for your question.
    [Speaking foreign language.] [The following language was 
delivered through an interpreter.] In reality----
    Mrs. Napolitano. I cannot understand Spanish.
    Mr. Barrios. Yes. [The following language was delivered 
through an interpreter.] The employer has resolved some of the 
issues, but not all of them. They have waited until there have 
been accidents or great issues with safety for them to start to 
address issues.
    The law should not allow for there to be great injuries or 
fatalities for action to be taken.
    Other problems can continue to exist. Other issues that can 
continue to exist are contact with materials that are 
dangerous, not enough safety materials like gloves, and the 
vaccines like the hepatitis B vaccine.
    Mrs. Napolitano. Are those required of the company?
    Mr. Barrios. [The following language was delivered through 
an interpreter.] I presume that OSHA has asked for them to do 
that.
    Mrs. Napolitano. When?
    Mr. Barrios. [Speaking foreign language.]
    Mr. Larsen. Mr. Barrios, even though you are speaking 
Spanish, please still speak into the microphone, for the 
record.
    Mr. Barrios. OK.
    Mr. Larsen. Thank you.
    Mr. Barrios. [Speaking foreign language.]
    Mrs. Napolitano. [Speaking foreign language.]
    Mr. Barrios. [Speaking foreign language.]
    Mrs. Napolitano. [Speaking foreign language.]
    Mr. Barrios. [Speaking foreign language.]
    Mrs. Napolitano. [Speaking foreign language.] They have not 
done anything to bring it up to date or to address those?
    Mr. Barrios. [The following language was delivered through 
an interpreter.] In 2019, he supposes that OSHA addressed or 
brought up these issues in the fall.
    Mrs. Napolitano. Do you know if the same conditions occur 
in other airports?
    Mr. Barrios. [The following language was delivered through 
an interpreter.] For example, here in this room today are 
people who have suffered accidents. He says that the trucks 
that Eulen operates do not have----
    Mrs. Napolitano. Well, if OSHA has required these things to 
happen, when are they giving the company to comply with taking 
care of the conditions?
    Mr. Barrios. [The following language was delivered through 
an interpreter.] I don't know the answer. [Speaking English.] I 
do not know this answer.
    Mrs. Napolitano. Gracias.
    Ms. Cooper, would you be able to provide insight with 
working conditions currently confronting the caterers on the 
job?
    Just beyond the low wages, I assume that they are 
prevailing in the area, but are they complying?
    Ms. Patrick-Cooper. Yes. And specifically at the Dallas hub 
as far as working conditions, we have experienced because it is 
very hot in Dallas in the summertime, and the trucks that are 
driven from where the food is prepared to bring it to the 
plane, air conditioning was being ripped out of the trucks, and 
our members were driving back and forth in the heat.
    About three----
    Mrs. Napolitano. Did they take care of those conditions?
    Ms. Patrick-Cooper. I am sorry?
    Mrs. Napolitano. Did they take care of those conditions or 
remedy them?
    Ms. Patrick-Cooper. Well, they took care because our 
members demanded. Our members went into the boss and demanded 
that these trucks be provided with air conditioning.
    Mrs. Napolitano. How do you feel this affected the 
traveling public?
    Ms. Patrick-Cooper. I am sorry. How do I feel it affects?
    Mrs. Napolitano. The traveling public, us who fly on the 
planes.
    Ms. Patrick-Cooper. Yeah. No, we feel that it affects it 
very greatly because we feel that safe working conditions 
should be something that is very key for our members to be able 
to come in and do what is expected and asked of them.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Larsen. Thank you.
    The Chair recognizes Representative Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    And thank all of you for being here. I know you face great 
challenges in this industry, and I represent Las Vegas. So that 
is a tourist destination that depends on what you all do and 
that you are safe on the job, and that translates into a good 
experience for our visitors.
    We want them to have a good trip from the minute they leave 
home until the minute they land. So even if you are not 
customer-facing, what you do has a great impact.
    One of the areas that I have been concerned about lately is 
the safety of travelers with disabilities. We have heard and we 
know that there are certain reporting requirements in 
legislation that we passed, and this is a growing issue with 
the disability community who wants to travel just like 
everybody else.
    The latest statistics show that airlines lose or damage 29 
wheelchairs a day. That is a day, and some of these mobility 
assistive devices are very expensive or they are built just to 
fit a certain person, and if the person lands and they are not 
available, that is going to greatly affect their trip or their 
business or why they are going.
    We gave the Department of Transportation the authority to 
fine airlines, but there has not been a single enforcement 
since 2016. The airlines are aware of this because we know they 
have been paying off some people, $2.6 million in 2016, and 
that number is increasing.
    But we do not really have much evidence that there are 
plans in place or that there is training in place. I wonder if 
you all or maybe Mr. Barrios or the airlines could comment on 
how you are dealing with this, how you intend to improve it.
    Are members on the ground getting enough training or is 
that just kind of a management handout best practices?
    Would you all address that for me?
    Ms. Prophete. OK. I would like to address that. From the 
regional standpoint, we do not have the manpower to do the work 
that is required as the mainline counterparts. For instance, if 
you are working a Boeing aircraft, I am sure the mainline 
carriers might have six or seven people working. We might have 
to do that same aircraft with two in the smaller stations like 
a Wilmington or a Greenville-Spartanburg.
    So in some of those situations two people might not be able 
to handle the wheelchair, which is why it could be.
    The training, there is really not a lot of wheelchair 
training. I can honestly say as a rep, I do not think we get a 
training on wheelchairs.
    I think the real issue comes from the airlines not having 
like a Big Brother to monitor. Everything is being self-
monitored. So they are getting away with it, which nobody is 
over top of them saying, ``Hey, you have to do this, this, and 
this, and if you are not doing this, you will be fined.'' And I 
think that is part of the problem.
    Ms. Titus. Thank you.
    Mr. Barrios? [Speaking foreign language.]
    Mr. Barrios. [The following language was delivered through 
an interpreter.] In the case of the ramp, after OSHA dictated 
citations on Eulen, we have a rain of trainings, trainings in 
front of the computer, but right before and not very long 
before, people would go directly onto the ramp with no 
training.
    And the ramp is a place that is very insecure, very 
dangerous. And including today, there are people who are 
working on the ramp, like my coworkers, who have not received 
one single training.
    So the question as I see it is: why do we continue to wait 
until an accident happens until we act?
    And the people here who have been in accidents, who have 
been injured and our lives have been impacted, why is what we 
are saying being questioned?
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Larsen. The Chair recognizes Representative Brownley 
for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    I thank all of the panelists for being here. This has been 
a very informative meeting, and I appreciate all of your 
efforts to travel and to be here.
    Mr. Harrison, you talked about in your testimony the fact 
that the airlines really operate under a model of continuous 
safety improvement, that safety is always number one in terms 
of priorities.
    So when the airline's contractors have serious OSHA 
complaints, allegations, I am sure that is a concern for the 
airlines. I am more interested in what actions are taken by the 
airlines to ensure that these allegations are corrected and 
addressed?
    Mr. Harrison. Representative Brownley, thank you for your 
question.
    So first of all, I think the contracts that the carriers 
have with these ground service providers provide they have to 
comply with the law. They provide certain monitoring and those 
sorts of things.
    I do not really have a specific anecdotal situation to give 
you to say this is one and this what they did in response. I 
think they are dealt with on an individual basis.
    So if you have something that comes up or a breach that the 
airlines see, I believe they address it appropriately with that 
contractor, and you certainly see you have instances that 
happen. I mean, accidents happen, and that is part of the 
learning process, but I think the airlines deal with those on a 
case-by-case basis and try to address it. They are not ignored.
    Ms. Brownley. OK. And do you know of any instances where 
the airlines have disengaged from a contractor once the 
contract was up to say, ``You are not complying enough. We are 
not satisfied with your performance. Therefore, we are going to 
go out to bid to look for others''?
    I understand in some places across the country there is not 
a lot of competition, but I am from the L.A. area, and I know 
there is plenty of competition there.
    So do you know of any instances of that?
    Mr. Harrison. Not specifically.
    Ms. Brownley. OK. And then in smaller areas----
    Mr. Larsen. Microphone. Microphone, Mr. Harrison.
    Mr. Harrison. I do not know of any specific instances, but 
I am sure it has happened.
    Ms. Brownley. So you know, in other parts of the country 
where regional carriers are the contractors to fulfill some of 
these responsibilities, in some cases they are wholly owned 
subsidiaries, and so I am wondering in terms of contract 
negotiations, et cetera, what role does the airline actually 
have over and above these regional carriers in those 
negotiations, if any.
    Mr. Harrison. So, for example, is a particular mainline 
carrier over a wholly owned regional?
    So typically there are legal restrictions on the ability of 
the mainline carrier to get involved in negotiations like that. 
They are separate entities, and each entity would engage in its 
own negotiation.
    Ms. Brownley. OK. Thank you.
    And, Mr. Harrison, do you support the Federal minimum wage 
or does the airline support the Federal minimum wage to $15 
that Congress passed?
    Mr. Harrison. So Airlines for America does not take a 
position on any wage particular issue. I think that is for this 
body to address and for the Government to address. What they 
require is compliance.
    So what we ask, I think, is that our industry not be 
targeted specifically where they say the airline industry ought 
to have this particular thing. I think that is part of a 
broader economic discussion that this body and other bodies 
here on the Hill can have and is appropriate.
    But the A4A does not take a position.
    Ms. Brownley. Thank you.
    Mr. Callaci, talking about the minimum wage, the House 
passed legislation to raise it to $15 an hour. So from your 
vantage point, besides increasing the minimum wage, what other 
sort of policy--and I know you said you are not a policy 
expert; you are an economist--but what other recommendations do 
you have that counter the sort of outsourcing trends that you 
outline in your testimony?
    Mr. Callaci. Yes. So I mean, I can speak a little bit to 
that. So, yes, the minimum wage should be increased. We have 
now a great natural experiment of all the minimum wage 
increases happening in municipalities and unemployment did not 
go up.
    But things like, for example, a living wage law, what that 
does is it sort of puts a break on the outsourcing. If you are 
a more efficient contractor, you can still outsource, but you 
cannot do it just because the wages are lower.
    So those sorts of mechanisms, yes, to make that bridge 
between the contractor and the----
    Mr. Larsen. I will ask Dr. Callaci to give a more complete 
answer for the record.
    Ms. Brownley. Thank you. I yield back.
    Mr. Larsen. Before we move on, I have been notified by the 
clerk I need to ask for a unanimous consent request. I hope we 
get some support on this. It has to do with there is a 
translator involved with Esteban Barrios, and so I just ask 
unanimous consent to allow the translator, Ms. Margarita 
Alonzo, to provide answers in English for Mr. Esteban Barrios 
when necessary.
    Also, I want to apologize that we did not get this sorted 
out ahead of time. That is on us, and we will do better in the 
future.
    And one final thing. I would indulge Members. If you are 
bilingual still allow the witness to answer fully. Even if you 
do understand the answer because you are bilingual, please 
allow the witness to answer fully before you move on, for the 
rest of us who are not bilingual.
    And then we will figure out how to deal with this in the 
future.
    Without objection, so ordered on the unanimous consent.
    Representative Garcia from Illinois.
    Mr. Garcia. Thank you, Mr. Chairman.
    I would like to thank all of the panelists who are here and 
all of the workers, of course, as well.
    I have been an activist and an advocate for collective 
bargaining rights for workers, for workers who are seeking to 
improve their life because I represent a working-class district 
in Chicago. As a matter of fact, my district is very close to 
both O'Hare Airport, the busiest in the country, and I live 
right near Midway Airport.
    As a matter of fact, thousands of constituents that I 
represent work or have families and friends who work in various 
ground worker jobs at both airports. So I get it, and I 
understand sometimes the life threatening and physically 
demanding conditions that workers are exposed to and tragically 
still many only make a minimum wage.
    Fortunately, over the past several years, airport workers 
have leveraged their bargaining rights. We have stood with them 
in Chicago. They have gone on strike, and they have eventually 
earned a $15 an hour minimum wage.
    That cannot be said, however, across the country, as you 
all are testifying here today, and not all workers make those 
wages at both of the airports in Chicago.
    My first question has to do with the outsourcing workers 
from the major airline companies. This is an issue that I have 
been very engaged in as it relates to the offshoring of repair 
and maintenance jobs, but I understand it has significant 
importance to our domestic airline ground workforce here as 
well.
    So, Ms. Prophete, the Communications Workers of America 
represent hundreds of thousands of airport workers. Can you 
first share with the public the benefits of union 
representation when seeking better pay and working conditions 
for airport workers?
    And please keep it brief because I have some other 
questions which I will ask.
    Ms. Prophete. I am sorry. You wanted to know what was the 
benefit of having a union?
    Mr. Garcia. Yes.
    Ms. Prophete. Oh, I mean, it has been great for us because 
we have been able to speak up for our members, to bargain 
better wages. When I first started at Piedmont Airlines, I made 
$8.60. Now their starting rate is at least $12.50. We are not 
quite at $15 yet, but we would not have been able to accomplish 
that without a bargaining unit.
    Mr. Garcia. Very well. And with respect to incidents like 
the rage incident that you testified to earlier, what it says 
about the causes of rage in those incidents and what 
protections for agents need to be in place, in your opinion.
    Ms. Prophete. We need enforcement. We have the passenger 
rage bill, the FAA reauthorization bill, but the airlines are 
not being enforced. We still have passengers that are getting 
very angry, striking us, hitting us, and we do not see the 
enforcement that airlines are being held accountable to.
    Mr. Garcia. Thank you.
    And this is a question for either Senor Barrios, Ms. 
Patrick-Cooper, or Ms. Prophete.
    I remain very concerned about the potential efforts of 
major industry players to continue to rely on a contracted 
workforce. How does outsourcing these jobs benefit major 
aviation industry giants?
    And what do you think should be done from a public sector 
angle to address these workforce challenges?
    [Speaking foreign language.]
    Mr. Barrios. [The following language was delivered through 
an interpreter.] So I think there should be regulations with 
respect to the ramp. There are many things that are not 
regulated, and this causes situations where the workers are not 
protected.
    Ms. Prophete. I want to piggyback on him.
    I agree with what he is saying. Like with the mainline 
carrier, the amount of employees that they allow to work one 
aircraft, we need regulations that if we work their aircraft, 
we should have the same amount of employees that have to work 
that same aircraft.
    Right now they are doing it with contracting us. We might 
work a Boeing with two people whereas the mainline carrier will 
have six.
    Mr. Garcia. Anyone else? Ms. Cooper?
    Ms. Patrick-Cooper. Well, as far as the airline catering 
workers and with the regulations, I think one of the things you 
said earlier about the two airports in Chicago, as far as 
living wages. I mean, our main concern is that we know that 
Gate Gourmet and Sky Chefs are contractors of the three 
airlines, and we feel that these airlines have tremendous 
market power to be able to right this wrong, which we feel 
which is where our members are unable to live the American 
dream, earn the living wages, and be able to have affordable 
healthcare.
    Mr. Garcia. Thank you so much.
    Mr. Chairman, thank you for your indulgence. I yield back.
    Mr. Larsen. Thank you, Representative Garcia.
    One clarification. In your questioning, you did ask a 
portion of that in Spanish. It may have been a clarification, 
but we have to have a record.
    So just for the clerk and the record, could you just repeat 
your question that you asked in English, the Spanish part in 
English?
    Mr. Garcia. The Spanish part was only a request that they 
make their responses brief.
    [Laughter.]
    Mr. Larsen. Thank you.
    Mr. Garcia. And they indulged.
    Mr. Larsen. Thank you very much.
    We have to keep a record of the hearing. So I appreciate 
that.
    We will now move for 5 minutes to Delegate Norton from 
Washington, DC.
    Ms. Norton. Thank you very much, Mr. Chairman, and I want 
to thank you for this hearing.
    We have had hearings on major issues in the airline 
industry, and here we are focusing on perhaps the not so 
glamorous parts.
    Mr. Larsen. Ms. Norton, could you like get right in the 
microphone please?
    Ms. Norton. Here we are focusing on perhaps the not so 
glamorous but utterly necessary part of this industry.
    I ask that this article from the Washington Post, November 
26, be included in the record. ``Twelve arrested at Reagan 
Airport in worker protest, union official says.''
    Mr. Chairman, I ask unanimous consent that this Washington 
Post article be put in the record.
    Mr. Larsen. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
 Article, ``Twelve Arrested at Reagan Airport in Worker Protest, Union 
 Official Says,'' by Martin Weil, Washington Post, November 27, 2019, 
         Submitted for the Record by Hon. Eleanor Holmes Norton
  twelve arrested at reagan airport in worker protest, union official 
                                  says
https://www.washingtonpost.com/local/public-safety/twelve-arrested-at-
reagan-airport-in-worker-protest-union-official-says/2019/11/27/
5cf1941e-10d0-11ea-bf62-eadd5d11f559_story.html

By Martin Weil
November 27, 2019

    A dozen people were arrested at Reagan National Airport on Tuesday 
after blocking traffic in a sit-in protest to call for better pay for 
workers who provide in-flight food and beverages for airlines, 
according to a union that said it represents the catering workers.
    The union, local 23 of Unite Here, said it led the protests at 
Reagan to call for higher pay and better health benefits. The group 
said demonstrations took place at 17 cities throughout the United 
States.
    The Tuesday demonstrations came amid heavier traffic at airports 
for the Thanksgiving holiday.
    The union said the catering workers prepare, pack and deliver food 
and beverages served on American Airlines as well as other major United 
States carriers.
    However, American issued a statement saying that the workers are 
employed by catering companies and not the airline.
    In its statement, American expressed confidence that with the 
continuing aid of federal mediators the catering firms and the union 
will reach new nationwide agreements increasing pay and benefits.

    Ms. Norton. I appreciate that Ms. Patrick-Cooper of the DC 
chapter of UNITE HERE is here. I have a question that is 
related to subcontracting work.
    I would like to know whether United Airlines, the employees 
who work directly for United Airlines, receive the same 
compensation as those who work for subcontractors. 
Subcontractors, among the samples I have been given, is Gate 
Gourmet.
    How do the wages and the benefits of the subcontractors and 
those who work directly for the airline compare, United 
Airlines in particular?
    Ms. Patrick-Cooper. I do not have the actual numbers, but 
one thing we do know is that our members are at the lower end 
in the spectrum as far as wages.
    Ms. Norton. I am not asking for the numbers.
    Ms. Patrick-Cooper. OK.
    Ms. Norton. I am asking whether or not the subcontractors, 
subcontract employees and those who work directly for the 
airline are in competition with one another in terms of wages 
or essentially regarded as being treated in the same way even 
though they do not work directly for the airline.
    Ms. Patrick-Cooper. They have different packages as far as 
wages and benefits. Our members are at the lower end.
    Ms. Norton. They are not unionized, are they?
    Ms. Patrick-Cooper. I am sorry?
    Ms. Norton. The subcontract employees, are they unionized?
    Ms. Patrick-Cooper. So the two contractors or workers that 
are our members are with Sky Chefs and with Gate Gourmet.
    Ms. Norton. Yes.
    Ms. Patrick-Cooper. And they are contractors of the 
airlines. They provide the food for the airline. So there are, 
you know, many different employees within the airlines, with 
the flight attendants, the grounds ones, and ours are into the 
food and hospitality portion.
    One thing we do know is that our members' benefit packages 
and wages are nowhere near in line with the other employees.
    Ms. Norton. With the subcontract employees?
    Ms. Patrick-Cooper. They are not subcontracted. They are 
within a collective bargaining. We represent them.
    Ms. Norton. I see.
    Ms. Patrick-Cooper. Yes.
    Ms. Norton. In your testimony, in particular, Ms. Patrick-
Cooper, and here I am going to quote. You said, ``We believe 
[the airline's] contract terms with airline caterers leave 
little room to pay workers a living wage.''
    You mentioned the contract terms with the caterers. Could 
you expand on that? What does that mean?
    Ms. Patrick-Cooper. A living wage and what we feel is 
someone able to work one job, as our theme says, ``one job 
should be enough.''
    Ms. Norton. But you say the airline's contract terms with 
the caterers. What is there about the contract terms that 
leaves little room to pay workers a living wage?
    Ms. Patrick-Cooper. I am sorry. I am not understanding.
    Ms. Norton. I am just quoting. You say, ``We believe the 
airline's contract terms----
    Ms. Patrick-Cooper. OK. Thank you.
    Ms. Norton [continuing]. ``With the airline caterers----
    Ms. Patrick-Cooper. Yes.
    Ms. Norton [continuing]. ``Leave little room to pay workers 
a living wage.''
    Ms. Patrick-Cooper. Yes. So American Airlines, the three 
big airlines, they themselves have contracts with Gate Gourmet 
and with Sky Chefs, which are members. So they are providing a 
service to the airline, which we feel is very correlated and 
key to our members being able to get a living wage.
    Because at the end of the day, you know, American has 
publicly said that they understand that the new labor contracts 
between UNITE HERE, Sky Chefs, and Gate Gourmet, that it will 
result in increased cost for the airline customers, including 
American Airlines.
    So we feel that they really truly are piece and part, can 
be very instrumental in us being able to settle this.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Larsen. Thank you.
    I now recognize for 5 minutes Representative Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Mr. Brown, in your written statement, in your written 
testimony, you state that airport ramps are dangerous. Would 
you please describe some of the conditions that exist today 
that are dangerous for the ramp workers?
    Mr. Brown. Thank you for asking me the question, Ms. 
Plaskett.
    I mean, inherently ramps are dangerous because there are 
giant jet planes moving around. You have got jet blast coming 
out one end, and you have got sucking into at the other end, 
other side.
    There are precautions that have been put into place to 
account for these things. You have got numerous people that 
have jobs like caterers who have to put food on the plane in a 
short period of time. Cabin service has to get on the plane and 
clean it. Laboratory services have to work the outside. New 
potable water has to be put on. The bags have to come off, and 
some go to the bag room. Some of them are sent to on-line. By 
``on-line'' I mean to connecting flights going somewhere else.
    Ms. Plaskett. Right.
    Mr. Brown. There are a lot of moving pieces, but the 
airlines do know about all of these pieces, and they account 
for it.
    As I stated in that written testimony, every piece of 
equipment is in a specific location. It moves in a certain 
fashion, and guidelines were put in place to account for that.
    Ms. Plaskett. Thank you.
    In anyone's, any of the witnesses' opinions, have the 
employers and contractors adequately addressed the dangerous 
conditions? Does anyone have a thought on that?
    Ms. Prophete. I would like to address that.
    Ms. Plaskett. Sure.
    Ms. Prophete. No. In the situation with Kendrick, we have 
been constantly and constantly talking about lighting, and they 
have not addressed the lighting issue yet, and Kendrick died on 
August 11th.
    Ms. Plaskett. And who would be responsible for that 
lighting?
    Ms. Prophete. Piedmont Airlines.
    Ms. Plaskett. The airline or the contractor?
    Ms. Prophete. We are the contractor.
    Ms. Plaskett. Or the authority that manages the airport?
    Ms. Prophete. The city of Charlotte manages the airport, 
and they say Piedmont is responsible for the lighting.
    Ms. Plaskett. Does anyone have a thought on who is 
responsible for that? No?
    And I think that is interesting because, you know, the 
responsibility could shift, right? We are saying it is the 
airline's responsibility, but ultimately the city that runs the 
airport I think has the ultimate responsibility to ensure that 
those individuals who are working there who are, in fact, 
residents of their district should be the ones that are taking 
care of that.
    I think we like to put a lot of things on the airlines that 
sometimes are the contractors, sometimes are the authorities 
themselves that are responsible for it.
    With that, I know we had some discussion about outsourcing, 
and I was hoping, Mr. Harrison, you could explain the need for 
outsourcing. I know that the airlines say that it is not part 
of their core competence.
    Why do they want to stick with the core competence as 
opposed to outsourcing, as opposed to keeping all of the 
functions managed within themselves?
    Mr. Harrison. Certainly. And thank you for your question.
    So I think core competence is one of the reasons that they 
subcontract out. For example, catering is a good example of 
that.
    I think another reason is efficiency when, for example, I 
testified earlier that if you are going into a small airport, 
there may be a frequency issue where you only have two flights 
a day there, one in the morning and one in the evening. The 
airline, if that is the only flights they have, it does not 
make any sense to staff it because that creates a very 
difficult work schedule for the employees who are trying to 
commute in and out.
    So sometimes they use either another carrier there or 
another contractor.
    Ms. Plaskett. In the Virgin Islands, on the island that I 
live on, St. Croix, American Airlines outsources their gate 
agents and the individuals that are there.
    But in the end their competence or their customer service 
really impacts you, the company. It really impacts American 
Airlines.
    How do you ensure that the services that you outsource are 
functioning properly?
    And what responsibility can Congress have to those 
individuals that you contract to make sure that they are done 
properly and that it is not just the airlines that we are 
putting the onus on?
    Mr. Harrison. Well, I think the airlines contractually have 
a right to make sure that the contractor is performing the job 
well. That is audited.
    Ms. Plaskett. Certain service agreements or service 
mandates?
    Mr. Harrison. Correct. And those contractors are monitored 
to make sure that they are complying.
    There is also an entire web of laws from the FAA to TSA, to 
OSHA that are in place, and the airlines require compliance 
with those laws as well.
    Ms. Plaskett. OK. Thank you. Thank you very much.
    Mr. Harrison. Thank you.
    Mr. Larsen. Thank you.
    Rewarded with her patience, I want to recognize 
Representative Wilson of Florida for 5 minutes.
    Ms. Wilson. Thank you, Mr. Chairman, and also for having 
this hearing.
    My question is for Mr. Barrios.
    You mentioned in your testimony, and we all know this, that 
OSHA levied substantial fines against Eulen. Have the working 
conditions improved since OSHA citations?
    Mr. Barrios. [The following language was delivered through 
an interpreter.] Many things have been improved. Thanks to you 
for the support from you and the other congresswoman and the 
pressure from OSHA, we have succeeded in having some things 
fixed at our workplace, but not all of the things have been 
addressed.
    Ms. Wilson. Commissioner Higgins, thank you so much for 
coming to the hearing. I was pleased to learn about your 
legislation to amend Miami-Dade's procurement process to 
include vendors' reported working conditions and wages and 
notices of violations from regulatory agencies as factors in 
awarding a contract.
    What impact do you think this would have on working 
conditions at Miami International Airport?
    And how can Congress support your effort to improve working 
conditions?
    Ms. Higgins. Well, in the case of this new legislation, 
because we believe we are no longer able to require 
subcontractors like Eulen. We have another four that are 
performing similar types of services at the airport to comply 
with living wage.
    They compete for permit at our airport. So what we are 
going to do, and hopefully my fellow commissioners will pass 
this, is embark upon a new procurement process where not only 
are we going to be asking these companies to compete based on 
their technical ability to do the job, but we are going to be 
asking them to compete in the American style on how they treat 
their employees.
    So, for example, they do not have to pay living wage, but 
will they pay a living wage?
    Will they give access to full-time jobs rather than part-
time jobs? Let's be very clear. When they only let somebody 
work 20 hours a week, it is because they do not want to pay for 
their health insurance.
    Is there access to health insurance?
    Is there a labor piece agreement in place, whether or not 
they are represented?
    So those are the kinds of things that we actually are going 
to let the free market compete on. We happen to know because we 
have four out of our five permittees at the airport, one of 
which is unionized, three of which are not, that we do not 
receive these kinds of worrisome complaints on that require an 
actual OSHA investigation and our congresswomen to get involved 
with to make this happen.
    So certainly you can call any of my fellow commissioners 
and ask them for their support on this legislation because this 
way at least we can do our part and work around the fact that 
Congress has not yet asked the airlines and their 
subcontractors and subsidiaries to comply with local wage 
ordinances.
    Ms. Wilson. Thank you.
    Mr. Harrison, why do you think the industry has failed at 
implementing simple measures, like adding seatbelts on vehicles 
or ensuring that the tarmac is adequately lit at night or 
paying a livable wage?
    The job is inherently dangerous. So why has the industry 
not stepped up?
    Mr. Harrison. So I am speaking on behalf of the airlines. I 
am not here on behalf of the contractors or them. So I cannot 
really speak to any specific issues.
    What I can tell you is that airlines take safety as their 
number one priority. There is a process in place for continuous 
safety improvement, and they look for ways to try to deal with 
those situations.
    Sometimes it is complicated because, for example, there may 
be an airport, I think, as the Representative said a minute 
ago, there may be an airport that is owned by a city that is 
responsible for the lighting.
    If there is an issue and something gets brought to the 
airline's attention and there is a problem, they will try to 
deal with that maybe with the local authority.
    But I think it is a continuous process to try to make 
things better, and the airlines have certainly engaged in that. 
There are instances, I think, that have been brought up here 
where bad things have happened, certainly, and I think those 
are things that everyone can learn from and figure out how to 
do better going forward.
    Ms. Wilson. Mr. Brown, Eulen employees have reported that 
they have been fired, transferred to hotter jobs, and forced to 
eat lunch in the bathroom for engaging in union activities. Do 
you consider the health and safety problems raised by Ms. 
Prophete and Mr. Barrios and his coworkers to be legitimate?
    Do you think that these complaints are true or are the 
workers lying to generate negative media or public attention, 
which you said?
    Mr. Brown. I cannot speak to anything specifically. I think 
the witnesses that are here, you have to take them at their 
face value, but you know, for me to tell you what is happening 
with Eulen in Miami, I am not there.
    Ms. Wilson. I will yield back.
    Mr. Larsen. Thank you.
    So are there any further questions from members of the 
subcommittee?
    [No response.]
    Mr. Larsen. I had further questions, but they have been 
asked by Members since I had my time a couple of hours ago.
    So seeing no other questions, I do want to thank the 
witnesses, all of the witnesses, for your testimony today. The 
contribution to today's discussion was very useful, and you 
have given us some food for thought as well as some followup.
    So I think you should expect to hear from committee staff.
    I do ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    So ordered.
    And unanimous consent that the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
now stands adjourned. Thank you.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

Letter of January 24, 2020, from Hearing Witness Brian Callaci, Ph.D., 
 Postdoctoral Scholar and Labor Economist, Submitted for the Record by 
                            Hon. Rick Larsen
                                                  January 24, 2020.
Chairman Rick Larsen
House Subcommittee on Aviation
Rayburn House Office Building, Room 2165

Re: Oversight of Working Conditions for Airline Ground Workers

    Dear Chairman Larsen, Ranking Members, and other members of the 
Subcommittee:
    I would like to submit for the record my response to Mr. Russell 
Brown's testimony to the subcommittee's January 15th hearing, Oversight 
of Working Conditions for Airline Ground Workers. In his testimony, Mr. 
Brown alleges that my report, ``Fissuring in Flight,'' is 
``unpersuasive, overgeneralized, and, at times, misleading.'' This is 
an extraordinary claim to make regarding a witness's academic work, as 
is evidenced by Politico reporter Sam Mintz's reaction: ``Not sure I've 
ever seen this before.'' \1\
---------------------------------------------------------------------------
    \1\ https://twitter.com/samjmintz/status/1217476894997782530
---------------------------------------------------------------------------
    I will address Mr. Brown's criticisms one at a time. I think it 
will be clear after I have addressed them that where Mr. Brown's 
allegations make any sense at all, taking them into account would 
strengthen rather than weaken the findings of the report. This is 
because, at every opportunity, I used conservative assumptions in my 
analysis.

    1)  Mr. Brown claims that the North American Classification System 
(NAICS) industry that I use in the report to capture outsourced airline 
workers, ``Support Activities for Transportation,'' is inappropriate 
and excludes workers in the ``Other Airport Operations'' category. He 
argues that the latter is the more appropriate NAICS industry 
pertaining to outsourced airline workers.

    Mr. Brown's criticism misapprehends the NAICS industries in 
question. Mr. Brown's preferred industrial classification, Other 
Airport Operations, is in fact a subset of the broader Support 
Activities for Air Transportation used in my report--no worker in the 
former is excluded from the latter at all. What is more, Other Airport 
Operations is characterized by even lower wages than the broader 
Support Activities for Air Transportation. This would seem to 
strengthen rather than weaken my finding that outsourcing is associated 
with reduced wages.
    As I plainly outline in Appendix A on page 50 of the report, NAICS 
industrial classifications move from the general to the specific 
depending on the number of digits. Support Activities for Air 
Transportation, the industry I used, is what is known as a four-digit 
NAICS industry. Other Airport Operations, Mr. Brown's preference, is a 
more detailed, six-digit NAICS industry, fully contained within the 
broader four-digit NAICS industry.
    I reproduce the relevant portion of Appendix A below, to show the 
hierarchy of broad to detailed NAICS industries in the aviation sector:

    48: Transportation & Warehousing
      481: Air Transportation
      488: Support Activities for Transportation
        4881: Support Activities for Air Transport
          48811: Airport Operations
            488111: Air Traffic Control
            488119: Other Airport Operations
          48819: Other Support Activities for Air Transport

    As I state page 12 of the report,

        ``Air Transportation encompasses what we would consider the 
        airline industry, including cargo and charter airlines. Support 
        Activities for Air Transportation includes companies that 
        provide specialized services to the air transportation 
        industry, such as airport operations and servicing and 
        maintaining aircraft. Companies in the support for air 
        transportation industry, such as Air Serv and Menzies, are 
        contractors performing services outsourced by airlines and 
        airport authorities, so employment in this industry is a rough 
        measure of the extent of outsourcing.''

    Other Airport Operations, which Mr. Brown claims is the more 
appropriate industry, consists of a narrower range of activities, such 
as transporting disabled passengers within airports and handling 
baggage.
    Moreover, Mr. Brown's call for me to use Other Airport Operations 
instead of Support Activities for Air Transportation falls flat because 
I do show the relationship between wages in Other Airport Operations, 
Support for Air Transportation, and Air Transportation, on Page 15. As 
can be seen from Figure 2 on that page, reproduced below, wages in 
Other Airport Operations are considerably lower than either the broader 
Support for Air Transportation industry or the Air Transportation 
industry.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    2)  Mr. Brown claims that I unjustifiably exclude workers in food 
service and janitorial services at airports in my estimates. These 
industries are classified under NAICS codes 722310 and 561720, 
respectively.

    Mr. Brown is absolutely correct that I exclude workers in these 
industries from my analysis, but seems to misunderstand the implication 
of that omission. First of all, Mr. Brown seems to confuse the 
treatment of industries vs. occupations in government statistics. It is 
not possible, using Quarterly Census of Employment and Wages data, to 
break out those janitorial and food service workers who happen to 
service airports and aircraft from the rest of the much larger food 
service and janitorial services industries. For example, someone with 
the occupation of janitor employed by Air Serv is employed in the 
Support Activities for Air Transportation NAICS industry, while a 
janitor for a cleaning firm like ABM, even if employed at an airport, 
is employed in the janitorial services NAICS industry.
    More importantly, by using only the Support Activities for Air 
Transportation NAICS industry to count outsourced workers, I 
conservatively bias my estimates towards a lower number of outsourced 
workers. As my report states on page 12:

        ``However, `support activities' is likely to undercount 
        outsourced aviation workers, because some of the companies 
        providing services to airlines are not classified in the 
        `support activities' industry. For example, outsourced janitors 
        employed by a janitorial services company like ABM or security 
        guards employed by a security company like G2 will show up in 
        the janitorial or security industries, respectively, not the 
        support activities for air transportation industry.''

    Finally, food service, janitorial services, and security services 
are some of the lowest-wage industries in the US. By leaving those 
industries out of the analysis, my report is extremely unlikely to bias 
my outsourced worker wage estimates in an upward direction. Thus, wage 
inequality between insourced and outsourced workers is likely even 
greater than suggested by my results.
    In short, with regard to industry classification codes, Mr. Brown 
confuses occupations with industries, and detailed industry NAICS codes 
with broad industry NAICS codes. Were it possible to take Mr. Brown's 
criticisms into account using publicly available government data, it 
would likely result in estimates showing that the actual extent of 
outsourcing is higher, and the wages even lower, than my estimates 
imply.

    3)  Mr. Brown accuses my report of ignoring international flights 
in calculating my employment and wage figures.

    Mr. Brown is absolutely correct that I leave out international 
flights in the section of the report pertaining to regional vs. 
domestic airline employment and wages. My report pertains specifically 
to the US Domestic Airline Industry--it says so in the title. The 
report argues that legacy carriers have been substituting regional for 
mainline flights on domestic routes. It is silent on the matter of 
international routes, which are outside the scope of the study.
    Moreover, the wage disparities documented in the report between 
regional and legacy airline employees would be even greater were I to 
include international flights, because international pilots and flight 
attendants earn higher salaries than their domestic counterparts. Once 
again, I used conservative assumptions in the report to understate 
rather than overstate the findings. The conservative assumptions are 
also more analytically appropriate, as my analysis is intended to 
provide an accurate apples-to-apples comparison of domestic regional to 
domestic legacy workers.

    4)  Mr. Brown argues that labor markets are perfectively 
competitive and therefore wages ``find their level,'' obviating the 
need for labor unions or labor market policies to protect workers.

    The perfect competition assumption is completely untenable in light 
of recent empirical evidence in economics.\2\ The present consensus in 
the economics profession is that employers across a wide range of labor 
markets have wage-setting power: they do not take wages as given by the 
market. That is, labor markets are monopsonistic rather than perfectly 
competitive. The hub-and-spoke nature of airline industrial 
organization, with its attendant high concentrations of dominant 
airlines at hub airports, would seem to make airline and airline 
services labor markets more rather than less monopsonistic than 
average. For pilots, flight attendants, or contractors selling labor 
and non-labor inputs to airlines in say, Salt Lake City (a Delta hub), 
how many employers are effectively competing for their inputs?
---------------------------------------------------------------------------
    \2\  See, for example:
    Azar, Jose, Iona Marinescu, and Marshall Steinbaum. 2019. Labor 
Market Concentration. NBER Working Paper 24147.
    Cengiz, Doruk, et al. 2019. The Effect of Minimum Wages on Low-Wage 
Jobs. Quarterly Journal of Economics, 134(3): 1405-1454.
    Dube, Arindrajit, Alan Manning, and Suresh Naidu. 2018. Monopsony 
and Employer Mis-optimization Explain Why Wages Bunch at Round Numbers. 
NBER Working Paper 24991
    Dube, Arindrajit, et al. Forthchoming. Monopsony in Online Labor 
Markets. American Economic Review: Insights.
    Manning, Alan. 2003. Monopsony in Motion: Imperfect Competition in 
Labor Markets. Princeton: Princeton University Press.
---------------------------------------------------------------------------
    To conclude, Mr. Brown's criticisms are quite wide of the mark. 
Were I to take them seriously, however, they would bias my results in 
favor of, rather than against, my conclusions.
        Sincerely,
                                             Brian Callaci,
           Postdoctoral Scholar, Data & Society Research Institute.



                                Appendix

                              ----------                              


 Question from Hon. Salud O. Carbajal to Esteban Barrios, Ramp Worker, 
Miami International Airport, testifying on behalf of Service Employees 
                     International Union Local 32BJ

    Question 1. I found your testimony to be very compelling--
specifically as you discuss the health hazards and exposure to 
communicable diseases that not only workers but also passengers are 
exposed to. You discuss roach-infested transport trucks that carry 
supplies--like pillows and blankets for passengers--as well as exposure 
to blood-borne pathogens that carry communicable diseases such as 
Hepatitis B. What are your ideas on how Congress can provide better 
oversight to ensure the health and safety of workers and passengers?
    Answer. Congress can provide better oversight to ensure the health 
and safety of workers and passengers by doing two things:
    1.  Urging airlines to only hire responsible subcontractors. As we 
heard at the hearing, both Delta Airlines and American Airlines employ 
Eulen America, a contractor with a poor record. Members of Congress can 
call the CEOs of these two companies and ask that they only work with 
responsible contractors, who don't have a track record of jeopardizing 
their workers' safety.

      Delta Air Lines
      Ed Bastian, CEO

      American Airlines
      Doug Parker, CEO

    2.  Calling on OSHA to continue their inspections at airports and 
with contractors with documented history of complaints, specifically, 
calling for follow-up inspections of Eulen America and Menzies Aviation 
at Miami International Airport and Menzies Aviation at Baltimore 
Washington International Thurgood Marshall Airport.

    In the future, Congress may consider exploring that funding for 
airport infrastructure be contingent on employment of responsible 
contractors and meaningful standards to ensure there is investment in 
the workforce.

                                    
</pre></body></html>
